<html>
<title> - AFRICAN ELEPHANTS</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
                     AFRICAN ELEPHANTS--CORAL REEFS

=======================================================================

                                HEARING

                               before the

                      SUBCOMMITTEE ON FISHERIES 
                             CONSERVATION,
                          WILDLIFE AND OCEANS

                                 of the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                                   on

                                H.R. 39

          To reauthorize the African Elephant Conservation Act

                                  AND

                             H. CON. RES. 8

 Expressing the sense of Congress with respect to the significance of 
     maintaining the health and stability of coral reef ecosystems

                               __________

                     MARCH 13, 1997--WASHINGTON, DC

                               __________

                            Serial No. 105-4

                               __________

           Printed for the use of the Committee on Resources


                               <snowflake>


                    U.S. GOVERNMENT PRINTING OFFICE
 40-189 cc                 WASHINGTON : 1997



                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                EDWARD J. MARKEY, Massachusetts
JIM SAXTON, New Jersey               NICK J. RAHALL II, West Virginia
ELTON GALLEGLY, California           BRUCE F. VENTO, Minnesota
JOHN J. DUNCAN, Jr., Tennessee       DALE E. KILDEE, Michigan
JOEL HEFLEY, Colorado                PETER A. DeFAZIO, Oregon
JOHN T. DOOLITTLE, California        ENI F.H. FALEOMAVAEGA, American 
WAYNE T. GILCHREST, Maryland             Samoa
KEN CALVERT, California              NEIL ABERCROMBIE, Hawaii
RICHARD W. POMBO, California         SOLOMON P. ORTIZ, Texas
BARBARA CUBIN, Wyoming               OWEN B. PICKETT, Virginia
HELEN CHENOWETH, Idaho               FRANK PALLONE, Jr., New Jersey
LINDA SMITH, Washington              CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
WILLIAM M. (MAC) THORNBERRY, Texas   ROBERT A. UNDERWOOD, Guam
JOHN SHADEGG, Arizona                SAM FARR, California
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              ADAM SMITH, Washington
CHRIS CANNON, Utah                   WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   CHRIS JOHN, Louisiana
JOHN PETERSON, Pennsylvania          DONNA CHRISTIAN-GREEN, Virgin 
RICK HILL, Montana                       Islands
BOB SCHAFFER, Colorado               NICK LAMPSON, Texas
JIM GIBBONS, Nevada                  RON KIND, Wisconsin
MICHAEL D. CRAPO, Idaho

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director


      Subcommittee on Fisheries Comnservation, Wildlife and Oceans

                    JIM SAXTON, New Jersey, Chairman
W.J. (BILLY) TAUZIN, Louisiana       NEIL ABERCROMBIE, Hawaii
WAYNE T. GILCHREST, Maryland         SOLOMON P. ORTIZ, Texas
WALTER B. JONES, Jr., North          FRANK PALLONE, Jr., New Jersey
    Carolina                         SAM FARR, California
JOHN PETERSON, Pennsylvania          PATRICK J. KENNEDY, Rhode Island
MICHAEL D. CRAPO, Idaho
                    Harry Burroughs, Staff Director
                    John Rayfield, Legislative Staff
                 Christopher Sterns, Democratic Counsel



                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held March 13, 1997......................................     1

Text of:
    H. Con. Res. 8...............................................   102
    H.R. 39......................................................   101
Statement of Members:
    Cunningham, Hon. Randy ``Duke'', a U.S. Representative from 
      California ................................................     3
    Deutsch, Hon. Peter, a U.S. Representative from Florida......     5
    Farr, Hon. Sam, a U.S. Representative from California........     2
    Miller, Hon. George, a U.S. Representative from California...    50
    Peterson, Hon. John, a U.S. Representative from Pennsylvania.     1
    Young, Hon. Don, a U.S. Representative from Alaska; and 
      Chairman, Committee on Resources...........................     2

Statement of Witnesses:
    American Zoo and Aquarium Association (prepared statement)...    99
    Child, Dr. Brian, Community Development Advisor, Longwa 
      Integrated Development Program of Zambia...................    31
        Prepared statement.......................................    79
    Cousteau, Jean-Michael (prepared statement)..................    95
    De Ferrari, Gina, Director of TRAFFIC, World Wildlife Fund...    29
        Prepared statement.......................................    75
    Garcia, Terry D., Acting Assistant Secretary for Oceans and 
      Atmosphere, NOAA, Department of Commerce...................     9
        Prepared statement.......................................    61
    Ginsburg, Dr. Robert, Chairperson, Organizing Committee of 
      International Year of the Reef.............................    42
        Prepared statement.......................................    57
    Jones, Marshall P., Assistant Director for International 
      Affairs, U.S. Fish and Wildlife Service, Department of the 
      Interior...................................................    11
        Prepared statement.......................................    68
    Maple, Dr. Terry, Director of Zoo Atlanta....................    23
        Prepared statement.......................................    71
    Marks, Stuart, Safari Club International.....................    27
    Marlenee, Hon. Ron, Director of Legislative Affairs, Safari 
      Club International.........................................    27
        Prepared statement.......................................    73
    Murchison, David C., President, Southern Africa Wildlife 
      Trust (prepared statement).................................    97
    Polo, Barbara Jeanne, Political Director, American Oceans 
      Campaign...................................................    40
        Prepared statement.......................................    88
    Pomerance, Rafe, Deputy Assistant Secretary of State for 
      Oceans and International Environmental and Scientific 
      Affairs (prepared statement)...............................    93
    Porter, Dr. James, Professor of Ecology and Marine Sciences, 
      Institute of Ecology, University of Georgia................    43
        Prepared statement.......................................    59
    Telecky, Dr. Teresa, Director of the Wildlife Trade Program, 
      The Humane Society of the United States....................    25
        Prepared statement.......................................    51

Additional material supplied:
    African Elephant Conservation Act (16 USCS 4201-4244)........   129
    African Elephant Conservation Act Grant Program..............   112
    African Elephant Conservation Act Grant Projects in Range 
      Countries..................................................   105
    CAMPFIRE: Integrating Conservation and Development for a 
      Sustainable Future in Zimbabwe.............................   155
    Criteria for Funding Grant Projects..........................   113
    Guidelines for submission of proposals.......................   121
    Interior Department: List of AECA Projects Funded Through 
      March 5, 1997..............................................   106
    NOAA: ``White Pox'' Coral Reef Disease.......................    21
    Projects Funded through March 5, 1997........................   115
    Projects Funded through October 29, 1996.....................   137
    Proposal Format and Instructions.............................   125
    Reef Relief: Pictures of coral disease at North America's 
      only living coral reef.....................................   164
    Returns From Tourist Hunting in Tanzania.....................   142
    U.S. News & World Report: Articles on Elephants..............   150
    World Wildlife Fund: Key Projects Funded by the African 
      Elephant Conservation Act..................................    78

Communications submitted:
    Joint Letter of March 10, 1997, to Hon. James Saxton from 17 
      organizations..............................................    92
    Lapointe, Eugene (World Conservation Trust): Letter of March 
      13, 1997, to Hon. James Saxton.............................   160
    Maple, Terry L. (Zoo Atlanta): Letter of March 11, 1997, to 
      Hon. James Saxton..........................................   162
  REAUTHORIZE THE AFRICAN ELEPHANT CONSERVATION ACT, AND THE 
         HEALTH AND STABILITY OF CORAL REEF ECOSYSTEMS

                              ----------                              


                        THURSDAY, MARCH 13, 1997

        House of Representatives, Subcommittee on Fisheries 
            Conservation, Wildlife and Oceans, Committee on 
            Resources,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:05 a.m., in 
room 1334, Longworth House Office Building, Hon. John Peterson 
(Acting Chairman of the Subcommittee) presiding.

  STATEMENT OF HON. JOHN PETERSON, A U.S. REPRESENTATIVE FROM 
                          PENNSYLVANIA

    Mr. Peterson. Good morning. The Subcommittee on Fisheries 
Conservation, Wildlife and Oceans will come to order. I am John 
Peterson, 5th District, Pennsylvania, sitting in this morning 
for Chairman Saxton who was unable to join us.
    Today, the Subcommittee is meeting to hear testimony on two 
subjects, H.R. 39, the African Elephant Conservation 
Reauthorization Act, and H.Con.Res. 8, the Coral Reef 
Protection Resolution of 1997.
    Under the committee rules, any oral opening statements at 
hearings are limited to the Chairman and the ranking minority 
member. This will allow us to hear from our witnesses sooner 
and help members keep to their schedules. Therefore, if other 
members have statements, they can be included in the hearing 
record under unanimous consent without objection.
    I would like to start by explaining H.R. 39. The 
fundamental goal of H.R. 39 is to extend the authority of the 
Secretary of the Interior to allocate Federal money from the 
African Elephant Conservation Fund until September 30, 2002.
    Furthermore, we will be hearing from our witnesses 
regarding the various grant projects that their organizations 
have sponsored to assist in the conservation of the African 
elephant, the results of these projects, and how additional 
funds authorized by H.R. 39 will be spent in the future.
    The scope of this hearing will not include the issues of 
foreign aid or money provided to various African governments by 
the Agency for International Development.
    This morning, we will also consider H.Con.Res. 8, the Coral 
Reef Protection Resolution of 1997. Mr. Saxton introduced this 
resolution, along with Mr. Abercrombie, in early January as a 
tribute to the designation of 1997 as the International Year of 
the Reef.
    This resolution also expresses the congressional commitment 
to promoting stewardship of coral reef habitats; encouraging 
research and education about reef ecosystems; and improving the 
coordination of coral reef activities among Federal agencies, 
academic institutions, nongovernmental organizations, and 
industry.
    I notice that we have several coral reef pictures on 
display on my left, your right, and I look forward to hearing 
from our witnesses. Before we begin, I would like to recognize 
the American Oceans Campaign, which provided the initiative to 
get this resolution underway. AOC continues to do fine work on 
issues of marine and coastal conservation, and the Subcommittee 
looks forward to further collaboration with them in the future.
    I at this time would like to recognize the ranking minority 
member, but he has not arrived yet, and I will whenever he 
comes for any statement that he may have.
    [The statements of Mr. Young and Mr. Farr follow:]

  Statement of Hon. Don Young, a U.S. Representative from Alaska; and 
                    Chairman, Committee on Resources

    Mr. Chairman, as author of H.R. 39, I am pleased that you 
are holding this timely hearing on my legislation to 
reauthorize the African Elephant Conservation Fund.
    For the past nine years, this Fund has been the only 
continuous source of new money for elephant conservation 
efforts. While the Act authorizes up to $5 million per year, in 
reality the Congress has annually appropriated less than 
$900,000 to save and conserve this flagship species of the 
African continent.
    This money has been used to finance some 50 conservation 
projects in 17 range states throughout Africa. These projects 
have been sponsored by a diverse group of conservation 
organizations including the African Elephant Conservation 
Coordinating Group, Safari Club International, Southern Africa 
Wildlife Trust, and the World Wildlife Fund. These funds have 
been used to purchase anti-poaching equipment for wildlife 
rangers, to complete elephant population surveys and to move 
elephants from certain drought regions.
    While the world community has been successful in stopping 
the widespread slaughter of this magnificent animal, the fight 
to save the African elephant is far from over. It is essential 
that we extend the Secretary of the Interior's authority to 
allocate money for the African elephant beyond its statutory 
deadline, and that is the goal of H.R. 39. In fact, my bill 
would reauthorize the African Elephant Conservation Fund until 
September 30, 2002.
    This is a sound piece of legislation and this small 
investment will help to ensure that our largest land mammal, 
the African elephant, does not disappear from this planet.
    Mr. Chairman, I compliment you for the swift action you 
took in introducing, along with Mr. Abercrombie, the Coral Reef 
Protection Resolution of 1997. This is timely recognition of 
the International Year of the Reef designation.
    Needless to say, we have no coral reefs in the coastal 
waters of Alaska. Nevertheless, Alaskan waters do have the 
distinction of being the northernmost point in the Pacific 
which supports coral growth. A variety of corals live in the 
Gulf of Alaska, along the Aleutian chain, and in the Bering 
Sea.
    Since H.Con.Res. 8 is entirely non-controversial, I expect 
that it will and should receive favorable consideration in both 
chambers of Congress.

                                ------                                


   Statement of Hon. Sam Farr, a U.S. Representative from California

    Today we're holding hearings on two issues that I think are 
great examples of how the American government is thinking in 
the right direction in terms of fostering stewardship of 
natural resources on a global scale, recognizing that as 
resources do not limit themselves within political boundaries, 
our approaches to wise management should be similarly wide 
ranging.
    H. Con. Res. 8, the Coral Reef Protection Resolution of 
1997 honors the decision of scientists, policy makers, natural 
resource managers, and coral reef advocates from around the 
world to designate 1997 the International Year of the Reef. 
Coral reefs are amazing natural resources, valuable not only 
for their astounding diversity, habitat for commercially 
important species, vital importance to coastal tourism, coastal 
storm protection and just sheer beauty. They're also a valuable 
indicator for the health of our world's coastal oceans. Coral 
bleaching and reef degradation has pointed out to the world's 
scientists that our oceans are experiencing environmental 
stress from human activities such as tourism pressures, 
increased sediment and nutrient runoff from the land, 
pollutants from coastal development, destructive fishing 
techniques, commercial harvests, and vessel damage.
    This resolution is an important step in acknowledging the 
importance of our world's reefs, promoting critical research 
and education about reef ecosystems, and encouraging 
partnerships between Federal agencies, industry, academic 
institutions and non-governmental organizations for their 
protection.
    The African Elephant Conservation Reauthorization Act of 
1997 is motivated by a similar concern for global natural 
resources. The Elephant Conservation Act of 1988 was enacted to 
provide protection for the declining populations of the 
threatened African Elephant. This legislation, and the 
subsequent CITES ban on all commercial trade in elephant 
products has led to a significant decrease in poaching, and 
stabilization and in some cases increases in elephant 
populations. To the extent that this legislation would continue 
to authorize funding for conservation projects, I am supportive 
of it.
    I am, however, concerned that the activities of USAID have 
provided American taxpayer support for activities which lead to 
trophy-hunting and killing of African Elephants. While the 
USAID funding is not a direct concern of this legislation, I 
believe the subcommittee should consider the program in this 
hearing, and direct future attention to it, as it may be in 
opposition to what we are trying to achieve with H.R. 39, as 
well as counter to the wishes of the American people, 84% of 
whom, in a recent poll, stated that they were against elephant 
trophy hunting.

    Mr. Peterson. I will now introduce our first panel of 
witnesses. Our first witness is Congressman Duke Cunningham of 
California, who will be testifying on H.R. 39. The second 
witness is Congressman Peter Deutsch of Florida, who will 
testify on H.Con.Res. 8. Please try to limit your oral 
statements to five minutes if you can, but your entire 
statement will appear in the record. We will also allow you 
both to testify before we ask you questions. The Chairman now 
recognizes Mr. Cunningham.

      STATEMENT OF HON. RANDY ``DUKE'' CUNNINGHAM, A U.S. 
                 REPRESENTATIVE FROM CALIFORNIA

    Mr. Cunningham. Thank you, Mr. Chairman. Being an 
instructor-diver and an avid diver, I would like to work with 
Mr. Deutsch and see what he has got in his plan. I think one of 
the beauties that we have today is our reefs and barriers and 
the protection of them. They are being destroyed by pollution 
and the consequences that go along with it.
    But I am here not to talk about reefs, Mr. Chairman, but 
about a different problem that we have. I would like to thank 
you and your committee for the opportunity to testify in 
support of the African Elephant Conservation Reauthorization 
Act, H.R. 39. This is the second comprehensive hearing this 
Subcommittee has had on the issue in the last two years, and it 
demonstrates our shared commitment to elephant conservation 
itself.
    Most of us have seen the Nature series on television and 
know of the wanton slaughter of our elephants and wildlife 
abroad. It is uncontrolled, and poachers go in and destroy 
valuable assets that this earth has on a limited basis.
    H.R. 39 would reauthorize the African Elephant Conservation 
Act through the year 2002. A continuation of this important 
program will preserve America's leadership in conservation and 
restoration of African elephant herds in their native habitat. 
The future survival of the African elephant depends on 
America's leadership and our small but crucial amount of 
financial support.
    Now, I am known as a fiscal conservative, and I disagree 
with most of the things that this body tries to fund outside 
the Federal Government, outside the Constitution itself. Why is 
this different? What area should this fall under?
    Well, the AECA has been responsible for rescuing African 
elephants from a path of extinction. Foreign countries do not 
have the capability to save the elephants, due to economic 
reasons, due to lack of support within the country itself, 
hunger or poverty. People are driven in some cases to hunt 
elephants for economic reasons versus controlling the elephant 
population responsibly.
    Drought, shrinking habitat, and expanding human populations 
had some part in the decline of the elephant population. But by 
the mid-1980's, rampant and efficient poaching of elephants for 
the world ivory trade was found most directly responsible for 
elephants' endangerment.
    The funds collected and the funds generated by the AECA and 
other organizations will provide game wardens. It will provide 
security. It will provide water holes. It will provide better 
feed and habitat which an elephant takes about 500 acres to 
control.
    I would imagine if we had tyrannosaurus rex still on the 
planet, people would want to preserve it because it is an 
endangered species. It is not. But the elephant is, and it is 
something that lives with us every day. And, Mr. Chairman, 
remember it is the emblem of the Republican party, and the 
least thing we can do is to save it.
    The passage of the AECA reversed the downward trend of 
elephant population. A large part of the success of the AECA 
comes from the efficient African Elephant Conservation Fund 
administered by the U.S. Fish and Wildlife Service, which 
provided nearly $13 million during eight years to elephant 
conservation.
    The focus on the conservation fund was originally on 
antipoaching efforts. However, in the last few years, the 
project has focused not only on antipoaching efforts, but 
elephant population research, efforts to mitigate elephant and 
human conflicts, which in our Nature Series I think we have all 
seen, investigations of the ivory trade so we can stop the 
poaching, cataloging of ivory stockpiles, and identifying new 
techniques for elephant management.
    In summation, I would like to say, Mr. Chairman, the fund 
helps local villagers who often live in fear of elephants to 
coexist and benefit from long-term conservation of elephants. 
This is an important step. As rural farmers in Africa begin to 
accumulate economic gains brought by the wildlife around them, 
they will find it in their best interests to conserve that same 
wildlife. In the long run, this will reduce the high cost of 
conservation and save elephants from extinction.
    And I think a tertiary problem that most people don't 
understand is that Africa has very, very limited funds. The 
money that is raised from different tribes and different 
agencies must go to provide high priority health care centers, 
for example in a nation where today a huge percentage of some 
populations are HIV infected.
    This is why, Mr. Chairman, in this particular case, I am 
willing to forego the normal principle of not funding outside 
Constitutional issues. I think elephant conservation is 
important not just for America, but I think it is important for 
the world. Thank you, Mr. Chairman.
    Mr. Peterson. Thank you. Mr. Deutsch.

  STATEMENT OF HON. PETER DEUTSCH, A U.S. REPRESENTATIVE FROM 
                            FLORIDA

    Mr. Deutsch. Thank you, Mr. Chairman. I am not here to 
speak on elephants, but, obviously, I support the efforts of 
Mr. Cunningham and the Congress in general in that regards. I 
have a statement which I would be happy to submit for the 
record.
    And really just to summarize, as the Member that represents 
the only living coral reef in the North American Hemisphere, 
the other reef in another state is represented by Mr. 
Abercrombie as the ranking member of this committee, I have a 
special sensitivity of the significance of coral reefs in terms 
of not just what they do for wildlife, but what they do for 
people as well.
    The Florida Keys is a unique area that the economy and the 
environment truly are one. The largest industry in the Florida 
Keys is tourism. The reef itself in the Keys is one of the 
major sources of that tourism. And Congress as an institution 
has recognized the significance of the Florida Keys in many 
ways, but specifically 1990 with the designation of the 
National Marine Sanctuary.
    I support the resolution. I am glad the Chairman of this 
Subcommittee is the original sponsor of it, in that on an 
international basis, this is the International Year of the 
Reef. And there is a real concern around the world that 
potentially up to 30 percent of the world's living coral reefs 
could be destroyed in the next decade.
    I think anything that we are able to do to focus attention 
on this resource on a national basis and on an international 
basis is significant, and I urge support of the resolution.
    [Statement of Mr. Deutsch follows:]

  Statement of Hon. Peter Deutsch, a U.S. Representative from Florida

    Mr. Chairman, thank you for the opportunity to testify. As 
you know, my district includes the Florida Keys--home to North 
America's only living coral barrier reef. The Florida Keys is 
one of the few regions in the United States where coral reef 
ecosystem supports the economy of an entire county. In the 
Keys, tourism is the number one industry, and the reef is the 
number one attraction. The Keys' marine ecosystem also supports 
many traditional industries like commercial fishing which 
require a healthy and vigorous marine environment.
    Congress recognized the significance of the Keys' coral 
reef when it designated the region as a National Marine 
Sanctuary in 1992. The designation will coordinate our efforts 
to preserve the reef for future generations and for the 
continued sustainability of the local economy. It also promotes 
the comprehensive stewardship, research and education which is 
called for by the resolution.
    While we are taking major steps in the Keys, we have a long 
way to go in South Florida. Globally, 30 percent of the world's 
coral reefs may be lost in the next decade if serious steps are 
not taken to reverse their plight. During this--the 
``International Year of the Reef''--it's appropriate that 
Congress recognize the importance of the world's coral reef 
ecosystems. I commend the committee for considering this 
resolution, and I look forward to continuing our work together.

    Mr. Peterson. Thank you very much. Do we have any 
questions? I don't. Mr. Abercrombie.
    Mr. Abercrombie. Yes. For Mr. Cunningham----
    Mr. Cunningham. Good morning.
    Mr. Abercrombie. Good morning and aloha to you. We have 
multiple sources of funding for the African elephant 
conservation efforts including grants from the United States.
    I wonder if you have--because I don't have sufficient 
background--I have done some reading on different points of 
contention with respect to the CAMPFIRE program and the USAID 
program, that kind of thing. A question that occurred to me 
then is one about coordination between USAID and, say, the 
Department of Interior in terms of evaluation of the 
effectiveness of the programs.
    Do you have a view on that or any information you could 
share with me? Because, as I say, mine is at this point 
abstract and intellectual; that is to say it is based on 
reading rather than on firsthand knowledge or much in the way 
of depth of inquiry.
    Mr. Cunningham. I don't always agree with Fish and 
Wildlife. On the most part, I do. But in this particular 
problem, the original intent was to coordinate antipoaching 
efforts to save the elephant. Now they are expanding with all 
the organizations to take a look at other areas and other 
management techniques to preserve the elephants and to provide 
better habitat for them. I know Fish and Wildlife is primarily 
our point source to go out and take a look at what are the 
different things needed.
    There was recently a picture--and I love the Nature 
Series--and it was an elephant running through a village with 
clotheslines on it and, unfortunately, dragging a child with 
it. And, you must find how you protect people, how you protect 
crops instead of the people going out and killing an elephant.
    An elephant doesn't know the difference between a barbwire 
fence and a cornfield. How do you protect that? How do you save 
both the farmer and the elephant? Do you provide water for them 
in another area where they don't transport, or that they have 
enough food? All of these are coordinated. Could they be done 
better? Yes, I think they could, and that is part of the 
process.
    This is only the second year we have taken a look at this. 
And as you go along, I think we are going to get better and 
better. And from all sides of the issue, I think we can work 
together and make sure that we have got a stable population.
    Mr. Abercrombie. Would it be in our interest to help 
support preserves? Traveling that I have done was almost 30 
years ago now on my own in Africa, and I had the opportunity to 
be in Uganda before the collapse of the political and economic 
and social infrastructure there.
    And I had occasion to come into close contact with African 
elephants outside the huts we were in. But that was under 
circumstances in which it was clearly game preserves. It was 
tourist oriented.
    The infrastructure, if you will, was geared toward that, 
and it was large enough so that you didn't have at that time 
the encroachment of people desperate to save themselves 
literally--save their families, burning down trees and trying 
to expand their own grazing for cattle and for forage and, in 
some instances, just trying to get wood in order to sell it. 
Again, you may have more background on it than I do other than 
through reading.
    Mr. Cunningham. Mr. Abercrombie, I would not want to start 
large-scale dollars going out of the United States for 
preserves. I know in many cases a lot of these are privately 
held, and they use them commercially and also as game reserves.
    Mr. Abercrombie. I see.
    Mr. Cunningham. I would not want Federal funding for that. 
It is against my principles, and I think we spend too much 
money on foreign aid. But in this particular case, the money is 
leveraged by many organizations to provide these other things 
that you are talking about.
    Mr. Abercrombie. But my question really went toward whether 
you had some view on the question of whether the poaching side 
possibly was in hand where there were stable governments. And 
we had--I was taking from your testimony that we could move 
into other areas now where we could do thinning of herds, all 
that kind of thing.
    Mr. Cunningham. Well, they are looking into other areas, 
and that is part of this whole process, for which I will be 
happy to give you my testimony. They have moved just from the 
poaching issue alone, so that it is somewhat controlled. But if 
you look at the rhino, especially the white rhino, you look at 
the elephant and you look at a lot of these different species, 
you find that we have limited resources. But there is still a 
big program out there for poachers.
    I am a hunter, and I love to fish. I particularly don't 
shoot anything I don't eat, and that is just a limitation I 
have. But, I love to hunt, I love to fish, but I think we also 
need to preserve our heritage for our children and our 
grandchildren. They don't have the capability to do that.
    But, yet, I know in deer herds here in the United States--
an example, up in Oregon I have a friend where they prohibit 
hunting of the whitetail. Well, the whitetail is so sickly and 
depleted up there and from interbreeding, and they haven't 
allowed other deer to come in.
    The same kind of things could happen to these other 
reserves if we don't get into the management and other methods 
to preserve and protect them. Once you get a smaller herd, then 
you get interbreeding, and then you get the same kind of 
problems and everything else.
    Mr. Abercrombie. Last question then. Can you give us a view 
on the point or toward the point of are there organizations 
where the governments are sufficiently stable? Are there 
organizations with which we can work effectively in terms of 
leveraging what dollars we do put forward in this?
    Mr. Cunningham. There are several of them in the testimony, 
but I would think----
    Mr. Abercrombie. Do you feel those organizations are up to 
the mark, or are they having their own difficulties? For 
example, where the mountain gorilla is concerned, I understand 
that despite the best efforts of very dedicated people, it is 
extraordinarily difficult for the government agencies with the 
responsibility for dealing with it to adequately be able to 
patrol, to work, that kind of thing.
    Mr. Cunningham. Is it a perfect world out there? No. And 
can we adequately do it? Are there other organizations? I think 
part of this fund reaches out to the world and says, ``Hey, we 
need help.'' We do need help in this, Mr. Abercrombie.
    Mr. Abercrombie. Thank you very much. Thank you, Mr. 
Chairman.
    Mr. Peterson. Mr. Gilchrest.
    Mr. Deutsch. Mr. Chairman, excuse me for one second. I am 
in a markup for votes. If there aren't any questions for me----
    Mr. Gilchrest. I am just going to make a quick statement. I 
think if we understand the nature--if we look at the tiny 
organism that makes up coral reefs and then we look at the 
mammoth beauty of an African elephant, we begin to understand 
the nature of the mechanics of creation, the mechanics that 
keep this planet living and breathing.
    And I really do think it falls to the burden of we people, 
whether we are Americans or whether we are from some other part 
of the world--it is our responsibility to sit down at a table 
in a calm, very direct manner so that we can find the 
information, the knowledge, the sense of tolerance for each 
other's views to protect and preserve these magnificent things 
for ourselves and future generations. And I think we have 
really begun that process, and I thank both of you for coming 
this morning to testify.
    Mr. Abercrombie. I just want to thank Mr. Deutsch as well 
for his commentary, and we will work together.
    Mr. Cunningham. If I could make a comment? I used to serve 
on this committee, Mr. Chairman, and it was one of the more fun 
committees to serve on because of its bipartisanship and going 
in the same directions. I will admit I used to fight a lot of 
the initiatives because I thought they were fought for by 
extremists.
    But I have come to learn in many situations that we can 
work together. For example, the striper bass that I talked 
about with my colleague, Mr. Gilchrest--I would have opposed 
the conservation of the striper bass as a young person because 
I would want to fish for them. I didn't want you to stop me 
from fishing. I would have been wrong because I have seen those 
stocks come back, and today I can catch more stripers.
    Yes, I had a waiting period. But today I can go out there 
in the Chesapeake and catch more stripers than if we would have 
continued at our present rate. We are not always right. We just 
try to achieve that direction.
    Mr. Gilchrest. And, Duke, we hope you continue to enjoy our 
deer burgers, the whitetail deer burgers.
    Mr. Abercrombie. For Mr. Cunningham, now that we have you 
in the delayed gratification mood----
    Mr. Cunningham. Yes, I do support a balanced budget.
    Mr. Abercrombie. I came in while you were testifying, and I 
apologize. Did you address the question of ivory trade in your 
remarks?
    Mr. Cunningham. Part of the expanded research instead of 
just poaching is to categorize it. We have to know what we have 
in stocks, and also have investigations into the different 
markets outside the poachers themselves. Illegal ivory is like 
drugs. You have got to have people that buy the drugs.
    You have got to have people that are dealing in ivory. We 
need to get down to the heart of it because you don't just save 
the elephant and fight on one end. You have got to go all the 
way through the whole system and stop people from wantonly 
slaughtering these animals for their ivory.
    Mr. Abercrombie. OK. Thank you very much.
    Mr. Peterson. I would like to thank the witnesses and the 
Members for their questions. Now, we will introduce our second 
panel of witnesses. Mr. Terry Garcia, the Acting Assistant 
Secretary of the National Oceanic and Atmospheric 
Administration, and Mr. Marshall Jones, the Assistant Director 
of the International Affairs for the U.S. Fish and Wildlife 
Service. I would like to remind the witnesses that under our 
committee rules, they must limit their oral statements to five 
minutes, but that their entire statement will appear in the 
record. We will also allow you both to testify before we ask 
questions. At this time, I would like to recognize Mr. Garcia.

 STATEMENT OF TERRY D. GARCIA, ACTING ASSISTANT SECRETARY FOR 
    OCEANS AND ATMOSPHERE, NATIONAL OCEANIC AND ATMOSPHERIC 
          ADMINISTRATION, U.S. DEPARTMENT OF COMMERCE

    Mr. Garcia. Good morning, Mr. Chairman, and members of the 
Subcommittee. It is a pleasure to be here to highlight the 
programs that NOAA has undertaken to address our nation's coral 
reef crisis, which was so eloquently described in House 
Concurrent Resolution 8.
    NOAA is pleased to provide testimony in support of the 
Congress's leadership for, and commitment to, active 
stewardship of our Nation's fragile coral reef ecosystems. With 
the continued support of the Congress, NOAA and the rest of the 
Administration will work to address your concerns for the 
health and stability of our Nation's coral reef systems--
systems that are in dire crisis.
    I would like to touch on four points today: the current 
global and national coral reef crisis; what this means to the 
U.S.; what NOAA is doing to address the problem; and the 
identification of needs and gaps in our resource monitoring and 
management strategies.
    Experts now estimate that over two-thirds of the world's 
reefs are dangerously stressed. It is estimated that 10 percent 
of the world's reefs are beyond recovery, while 30 percent are 
in critical condition with 10 to 20 years left to live if 
something is not done to save them.
    Although coral reef and seagrass communities have adapted 
to deal with natural stresses such as predators, diseases, 
tropical storms, and some climate changes, human activities are 
now impacting reefs in many different ways, and the cumulative 
impact is destroying many reefs.
    A solution is both simple and difficult. If coral reefs are 
to survive, we must reduce the magnitude and diversity of human 
impacts. The human impacts on reefs vary from reef to reef, 
region to region. In general, the most serious human causes of 
coral reef degradation are land-based sources of pollution and 
direct and indirect effects of fishing.
    Other impacts such as ship groundings do serious damage. In 
the past two months, there have been three ship groundings on 
the coral reefs in the Florida Keys National Marine Sanctuary.
    As was mentioned earlier, the economics of coastal areas 
affect the entire nation. More than one-half of the U.S. 
population lives in one of our Nation's 411 coastal counties, 
only 11 percent of America's land.
    People depend on coastal resources like coral reefs for 
jobs, income, and a way of life. The contribution that healthy 
coral reef ecosystems can make to coastal and regional 
economies are significant.
    For example, over 3 million tourists visit the Florida 
Keys, contributing $1.2 billion every year to the local economy 
through water-related activities such as fishing, diving, and 
boating. In 1991, visitors to the U.S. Virgin Islands spent 
over $700 million.
    U.S. recreational divers alone spend at least 300 million 
in the Caribbean and Hawaii every year. Tourism in Hawaii 
generates over $9 billion in revenue annually, and some 3 
million people visit just one of Hawaii's many coral reef sites 
every year.
    Coral reef ecosystems are critical habitats for commercial 
and recreational fisheries worth millions of dollars to local 
and State economies. Coral reefs cover only .2 percent of the 
ocean floor or an area about the size of Texas, yet produce 
about one-tenth of the fish caught for human consumption and 
hold about one-quarter of all marine fish species. In the U.S., 
several hundred commercially harvested stocks depend on coral 
reefs for survival and reproduction.
    Coral reef organisms produce promising leads in the search 
for anticancer compounds, antibiotics, pain suppressors, sun 
screens, and other products. These organisms potentially hold 
the secrets to numerous scientific and medical benefits.
    NOAA has a key role in the stewardship of our nation's 
marine resources. Our programs are addressing the coral reef 
crisis, as well as fulfilling NOAA's environmental stewardship 
responsibilities as outlined in our strategic plan.
    In fiscal 1996, NOAA spent approximately $26 million for 
activities addressing management and protection of coral reefs. 
It is also important to remember that many U.S. reefs are in 
State, territorial, and commonwealth waters, and the real work 
of coral reef management and protection must come from local 
and regional communities.
    In response to the continued decline and destruction of 
coral reef ecosystems worldwide, the U.S. and eight other 
nations established the International Coral Reef Initiative in 
1994. There are now 75 nations that have joined the coral reef 
initiative process.
    NOAA has been an important contributor to the design and 
implementation of the U.S. Coral Reef Initiative. As I noted in 
fiscal 1996, NOAA spent $26 million on programs addressing the 
needs of coral reef ecosystems. Although no new funds have been 
appropriated for NOAA's participation, NOAA contributed over 
$1.2 million in fiscal 1996 base funds to support 42 new 
projects addressing priorities of the U.S. Coral Reef 
Initiative.
    I would just leave you with a few key thoughts regarding 
the opportunities, as well as the gaps, in our resources. One, 
we must make the public aware of the value and loss of coral 
reefs and what we can all do to save them. We have given the 
committee copies of the NOAA Public Awareness Campaign 
materials.
    Two, scientists and managers need the resources and 
technology to monitor the health of coral reef ecosystems; and 
ongoing support is needed for research and development on the 
restoration of coral reefs and their associated ecosystems. 
Finally, government and responsible parties need to proactively 
reduce threats from human sources such as sedimentation and 
poor water quality affecting U.S. reefs.
    I see that my time is about up. Mr. Chairman, in 
conclusion, by the year 2005, NOAA envisions the nation's coast 
with more productive and diverse habitats for fish and 
wildlife, cleaner coastal waters for recreation and seafood 
production, and coastal communities with thriving, sustainable 
economies based on well-planned development and healthy coastal 
ecosystems.
    NOAA's strategy to reach this objective of protecting and 
restoring coastal habitat, including coral reefs, involves 
three distinct roles for NOAA: providing greater understanding, 
designing and implementing management solutions, synthesizing 
and communicating information about problems and solutions to 
decisionmakers and the public.
    As I noted, we have launched a public awareness campaign. 
It is a call for action to the American people and to our 
partners to help save coral reefs, the rainforests of the sea. 
A copy of one of the posters is to my left, which was donated 
by the renown marine artist, Robert Lynn Nelson. We have other 
materials which we are distributing to the public through a 
special telephone number and have left those materials with the 
committee. Thank you very much, Mr. Chairman. This concludes my 
testimony.
    [Statement of Mr. Garcia may be found at end of hearing.]
    Mr. Peterson. Thank you very much. Mr. Jones.

    STATEMENT OF MARSHALL P. JONES, ASSISTANT DIRECTOR FOR 
    INTERNATIONAL AFFAIRS, U.S. FISH AND WILDLIFE SERVICE, 
                   DEPARTMENT OF THE INTERIOR

    Mr. Marshall Jones. Thank you, Mr. Chairman. Let me start 
by noting that while the Fish and Wildlife Service does not 
have a large role in the conservation of coral reefs, it is an 
initiative that we also support. We do have coral reefs that 
are within the jurisdiction of some national wildlife refuges, 
and we will do what we can to be a partner with NOAA in their 
efforts on coral reefs.
    Mr. Chairman, I very much appreciate the opportunity to 
talk to you about another natural resource that is very near 
and dear to the hearts of the American people, the African 
elephant, and to give you our unqualified support for H.R. 39, 
the African Elephant Conservation Reauthorization Act of 1997.
    We believe that this is a very important step in the 
continued global efforts to conserve African elephants. 
Furthermore, Mr. Chairman, I am very delighted to be able to 
announce today that we have information available at the table 
about the first grants being issued under a companion piece of 
legislation which was adopted in 1994 modeled after the African 
Elephant Act. That is the Rhino and Tiger Conservation Act. And 
we are announcing today our first grants under that program.
    African elephants, Mr. Chairman, have enormous importance 
to the American people. The Fish and Wildlife Service has 
received more mail on African elephants in the past decade than 
we have received on any other species, and that includes 
spotted owls or timber wolves or all of the other domestic 
species which are also very important to Americans.
    The African elephant is important for all of the reasons 
that I think Congressman Cunningham very succinctly and 
eloquently spelled out to you. They have artistic importance. 
They have cultural importance as a symbol of the wild world. 
They have enormous economic importance. Hides and ivory can be 
tremendously valuable, but that also can pose a tremendous 
problem for us.
    They have enormous ecological importance. The elephant is a 
keystone species. Protecting elephants and their habitat can 
protect entire ecosystems. On the other hand, within those 
ecosystems, elephants also have the capability, perhaps second 
only to man, to destroy their own ecosystems, to modify them in 
ways that make them unsuitable for other species to live with 
them.
    And, Mr. Chairman, I would note elephants have political 
significance as the symbol of one of our two major parties. 
Luckily, Mr. Chairman, conservation of elephants also, as Mr. 
Cunningham has said, has been very much a bipartisan issue.
    The original African Elephant Act passed unanimously with 
support from a variety of Members of Congress, and it 
originated in this Subcommittee under its previous incarnation. 
And we appreciate very much the continued support which you 
have given to this program over the years.
    Mr. Chairman, my written testimony outlines a number of the 
projects which we have undertaken under the grant provisions of 
the African Elephant Conservation Act. And it also outlines the 
fact that the Act has a unique double strategy, because it also 
provided a stick, a regulatory mechanism, for controlling the 
ivory trade, a mechanism which President Bush exercised in 1990 
to impose a moratorium on import of ivory into the United 
States, an action which led the way to an international ban on 
the ivory trade later that year.
    The ivory issue remains before us since several southern 
African countries now believe that the time has come for the 
ban to be relaxed so that they could reopen a very limited 
ivory trade. We have just received those proposals and are 
reviewing them now. We will be consulting with other agencies 
and with the public as we develop a U.S. position leading up to 
an international meeting, which will take place in Africa in 
June of this year, where the ivory trade will be discussed.
    Mr. Chairman, the ivory issues are not easy ones, and it is 
fair to say that we remain very concerned about potential 
adverse impacts which could occur from reopening of the ivory 
trade. And, thus, we will be seeking wide consultations on that 
issue.
    But that is all the more reason, Mr. Chairman, that we 
cannot be complacent today. We believe the African Elephant 
Conservation Act has made an enormous contribution to elephant 
conservation through the grant programs which are outlined in 
my written statement. But we believe that the continuation of 
those programs is essential.
    At the time the international ivory ban was put in place in 
1990, a number of donor countries made commitments that they 
would provide assistance to African governments for elephant 
conservation. Today, the only country that I think has really 
fulfilled those pledges and still is living up to its 
commitments is the United States, thanks to the action of 
Congress in enacting the African Elephant Fund and in 
appropriating the funds that we use for the grant programs 
under it. We think that the continuation of those programs is 
more essential than ever today. Mr. Chairman, I would be happy 
to answer any questions you have.
    [Statement of Mr. Jones may be found at end of hearing.]
    Mr. Peterson. I would like to thank both of the witnesses 
for their testimony, and the first question is for Mr. Jones. 
What type of conservation projects have been financed by your 
agency?
    Mr. Marshall Jones. Mr. Chairman, initially, we funded 
antipoaching measures. The sense of Congress at the time the 
Elephant Act was originally enacted was that controlling 
poaching was the key to the survival of the elephant. And so we 
funded measures such as a program which is administered by the 
Southern African Wildlife Trust where we help to reward and 
recognize rangers who risk their lives to protect elephants 
from poaching.
    Rangers who have been involved in firefights, rangers who 
have had AK-47's pointed in their direction are recognized by 
awards, pins, certificates that give them a sense that the 
world cares that they are risking their lives every day for 
elephant conservation.
    In recent years, as the poaching situation in Africa has 
stabilized, we have been able to branch out, and we have 
supported projects that involved coordination of elephant 
surveys among different countries; projects like the support 
for development of the capability of rural villagers to help 
participate in the management of elephants.
    We think that the flexibility that is built into the 
Elephant Act is one of the important strengths of it, and we 
hope that we will be able to continue a wide variety of 
projects like that in the future.
    Mr. Peterson. Is there money in ivory like there used to 
be? Is it still a pretty profitable business?
    Mr. Marshall Jones. Mr. Chairman, the ivory trade in the 
United States virtually died in 1990 after the ivory ban, and 
there is no movement as far as I know within this country to 
reinstitute the ivory trade, nor do we have any evidence of any 
major illegal trade in the United States. It is legal to sell 
ivory which was already here, and some of that is still 
available. That is perfectly legal, but the demand is not 
there.
    In European countries, I think the situation is similar. On 
the other hand, in Asia I think you would find countries where 
there still is a demand for ivory, and the potential for an 
illegal trade is always there. Shipments are intercepted almost 
on a weekly basis, leaving Africa bound for some country in 
Asia, so the problem is still there.
    And, unfortunately, Mr. Chairman, we have noted in the last 
year or two that the poaching of elephants for the ivory trade 
may be on the rise again after the success of the initial ivory 
ban in 1990. So we don't think it is an area where we can ever 
relax our guard.
    Mr. Peterson. Thank you. Mr. Garcia, the Florida Keys have 
experienced three ship groundings over the past two months, 
including the Houston grounding which is the largest that the 
Keys have seen. Grounding damage to reefs is extremely 
extensive, virtually instantaneous, and highly noticeable. Can 
you provide us with more information on the extent of damage 
that these groundings have caused? Has your organization 
surveyed the damage? Are restoration efforts being planned?
    Mr. Garcia. Yes, sir. As you noted, the damage is 
significant. The coral reefs are fragile organisms. We have had 
the unfortunate circumstances of three groundings. Scientists 
from NOAA and from the State have been on the scene assessing 
the extent of the damage. We intend to take actions with 
respect to the responsible parties once the assessment process 
has been completed.
    The assessment process is also examining various 
alternatives that are available to us for restoring the damage 
to the reefs. I don't have a figure for you as to the extent of 
the damage. It is, however, significant and when we have 
completed the assessment process, we will let the committee 
know of the true extent of the damage, as well as the 
restoration projects contemplated.
    Mr. Peterson. Thank you very much. Mr. Abercrombie.
    Mr. Abercrombie. Thank you. Mr. Jones, I am not quite 
sure--let me move from the closing of your remarks backwards. I 
am not sure what you mean when you say we have to be on our 
guard. Is that a generic statement? What does that mean, that 
we have to be on our guard?
    Because if I look at the attachments that I have gotten 
from the Subcommittee staff, elephant populations are declining 
fairly rapidly compared to 1987 virtually everywhere except 
possibly South Africa. It says in the Sudan it may have gone up 
4,000. That may be inadvertent, not due to any programs, 
because of the civil war there.
    Zaire I see cut more than in half and with the chaos that 
is going on there, it may be--I am not sure how the count was 
even done. So what do you mean by we have to be on our guard? 
Do we have international customs agents or something of that 
nature? I don't think so.
    Mr. Marshall Jones. Mr. Chairman, CITES, the international 
ban on the ivory trade was enacted under the Convention on 
International Trade and Endangered Species, the international 
convention that now has over 130 party countries.
    Those countries are pledged to uphold the ivory ban other 
than a few countries in southern Africa that under the terms of 
the treaty took a legal reservation. There is an international 
effort among all of the countries that support the ivory ban to 
intercept ivory, to stop the cycle that leads to the poaching 
of elephants.
    Mr. Abercrombie. What does that effort constitute? Is it 
done through customs at ports of embarkation or at ports of 
entry?
    Mr. Marshall Jones. Both. In the United States, it is----
    Mr. Abercrombie. Who is the principal importer of illegal 
ivory in Asia?
    Mr. Marshall Jones. Mr. Chairman, I don't think I can point 
to one country and say that this country is the principal 
importer.
    Mr. Abercrombie. Can you point to more than one?
    Mr. Marshall Jones. There are a number of countries for 
which illegal shipments have been intercepted by those 
countries. Let me give you an example. Taiwan. Taiwan----
    Mr. Abercrombie. Excuse me, Mr. Jones. I am not interested 
in what is working. I am interested in where it doesn't work. 
If the trade is going on, it must be getting through. Do you 
have information as to what countries illegal ivory is going 
through?
    Mr. Marshall Jones. Mr. Chairman, most of the information 
we have is about shipments that are intercepted. We could see 
what information we could provide to you about--I think what 
you are getting at is where ivory may be still being sold in 
the marketplace, where the governments----
    Mr. Abercrombie. OK. What countries is it being sold in?
    Mr. Marshall Jones. Sir, I don't have that information. 
What we have is information about the countries that are 
working hard to enforce the ivory ban. Clearly, someone must 
think they can sell it because there is still some ivory moving 
in trade.
    Mr. Abercrombie. OK. What are the principal countries where 
the most ivory has been intercepted in Asia?
    Mr. Marshall Jones. Countries where ivory has been 
intercepted include Japan, include Taiwan, include China, 
include countries in Southeast Asia. I can't give you an answer 
today about which countries----
    Mr. Abercrombie. So it is a general problem in Asia?
    Mr. Marshall Jones. It is a problem. It is a problem that 
is there.
    Mr. Abercrombie. In the conservation fund--so, in other 
words, in Japan and China and elsewhere in Asia, there is a 
sufficient market for people to try and break the law, the 
international convention, and ship ivory in. Is that correct?
    Mr. Marshall Jones. There is at least someone thinks that 
there is a market there. Sir, I can't tell you today how many 
consumers are buying it.
    Mr. Abercrombie. I understand that but that is where the 
problem is. Somebody thinks there is a market there. Right?
    Mr. Marshall Jones. That is correct.
    Mr. Abercrombie. OK. With that involved here, we have an 
authorization for up to $5 million for the African Elephant 
Conservation Fund, but the Administration request that I see 
here in '97 is for $600,000. Is that correct?
    Mr. Marshall Jones. No. It is for--the appropriation in '97 
was for $1 million.
    Mr. Abercrombie. That is the appropriation, but the request 
was $600,000?
    Mr. Marshall Jones. '97, yes, sir. It was $600,000. The 
Administration request for 1998 is $1 million.
    Mr. Abercrombie. Is $1 million, a match that was there 
before?
    Mr. Marshall Jones. That is correct.
    Mr. Abercrombie. Why not the full five?
    Mr. Marshall Jones. Sir, we receive grant proposals that 
could total significantly more than the funding we receive.
    Mr. Abercrombie. Are you leveraging that money?
    Mr. Marshall Jones. Yes, sir.
    Mr. Abercrombie. Can you give us--could you give to the 
Chairman how that money is being leveraged, what the $1 million 
turns into in terms of your relationship with granting 
agencies?
    Mr. Marshall Jones. Yes.
    Mr. Abercrombie. And what programs that it is associated 
with?
    Mr. Marshall Jones. It has turned into more than $2 
million, and we can provide you with the exact figure.
    Mr. Abercrombie. Now, for the Rhinoceros and Tiger 
Conservation Fund, the authorization is $10 million up to the 
year 2000. Right?
    Mr. Marshall Jones. That is correct.
    Mr. Abercrombie. The Administration request for '98 is 
$400,000?
    Mr. Marshall Jones. That is correct.
    Mr. Abercrombie. Is that because you do not have sufficient 
program information available to you to make it more than that?
    Mr. Marshall Jones. No, sir. It is because in the broad 
scale of priorities, that was the amount that we felt we could 
make a difference with and yet stay within the President's 
overall deficit reduction targets.
    Mr. Abercrombie. Well, can I ask Mr. Garcia then from the 
five minutes there? There were two five-minute programs. Right?
    Mr. Peterson. We will do another second round, can we?
    Mr. Abercrombie. Oh, all right. Thank you.
    Mr. Peterson. OK.
    Mr. Abercrombie. Well, I will have some other questions for 
you, Mr. Jones, that I will try to submit unless we have a 
second round. Thank you.
    Mr. Peterson. Mr. Gilchrest.
    Mr. Gilchrest. Thank you, Mr. Chairman. I will start with 
Mr. Jones and hopefully work over to the elephants. The coral 
reefs--when a ship crashes into a coral reef like the incident 
that just occurred, can that coral reef repair itself and over 
what period of time can it as a result of the damage?
    Mr. Garcia. Well, first of all, it often takes hundreds of 
years for a coral reef to grow a few centimeters. NOAA 
scientists, however, in the Florida Keys have experimented with 
coral grafts and other techniques for restoring reef structures 
that have been destroyed through ship strike or other impacts 
that were human induced so that there are ways of accelerating 
the regrowth or restoration of a coral reef. But once the 
damage is done, it is very difficult to undo it. When a reef is 
struck as it was earlier this year by a 600-foot freighter, a 
reef can withstand many insults, but----
    Mr. Gilchrest. If someone asked you, and maybe they have, 
when that incident happened, could you have told somebody, 
whether it was the Coast Guard, the international shipping 
community, what you would like to see in order to avoid that?
    Mr. Garcia. Well, the ship was off course by many miles. 
The Congressionally-designated area to be avoided (ATBA) was 
clearly designated on all the nautical charts. We don't know 
why that ship strayed into this area.
    Mr. Gilchrest. There was no suspicion that there might be 
drugs on board, that they want to pull a little closer to the 
shore and drop it overboard and have some little Cigarette boat 
come out and pick it up? Was there any indication or did 
anybody check into that?
    Mr. Garcia. I have no knowledge of that. This was a 
container ship carrying cargo. Most of the cargo, which makes 
this an even more concerning incident, consisted of hazardous 
chemicals, highly toxic to reef organisms, as well as humans. 
Fortunately, nothing spilled.
    Mr. Gilchrest. Under these circumstances, part of the 
responsibility of the Coast Guard, for example, is charging to 
enforce international fishing arrangements and so on. And your 
organization is charged with the responsibility of coming up 
with a program to protect ecosystems like the coral reefs. Do 
you ever communicate with the Navy about these kinds of issues, 
or was there anybody from NOAA that sat down and talked to the 
Navy or the Coast Guard, I mean, on this particular incident?
    Mr. Garcia. We work very closely with the Coast Guard. Part 
of NOAA's responsibility is to join the response team when 
there is an incident to assist them in evaluating the damage. 
We have a continuing responsibility, as I noted earlier, to 
assess the damage and then, as part of our damage assessment 
program, if it is appropriate, to commence a legal action to 
recover sufficient damages in order to restore the injury.
    Mr. Gilchrest. A few years ago--well, you mentioned medical 
uses for coral reefs. And a few years ago, I understand that 
there was some use of coral reefs to replace human bone marrow. 
Is that research still being conducted? Does that have any 
impact on the extent of coral reefs as a result of this 
research?
    Mr. Garcia. The research is still underway. Sea Grant, 
along with the National Institutes of Cancer, have funded the 
research. It is not impacting the reefs in a negative way. What 
we are attempting to do is determine what are the many uses 
that we have yet to discover of these reefs and to protect them 
so that those uses will be available to us in the future.
    Mr. Gilchrest. If you had some kind of a magic wand, what 
would your ideal program be to not only protect but to restore 
the world's coral reefs, and how long would that take and the 
approximate amount of money within 10 cents?
    Mr. Garcia. How about within a few million? I mention in my 
testimony that NOAA has been spending approximately $26 million 
a year on programs that are related to reef health and reef 
ecosystems. Obviously, we could always use more money. We felt 
that this was an appropriate number within our budget. The 
types of projects that we need to address I also noted. They 
include monitoring, research, and understanding the reasons 
behind the reef decline.
    Mr. Gilchrest. Could you give me two examples of where 
there is dramatic coral reef decline and what has caused that?
    Mr. Garcia. There are a number of reasons; in the Florida 
Keys, human-induced causes such as nonpoint source pollution 
that has impacted the reefs.
    Mr. Gilchrest. This nonpoint source pollution--is it from 
agriculture? Is it from development? What----
    Mr. Garcia. All of the above.
    Mr. Gilchrest. All of the above.
    Mr. Garcia. All of the above--pollution washing into the 
south Florida Bay impacts the reef. Fishing practices both 
direct and indirect impact the reefs. By overfishing and taking 
out species that the reefs are dependent upon--species that 
feed on algae which if unchecked covers and then smothers the 
reef--we are impacting reefs.
    Indirect effects such as cyanide fishing--and I would note 
that Congressman Miller has introduced a resolution to ban 
cyanide fishing. This is used to stun fish for the aquarium 
trade. The cyanide poisons the reefs and is a very destructive 
practice. I want to recognize your leadership in taking on this 
issue because it is a significant impact. The other impact is 
ship strikes.
    Mr. Gilchrest. Thank you. Thank you, Mr. Chairman.
    Mr. Peterson. Mr. Miller.
    Mr. Miller. Thank you and thank you for your comments, Mr. 
Garcia. Let me just follow along to what was--the discussion 
you just had. In the resolution that I introduced, it outlines 
the number of what I would almost call intentional actions that 
are taken against the reefs for different reasons, for 
different motivations, and what have you, but you knowingly are 
doing this.
    To what extent do we continue to experience that in reefs 
in U.S. waters, if you will, or proximity to the U.S.? I mean, 
cyanide fishing is one where I think there is an awareness now 
that the cyanide clearly has a detrimental impact. But what 
other intentional actions do we suffer?
    Mr. Garcia. In addition to the ones that I noted such as 
ship strikes, in some cases we are loving the reefs to death. 
The more human contact, the greater the impact. Boating, 
diving, people who inadvertently touch reefs or break off parts 
of reefs are damaging those reefs. They are killing them.
    Part of the program that NOAA is proposing as a component 
of our stewardship role is to educate the public, the users of 
these resources, in order to help them understand the impact 
that their activity is having on the reefs and how to avoid the 
adverse impacts and consequences of those activities.
    Mr. Miller. Now, in Florida when you dive on some of the 
Keys--I have been out there with some of your people, and there 
is sort of a long educational process you go through before 
they will let you in the water at least until you feel 
comfortable that you maybe should be in the water--but there 
is, obviously, a lot of people who are out there just by 
themselves for recreational purposes or they are part of--they 
have paid some money I guess to dive to services and what have 
you. What kind of coordination are we developing with those 
various entities in terms of education?
    Mr. Garcia. It is very active, and I would commend the dive 
community for their efforts. The dive community throughout the 
country and Florida and Hawaii understand the importance of 
these resources. Obviously, if the reef does not exist, then 
their business will not exist. So they have worked with us 
closely in educating the public.
    Through our sanctuary program we are getting out materials 
to the public. We have sanctuary representatives on the water 
who work with users of the sanctuary resources to help them 
understand how they can use those resources without impairing 
them.
    Mr. Miller. If we can go back to the cyanide fishing, is 
that becoming more extensive, staying the same, or----
    Mr. Garcia. I don't know that I could quantify that for 
you. It is a problem. It is a problem in the Pacific. One of 
the things that we have done through the coral reef initiative 
is to work with the territories and commonwealth to educate 
their users on the impacts of cyanide fishing and to find 
alternatives to this destructive practice.
    Mr. Miller. What kind of response are you getting?
    Mr. Garcia. It has been very good. The local 
representatives have come forward. They have worked with us. 
They are crafting projects with our assistance that we think 
will help respond to this problem.
    Mr. Miller. Are we correct in assuming, you know, a number 
of--what many of us are discovering about various environmental 
assets is that they are also economic assets if they are 
properly taken care of and maintained. I assume both in the 
United States and other parts of the world, ecotourism and 
diving and all this is generating some local economy. And is 
that starting to have some impact in terms of the care and the 
preservation of reefs?
    Mr. Garcia. I think so. I think people are beginning to 
appreciate the fact that the economy and natural resources are 
inextricably linked, and that if we destroy those resources, we 
are going to impair the economy. As I noted earlier, in the 
Florida Keys or in Hawaii, if the reefs disappear, you are 
going to feel the impact on tourism. If the tourists disappear, 
the dollars won't be there. And if those dollars aren't there, 
then the economy is going to suffer. There is a very direct 
economic impact associated with these resources and their use.
    Mr. Miller. I am sorry that I came in late in your 
testimony. But if you haven't touched on it--if you have, I 
will be glad to review your statement--but where do you put the 
state of the reefs, you know, if you were to measure, where are 
we going here? Are we in a state of continued decline for the 
moment or are we stabilizing this effort? I mean, from what you 
read in the popular press, it suggests that the assault still 
continues certainly on a worldwide basis.
    Mr. Garcia. That is correct. It does continue. It hasn't 
stabilized. There is a serious crisis. Reef ecosystems are in 
decline globally, and as I noted in my testimony, nationally. 
The estimate I believe is that 10 percent are dead or dying, 
another 30 percent could die if there is not intervention in 
the next 10, 20, 30 years, and additional reefs would also be 
subject to disease and death if we don't reverse this trend.
    Part of our program is to educate the public and to 
mobilize the public to take action to protect these resources 
and to understand their value to the economy generally and to 
our heritage.
    Mr. Miller. Thank you. Thank you, Mr. Chairman.
    Mr. Peterson. Mr. Jones.
    Mr. Walter Jones. Mr. Chairman, thank you very much, and I 
also want to apologize to Mr. Jones and Mr. Garcia--I have a 
sore throat, excuse me--for not being here for your testimony. 
And the question that I have, Mr. Jones, is really not under 
your agency's jurisdiction, but are you familiar with the USAID 
Program known as CAMPFIRE?
    Mr. Marshall Jones. Yes, sir, I am.
    Mr. Walter Jones. Would you please share with the panel 
what this program is all about, how it works, and the dollars 
involved?
    Mr. Marshall Jones. Sir, I am not the best person to give 
you an expert testimony on CAMPFIRE. It is a program which 
originated within the country of Zimbabwe in recognition that 
it is the local villages who live with wildlife who in the long 
run will be the ones to determine whether those wildlife 
populations survive or not.
    And particularly in the case of elephants, a species that 
has both tremendous potential values for all the reasons that 
are outlined in my written testimony, and also potentially can 
do great harm both to crops and to people themselves, a 
movement, I can't describe who or where this started, except to 
say that particularly within Zimbabwe there was a feeling that 
local people need to become involved in the management of 
wildlife populations.
    CAMPFIRE was an attempt, still is an attempt, to do that, 
to give local people the opportunity to participate in the 
management of their wildlife and to reap economic benefits from 
that, benefits that will give them a stake in conservation, 
rather than seeing wildlife as a nuisance or, even worse, 
perhaps as a symbol of colonial governments and the usurpation 
of their resources, something that belongs to them and 
something they have a stake to take care of.
    As I understand it, USAID put funding into CAMPFIRE to 
enable CAMPFIRE to build the capacity of these local 
organizations throughout the country to participate in the 
wildlife management. We support the general principle of 
sustainable utilization of wildlife within the Department of 
the Interior. We think that the goals and the concepts in the 
CAMPFIRE program are excellent. They are ones which have been 
now modeled in other countries, but they are being adapted to 
the local situations.
    We understand there are questions about the specific 
aspects of CAMPFIRE and how it has been managed. And, sir, 
those are things that I am not expert enough to be able to 
comment on. What I can tell you is we support the goals and 
objectives, and we hope that CAMPFIRE will be a success because 
we think that is essential for the conservation of wildlife in 
southern Africa.
    Those are the countries where, in fact, elephant 
populations have not declined. Elephant populations are stable 
or increasing, countries that in general have done the best job 
with maintaining their wildlife resource. It is one of the few 
natural resources that some of those countries have, and we 
hope that the program will be a success.
    Mr. Walter Jones. Do you have enough knowledge--and I 
realize if you don't, again, because it is not your agency--but 
that the dollar is trickling down to the average citizen in 
Zimbabwe?
    Mr. Marshall Jones. Sir, I was in Zimbabwe a few years ago 
and visited one of the CAMPFIRE districts, and I saw a health 
clinic that was built by revenues which came from CAMPFIRE. So 
I am sure that revenues are coming down and going to local 
communities where they are using them for everything from the 
construction of schools and clinics to cash payments to people 
who may have a very marginal income, only a few hundred dollars 
a year per capita income.
    How much of the funding goes down to the villagers versus 
how much is used for administrative costs or any other part of 
the program, I would not be able to comment. But I have seen 
with my own eyes some of the good benefits that can occur if 
the program works correctly.
    Mr. Walter Jones. My last question, again, is how much 
money since the program started has been invested in the 
CAMPFIRE program?
    Mr. Marshall Jones. Sir, that is a question I cannot 
answer.
    Mr. Walter Jones. OK. Thank you very much.
    Mr. Peterson. I would like to thank the members. Due to 
restraint of time and two more panels, instead of a second 
round, I am going to ask unanimous consent for Mr. Abercrombie 
to ask specific questions to Mr.----
    Mr. Miller. Mr. Chairman, if I might, I would like to 
follow on a question that Mr. Jones just asked if I might when 
Mr. Abercrombie is done.
    Mr. Peterson. I yield to Mr.----
    Mr. Miller. Go ahead first and then I will----
    Mr. Peterson. Mr. Abercrombie.
    Mr. Abercrombie. I have a brief question we can follow for 
Mr. Garcia. Information from our staff and from my own reading, 
they cite an article--I think it was already mentioned--in the 
Washington Post. Miller has cited the popular press--talking 
about disease in the coral reefs in Florida.
    And in that same article, they mention another disease. One 
is a white scum, something of that nature, in Florida, and 
another disease in Hawaii. But I am unable to discover in 
Hawaii precisely what it was that was spoken of. It was almost 
a throw-away sentence in the article, and I wonder if you have 
something you could--if you can't do it today--look into it and 
tell me about it because I can't find it?
    Mr. Garcia. Sure. I would be happy to look into it, but I 
would also suggest that you have a panel far more expert than I 
in the diseases associated with reefs that may be able to 
answer your question today.
    [The following was submitted:]

                    ``White Pox'' Coral Reef Disease

    NOAA is not currently conducting any reasearch or 
monitoring activities regarding the occurrence of ``white pox'' 
coral reef disease in Hawaiian waters. For further information, 
it is recommended that you contact Mr. Paul Jokiel, University 
of Hawaii/Institute of Marine Biology, 1000 Pope Road, HI 96822 
(tel 808-236-7440).

    Mr. Abercrombie. OK. Thank you.
    Mr. Peterson. Mr. Miller for a follow-up.
    Mr. Miller. Just to follow on the points raised by Mr. 
Jones, and maybe other witnesses can comment on it. But as I 
understand, your program is the African Elephant Conservation 
Fund. That is what we are here about. And that is about $1 
million. And the theory of that is that we are engaging in 
African elephant conservation, I assume?
    Mr. Marshall Jones. That is correct.
    Mr. Miller. Truth in labeling. I mean, that is the--I guess 
the question I would have to follow is that there seems to be a 
substantial amount of other moneys that are flowing into these 
same regions.
    And I just ask if you have a sense of whether or not when 
we look at these programs and the managements of these programs 
and the results, are they consistent with the African elephant 
conservation program, or are you getting--are there other 
programs that are having more of an impact than this $1 million 
that may be wiping out the purposes and intent of this program?
    Mr. Marshall Jones. Mr. Miller, the African Elephant 
Conservation Fund is the only dedicated fund just for elephant 
conservation right now. There are a lot of other donors which 
operate in Africa, but their efforts are not focused on 
elephants.
    Mr. Miller. No, but let us just go to CAMPFIRE. That is a 
USAID program, is it not?
    Mr. Marshall Jones. Yes.
    Mr. Miller. Most of the funding comes from that. That looks 
to me like it is going to be--we have spent about $5 million, 
and we are now talking about spending $20 million. Is that 
consistent with what people believe we are doing in terms of 
African elephant conservation? You suggest you think that 
program is working, and I am just asking is that consistent 
with what we believe is the intent of what is happening here?
    Mr. Marshall Jones. The goals of that program are entirely 
consistent with elephant conservation. Obviously, the program 
addresses a broad variety of things. Elephants are touched on 
in the program. The goals are consistent. I can't comment on 
the operation of the program or whether the program has been 
achieving the objectives which they----
    Mr. Miller. Well, part of that program is about generating 
ecotourism or around the hunting of elephants, is it not?
    Mr. Marshall Jones. Both, yes, sir.
    Mr. Miller. Is the take of those elephants consistent with 
the conservation of the African elephant?
    Mr. Marshall Jones. We believe it is. We approve the import 
of African elephant trophies into the United States from 
countries which have a sustainable program. Those programs 
result in the taking of less than one percent of the elephant 
population each year. The large bulls are those which trophy 
hunters will single out.
    And as long as those programs are well managed and result 
in revenues which are returned to conservation programs, we are 
able to approve them, and we have a number of countries that we 
have approved for the import of trophies. We think that hunting 
is consistent with the Elephant Conservation Act, and the Act 
specifically addresses that in its text.
    Mr. Miller. OK. Thank you. Thank you, Mr. Chairman.
    Mr. Peterson. I would like to thank Mr. Jones and Mr. 
Garcia for their testimony and the members for their questions. 
We will now introduce the next panel. The first witness of the 
next panel is Dr. Terry Maple, the Director of Zoo Atlanta; Dr. 
Teresa Telecky, the Director of the Wildlife Trade Program of 
the Humane Society of the United States; the Honorable Ron 
Marlenee, Director of Legislative Affairs at Safari Club 
International; Ms. Gina De Ferrari, the Director of TRAFFIC for 
the World Wildlife Fund; Dr. Brian Child, the Community 
Development Advisor of Longwa Integrated Rural Development 
Program of Zimbabwe.
    I would like to remind the witnesses that under our 
committee rules, they must limit their oral statements to five 
minutes, but that their entire statement will appear in the 
record. We will also allow the entire panel to testify before 
questioning the witnesses. The Chairman now recognizes Dr. 
Maple. And I guess I should correct--the last one I mentioned 
is from Zambia, not Zimbabwe. Welcome to the panel. Mr. Maple, 
you can proceed.

     STATEMENT OF DR. TERRY MAPLE, DIRECTOR OF ZOO ATLANTA

    Mr. Maple. Thank you very much. When America's zoo 
directors behold an elephant, the see it through the eyes of 
the nation's 120 million zoo visitors. There are roughly 40,000 
mammals on exhibit in the 170 accredited institutions which 
comprise the American Association of Zoos and Aquariums. Only 
136 African elephants currently reside in American zoos.
    They are extraordinarily difficult to properly exhibit, 
manage, and breed. It will be many, many years until we can 
proclaim a self-sustaining captive population. Even if we could 
clone an elephant to obtain a normal adult, we would spend 
decades nurturing and socializing a long-lived creature with a 
complex social structure and intellectual powers that rival 
those of human kind.
    The successful management of elephants in zoos is our most 
labor intensive and expensive form of mammalian husbandry. It 
is as much art as it is science, and its expert practitioners, 
the elephant keepers, must be alert and savvy each and every 
day that they walk among the world's largest land mammals. Zoo 
professionals respect elephants, while our visitors shower them 
with affection. The label ``charismatic megavertabrate'' is a 
perfect fit with the African elephant.
    I rise to support reauthorization of the African Elephant 
Conservation Act because I believe that its grants program is 
making a significant difference in Africa. It is doing what was 
intended in providing critical financial assistance to support 
protection, conservation, and management of African elephants 
in the wild.
    To date, 17 African countries have benefited from the 50 
projects funded with over $5 million of programmatic money and 
more than $8 million in matching funds. The identified needs 
are greater than the sum expended by a factor of 20.
    We have made an important start with this very important 
program. The Grants Program of the African Elephant 
Conservation Act is an example of American leadership at its 
best. We are fact-finding; we are solving real problems; we are 
team-building; and we are making a difference in the field.
    As one who must live by a budget based on a competitive 
marketplace, I recognize the importance of cost-effective, 
well-designed, focused, and flexible programs. The African 
Elephant Conservation Act was designed to encourage donations 
from private sources, and the record demonstrates this strategy 
has been successful.
    I regard this program as a classic example of a public-
private partnership. The key word is partnership, as our 
government must be an effective and willing partner with other 
responsible governments and other conservation organizations if 
we are going to save elephants in Africa.
    In my opinion, there is great potential to dramatically 
grow the private side of the match to help fill the gap between 
proposed and funded projects. I will do what I can to encourage 
expanded participation by the nation's zoos. And working 
together we will accomplish a great deal more in the future.
    Because the needs are great and the funding at present 
modest, the African Elephant Conservation Act was also designed 
to provide quick, short-term support for holding actions and 
other conservation measures in concert with existing or 
proposed long-range activities or until such activities are in 
place.
    Experts from the field have prioritized well, ensuring that 
our contributions are applied to the most critical endeavors, 
but in ways that contribute to a holistic plan. These are 
thoughtful programs administered by experienced personnel who 
are committed to long-term conservation action. America's 
continued involvement in such programs instills confidence in 
situations where morale can fluctuate wildly on an eventful 
day.
    Now, Africa's elephants are huge and visible creatures. 
Their decline throughout their range has been swift and 
dramatic. They are a symbol and a metaphor for our protection 
efforts. And we know that habitat destruction has been a factor 
in their decline, but we also know that poachers continue to 
annihilate whole populations of elephants throughout Africa.
    I visited sites in Kenya's Tsavo National Park where this 
poaching is evident. And a fresh kill by poachers, I must say, 
is a deeply disturbing event. It is an image that is lasting 
and something that you cannot forget if you witnessed it.
    I would like to recall some words from our Senator in 
Georgia, Paul Coverdell, who recently identified the 104th 
Congress as the ``most aggressive campaign to protect the 
environment in recent history.'' He cited 11 major 
environmental initiatives which would provide a ``safer and 
healthier environment for all,'' including the Everglades 
Protection Amendments to the 1996 Farm Bill.
    I want you to know that this is the kind of commitment that 
the Congress has made is important. It is important for 
elephants. It is important certainly for the nature world.
    Mr. Peterson. Mr. Maple?
    Mr. Maple. This pact, I want to add, is--pardon me, sir?
    Mr. Peterson. We need to move to the next witness. We are 
running short on time here.
    Mr. Maple. I am sorry. Would you grant me one last 
paragraph?
    Mr. Peterson. Sure.
    Mr. Maple. OK. I simply wanted to quote Senator Coverdell. 
He said, ``History will judge this Congress on its merits, and 
in terms of environmental protection, it must surely be said 
they were committed to conservation.'' We are indebted to the 
strong leaders who have sponsored reauthorization of this Act. 
I thank you for this, and I would hope that the Elephant 
Conservation Act is a very good start for this Congress. Thank 
you.
    [Statement of Mr. Maple may be found at end of hearing.]
    Mr. Peterson. Thank you. Dr. Telecky.

STATEMENT OF DR. TERESA TELECKY, DIRECTOR OF THE WILDLIFE TRADE 
        PROGRAM, THE HUMANE SOCIETY OF THE UNITED STATES

    Ms. Telecky. Good morning, Mr. Chairman, and members of the 
Subcommittee. Thank you for this opportunity to testify on the 
reauthorization of the African Elephant Conservation Act on 
behalf of the Humane Society of the United States and 12 other 
organizations.
    Mr. Chairman, in 1988 when the African Elephant 
Conservation Act was passed, you will recall that approximately 
100,000 elephants were being killed each year to satisfy the 
world demand for ivory. Elephant numbers had dropped from about 
1.3 million in 1979 to only 700,000 and were declining by about 
10 percent per year. Today, there are fewer than 543,000 
elephants remaining in the wild.
    Elephants have virtually disappeared from some areas of 
Africa. The average weight of a tusk being exported from Africa 
had dropped from 35 pounds in 1979 to only 13 pounds in 1988, 
indicating that older elephants were being wiped out by the 
ivory trade. The ivory control system adopted by CITES to 
regulate the trade was clearly failing, and by 1988, about 80 
percent of ivory in trade was from poached elephants.
    The passage of the African Elephant Conservation Act in 
1988 and President Bush's subsequent ban on the importation of 
ivory into the United States under the Act, which happened in 
June 1989, sent a clear message to the CITES parties who, five 
months later and with the support of the majority of African 
elephant range states, placed the African elephant on CITES 
Appendix I, banning the international commercial trade in 
elephants and elephant parts.
    The ivory trade ban stopped the dramatic decline of the 
African elephant. And although poaching and illegal ivory trade 
still occur, the levels are minuscule compared to when the 
ivory trade was legal.
    However, most elephant populations have yet to show signs 
of recovery from the years of unfettered poaching for the ivory 
trade. Despite this, Zimbabwe, Botswana, and Namibia will 
propose at this June 1997 CITES meeting to remove their 
populations of elephants from CITES Appendix I in order to sell 
ivory stockpiles to Japan, and to trade in live elephants and 
elephant trophies. Zimbabwe will also propose to trade in ivory 
souvenirs and elephant hides.
    Mr. Chairman, any change in the listing of the African 
elephant under CITES, even if it is portrayed in live animals, 
trophies, souvenirs or hides, will unfortunately be seen by 
elephant poachers and ivory dealers as a sign that the ivory 
trade ban will soon be relaxed.
    Indeed, elephant poaching increased in Kenya and other 
countries in months preceding each CITES meeting since 1989. 
And now just a few months before this June's CITES meeting, 280 
elephants, including mothers and infants, have been found 
massacred in the Congo, their tusks removed.
    Moreover, in February 1997, just last month, a CITES panel 
of experts concluded, first, that control over ivory stockpiles 
is inadequate in Botswana and requires improvement in Namibia, 
and that there continues to be movement of ivory through both 
countries to South Africa.
    Second, that law enforcement is ``grossly inadequate'' in 
Zimbabwe which has permitted the establishment of large scale 
ivory carving operations that sell commercial quantities of 
semiworked ivory to Asian countries, that large amounts of 
illegal ivory are passing through Zimbabwe to South Africa, and 
that Zimbabwe has poor control over other elephant products. 
And, finally, in Japan, the illegal import of partially worked 
ivory or pieces of tusks cannot be reliably detected.
    Mr. Chairman, it is clear that poachers stand ready to 
resume elephant poaching on a large scale, and that none of the 
three proponent countries, nor Japan, have control over ivory 
trade even now when it is banned from international trade.
    Removing any population from CITES Appendix I will reverse 
all the progress that has been made since passage of the 
African Elephant Act. We, therefore, strongly urge you and 
other members of the Subcommittee to voice support for 
retaining all populations of the African elephant on Appendix 
I.
    If passed, these proposals will not only allow the sale of 
dusty stockpiles of ivory, but will clear out ivory stockrooms, 
making way for new ivory from culled elephants. The HSUS 
opposes the use of culling as a means to control elephant 
populations and offers hope for a humane alternative.
    In January 1997, the HSUS signed a $1 million, five-year 
agreement with the National Parks Board of South Africa to, 
among other activities, conduct a study on the use of amino 
contraception as a means for humanely controlling the size and 
growth of elephant populations in Kruger National Park. And Dr. 
Jay Kirkpatrick, the lead researcher on the project, is here 
with me today to answer your questions. Mr. Chairman, my five 
minutes seems to have run out awfully quickly. May I just 
conclude?
    Mr. Peterson. Yes, please.
    Ms. Telecky. OK. We wanted to conclude by commenting on the 
CAMPFIRE program. We have a number of problems with money from 
the African Elephant Conservation Act going to this program, 
the first of which is that the program has promoted the 
resumption of the ivory trade. And as I have just described to 
you, any resumption in the ivory trade would doom the 
elephants.
    Secondly, CAMPFIRE has lobbied to change the Endangered 
Species Act in this country to weaken it, to allow the import 
of more endangered and threatened animals into this country, 
and that is of grave concern to us. And, thirdly and finally, 
CAMPFIRE is based primarily on African elephant trophy hunting, 
which is an activity that is opposed by 84 percent of American 
citizens. And we don't think that money should be used from 
this Act to fund such programs. Thank you, Mr. Chairman.
    [Statement of Ms. Telecky may be found at end of hearing.]
    Mr. Peterson. Thank you. Mr. Marlenee.

     STATEMENT OF THE HONORABLE RON MARLENEE, DIRECTOR OF 
LEGISLATIVE AFFAIRS, SAFARI CLUB INTERNATIONAL; ACCOMPANIED BY 
                          STUART MARKS

    Mr. Marlenee. Thank you, Mr. Chairman. Mr. Chairman, we 
should not be surprised at the almost universal support of the 
African Elephant Conservation Act and of CAMPFIRE. SCI, Safari 
Club International, strongly supports the passage of H.R. 39 
which will renew the Elephant Conservation Act.
    The AECA funds could almost be considered conscience money. 
The ESA and an almost virtual ban on trophy hunting has 
stripped the host nations of their ability to fund conservation 
and enhancement programs in a meaningful way.
    One of the reasons that the African Elephant Conservation 
Act is necessary is that the Endangered Species Act is long on 
mandates and sanctions and totally devoid of recovery support. 
82 percent of the mammals listed under the ESA are foreign, yet 
the Act provides no benefit for foreign species with regard to 
recovery.
    Your invitation to testify asked us to address the various 
grant programs that we have under the Act. Accordingly, we will 
address and briefly discuss our three grant projects, two in 
Tanzania and one in Zimbabwe. And by the way, Mr. Chairman, I 
have included all of the information required at the end of my 
written testimony and ask that that be submitted for the record 
along with Dr. Stuart Marks's testimony.
    The matching grant for the first Tanzanian project is 
$36,000, and it was for a pilot program to train government 
game scouts to gather elephant data and pinpoint it 
geographically using handheld GPS systems. The date is needed 
for wildlife management. Game scouts accompany safari hunting 
parties into the field at the expense of the hunter. Here 
again, we extend the effective dollars.
    The grant funds the training of scouts to collect elephant 
data while in the field. It equips them with the Magellans to 
pinpoint the location, to accompany their recorded 
observations. It also provides a central computer storage data 
center. In effect, it has helped to extend the training of game 
scouts to act as biological assistants while in the field.
    A second phase of the grant has been approved to allow an 
increase in the number of game scouts that can be trained. The 
program also teaches the game scouts to evaluate the elephant 
populations from the point of view of their hunting trophy 
quality.
    This is important because it maximizes the revenue that can 
be obtained from a culling program and from the use of this 
natural resource which results in a minimal biological impact 
of that particular program and actually reduces the number of 
elephants required to be taken to fund programs. The revenues 
are a key incentive to conservation and provide much of the 
funding used for such conservation.
    The second matching grant was for $84,000 to help fund a 
survey of Tanzania's elephant populations which may be the 
largest in Africa. It will fund aerial surveys of three 
specific areas completing the collection of data which will 
provide a new base line for elephant populations in Tanzania.
    In carefully reviewing the submitted testimony of HSUS, I 
have noted criticism of SCI and CAMPFIRE. Mr. Chairman, to be 
criticized by HSUS is a badge of honor and distinction. To 
merit that criticism, one must be making a contribution 
effectively and meritoriously.
    Perhaps it is research in saving a child's life. Perhaps it 
is programs to feed hungry people. Or, in this case, it may be 
as simple as teaching people to protect and harvest animals to 
provide revenue that would feed whole villages. I have asked 
our esteemed and respected Dr. Marks to explain in a couple of 
short minutes what our third grant about CAMPFIRE is all about.
    [Statement of Mr. Marlenee may be found at end of hearing.]
    Mr. Gilchrest. [presiding] Do you want to do that right 
now, Mr. Marlenee?
    Mr. Marlenee. Answer questions for you?
    Mr. Gilchrest. Will this take more than a minute or two?
    Mr. Marks. I will try in two or three minutes, sir.
    Mr. Gilchrest. All right. OK. We will let you go, and then 
I think we will decide whether or not we will go to the next 
two witnesses before the vote is taken. I would say that I 
think a badge of honor is for all of us to get down at the 
table and express our opinions in a sense of tolerance for each 
other's differences so that we can find a way collectively to 
proceed to protect the world's ecosystems and great mammals. 
And I think that is what we are about here today. We will give 
you two minutes, sir.
    Mr. Marks. Thank you, Mr. Chairman. My name is Stuart 
Marks. I am Director of Research and Community Development for 
Safari Club International. I have a Ph.D. in Animal Ecology and 
have taught anthropology. Having grown up in rural central 
Africa, I have spent some 30 years researching community uses 
of wildlife and assessing community-based wildlife programs. 
More to the point, I am the project administrator of the 
African Elephant Conservation grant support to CAMPFIRE in 
Zimbabwe and have been associated with it from the beginning.
    Mr. Miller. Do we have a disclosure form?
    Mr. Marks. Yes. I think Congressman Marlenee just gave you 
one in our statement.
    Mr. Miller. Ron, you asked--is that in your main packet? Is 
that part of your--the disclosure form I am talking about is 
one of the other witnesses have--maybe we can sort this out 
while we go for a vote. In terms of Federal grants and what 
have you, have you filed that with the committee?
    Mr. Marlenee. What is it you asked, George?
    Mr. Miller. Witnesses are required to have a disclosure 
form in terms of Federal grants and participations or moneys 
received or programs worked on. And we have--but I don't know 
if we have it for here. Is this it?
    Mr. Marks. Yes, sir.
    Mr. Peterson. [presiding] Mr. Miller will review that in 
just a moment.
    Mr. Miller. Well, this is for the Safari Club.
    Mr. Abercrombie. If the gentleman will yield, the problem 
here is that we have added new layers of bureaucracy since the 
104th Congress. And absent a--this is nothing against you, 
doctor, but absent what amounts to a curriculum vitae from you, 
you can't testify unless we could waive it or something of that 
nature. What I would be willing to do----
    Mr. Marlenee. May I respond?
    Mr. Peterson. Mr. Marlenee.
    Mr. Marlenee. Yes. The testimony that SCI provided that I 
spoke to contains all of the grant information, my name, all of 
the addresses and information that are necessary. And it is in 
the members' packet under SCI testimony. It is with the colored 
logo. Dr. Marks is a supplement to my testimony and is included 
under the blanket of what I have provided. I think counsel can 
point that out to you.
    Mr. Abercrombie. Excuse me, Mr. Chairman. Nice try, Mr. 
Marlenee. But, you know, Mr. Maple has got an example right 
here--what is required. I don't require it. I don't think a lot 
of us require it, but that is what the rules say now. And, you 
know, it has got everything, including all your sins of 
commission and omission has to be in.
    Mr. Peterson. We have an opportune time here to break to go 
take a vote, and when we come back, we will have it all cleared 
up. We have to break. We will be back shortly. Thank you. The 
hearing is in temporary recess.
    [Recess.]
    Mr. Peterson. We will reconvene the Subcommittee hearing, 
and we will move to the next witness, Gina De Ferrari. Thank 
you, Gina, and please proceed.

   STATEMENT OF GINA DE FERRARI, DIRECTOR OF TRAFFIC, WORLD 
                         WILDLIFE FUND

    Ms. De Ferrari. Mr. Chairman, thank you for the opportunity 
to appear here today. The World Wildlife Fund is the largest 
private conservation organization working internationally to 
protect wildlife and wildlife habitats. We currently support 
conservation efforts in many key African elephant range states.
    I am here today to convey our views on the effectiveness of 
the African Elephant Conservation Act. First, I want to thank 
you, Mr. Chairman, for convening this hearing and applaud the 
Subcommittee for taking a leadership role in securing passage 
of this Act.
    The African Elephant Fund administered by the Fish and 
Wildlife Service has provided about $5.4 million over eight 
years for elephant conservation throughout Africa. It supported 
66 grants in 17 African countries. In our view, the Fish and 
Wildlife Service has been both efficient and effective in 
managing this grant program.
    This fund has been the only continuous source of new money 
for African elephant conservation efforts since the 1989 ivory 
trade ban took effect. Unfortunately, funding from other 
sources have proven erratic. In the immediate aftermath of the 
ivory trade ban when the world was sensitized to the elephants' 
dilemma, funding flowed from various governments, multilateral 
bodies, and NGO's to projects in many parts of Africa.
    Subsequently, however, funding largely dried up. A 1995 
review, co-sponsored by World Wildlife Fund and the Fish and 
Wildlife Service, revealed that many African parks and wildlife 
departments have suffered severe budget cuts, some around the 
order of 90 percent or more over four years, as was the case 
with Tanzania from 1989 to 1993.
    This not only underscores a very serious trend, but also 
makes the moneys authorized by the African Elephant Act even 
more valuable and needed. A key list of World Wildlife Fund 
projects funded under the Act is appended at the end of my 
testimony. I would like to highlight one in particular which 
represents the most focused of our efforts.
    But first I would like to differentiate between the kinds 
of issues associated with elephant conservations in southern 
Africa from those in central Africa. In southern Africa, 
elephant conservation problems are increasingly related to 
human-elephant conflicts as elephant populations outgrow the 
available habitat within protected areas. And, increasingly, 
conservation projects there are designed to find ways to 
minimize those conflicts.
    By contrast, central Africa is many years behind east and 
southern Africa with respect to protected areas in which 
elephants can find refuge. Poaching continues to pose a serious 
problem. It is important to note that as many as half of 
Africa's elephants live in this region. It is here in the 
Central African Republic that World Wildlife Fund has focused a 
good bit of its effort.
    The southwestern region of this country contains its last 
stronghold of lowland tropical forest which is home to large 
numbers of elephants. The government of the Central African 
Republic and World Wildlife Fund have worked together to create 
a multiple use reserve called Dzanga-Sangha and national park 
called Dzanga-Ndoki to protect this unique ecosystem.
    We have had the support of the Fish and Wildlife Service 
for nearly six years. The antipoaching operations supported by 
the Fish and Wildlife Service include a force of 30 guards and 
have resulted in a marked decrease in poaching and a 
significant increase in the elephant population. The recorded 
density of more than three elephants per square kilometer is 
one of the highest, if not the highest, ever recorded in the 
forests of Africa.
    A major focus of this project has been the participation of 
local people. It is one of the first conservation initiatives 
in the lowland forests of Africa to integrate conservation with 
the needs of the rural poor. As such, it serves as an important 
prototype for future community conservation efforts in central 
Africa in which local people realize direct benefits from 
wildlife conservation.
    The objective of the project to stop large scale poaching 
of elephants in the core area of Dzanga-Sangha has clearly been 
reached. The elephant population is expanding, and that is a 
situation that is unique in the central Africa region. You may 
have seen the TV documentary last week showing the slaughter of 
200 elephants in the Congo last fall. It was a gruesome scene, 
one which underscores the importance of establishing and 
effectively guarding protected areas in this region of Africa 
where poaching is still a very real threat.
    Fish and Wildlife Service funding has provided the impetus 
for the establishment of a network of protected areas in 
central Africa and has leverage funds from the World Wildlife 
Fund, the Wildlife Conservation Society, as well as generous 
funding from European governments.
    In summary, I would like to express my strong support for 
the accomplishments that have been achieved with funding under 
the African Elephant Conservation Act, commend the Fish and 
Wildlife Service for an excellent job in administering the 
fund, thank you for your continuing support, and urge Congress 
to fund the Act as generously as it can.
    [Statement of Ms. De Ferrari may be found at end of 
hearing.]
    Mr. Peterson. Boy, she has got the pace right down. Thank 
you very much. Dr. Brian Child.

 STATEMENT OF DR. BRIAN CHILD, COMMUNITY DEVELOPMENT ADVISOR, 
     LONGWA INTEGRATED RURAL DEVELOPMENT PROGRAM OF ZAMBIA

    Mr. Child. Thank you very much. I live in the rural area in 
Africa amongst rural people, and pictures like that with 
washing being knocked out of my garden are very familiar. I 
have managed the CAMPFIRE program for six years, and I now 
manage a very similar program in Zambia.
    We in Africa would like to thank the AECA and the U.S. 
Government for supporting antipoaching using this money. It has 
been very useful. But we would also like to commend the new 
approach whereby they are supporting the new African approach 
to conservation. And I would like to make three points in 
support of the recommendation that this continues.
    Firstly, southern Africa's sustainable use approach is 
probably the greatest conservation success since Yellowstone 
over 100 years ago. Secondly, community based natural resource 
management, including CAMPFIRE, which has come up a lot, is the 
first major success anywhere in matching wildlife conservation 
and rural development in conditions of serious human poverty.
    And, thirdly, a lot of these successes are being 
deliberately misrepresented by groups with little understanding 
of Africa and with scant regard for the truth, wildlife 
conservation, and human well-being.
    As I said, Yellowstone was the first success, and about 15 
percent of southern Africa is protected as national parks 
because of that American model. But this model is not 
appropriate outside national parks where you have human 
population doubling every 20 years and widespread human 
poverty. People die because they don't have $2 for anti-malaria 
drugs.
    This approach is based on the reality that the reasons that 
elephants and wildlife disappear is because people grow more 
and more crops and more and more cattle. If you don't make 
wildlife as competitive, it will disappear.
    The result of this new policy is a massive increase in land 
under wildlife. Starting with elephants, in Zimbabwe, the 
population has increased in the last 15 years from 47,000 to 
68,000. That is a massive increase in elephants. The increase 
is 2 to 3,000 per year compared to an offtake in the CAMPFIRE 
program of 130. So it is definitely sustainable.
    So in summary of this new paradigm, it has tripled the area 
of wildlife conservation, which is amazing, and that is why we 
claim it is the greatest conservation success since 
Yellowstone.
    Turning to community based management, which seems to have 
come up a lot this morning, the challenge is to do elephant 
conservation where there is poverty and where there are very 
serious conflicts of elephant. In Kenya, since 1989, 353 people 
have been killed by elephants. That is more people than were 
killed in TWA 800. So African people are terrified of wildlife.
    The dilemma is how do we conserve destructive animals like 
elephants amongst people living in poverty? Now, we believe we 
have got a solution to this in that we give people the 
ownership of wildlife, and then we help them market it so they 
get benefits from wildlife and they conserve it.
    And the reason why CAMPFIRE is in the limelight is because 
it has made huge strides in developing this philosophy. And I 
just want to stress that CAMPFIRE is much, much bigger than 
elephants. It is about democracy. It is about human 
development. It is about general wildlife conservation.
    One of the key things in CAMPFIRE is that everything is 
done in a public forum. Rural communities meet to discuss how 
to use the money from wildlife and how to manage their 
wildlife. The result has been that wildlife has become 
valuable, and because it is valuable, it is now conserved. Much 
more land--triple the amount of land is allocated to wildlife, 
and a lot less animals are being killed.
    The result--it is really important to stress this--of the 
CAMPFIRE program is the proliferation of grassroots democracies 
throughout southern Africa. It is promoting the democratic 
process in Africa. People get money. People invest in schools. 
And communities are being transformed from being dependent and 
downtrodden with no hope to people that can do things for 
themselves. And that is sustainable. That means less and less 
and less need for foreign aid.
    This program is supported by major donors. USAID has played 
a major role in supporting it. The Elephant Conservation Act 
has helped. The British, the Germans, the EU, the Norwegians, 
the Danes all support these programs in southern Africa. In the 
testimony I have submitted 20 letters in support from major 
conservation agencies like WWF, IUC, and AWF, et cetera. So 
there is a lot of support for this program.
    I see I am running out of time so I will just summarize by 
thanking the AECA for supporting one of Africa's biggest 
conservation success stories in 100 years, for promoting 
democracy, and for improving the livelihoods of millions of 
people. Thank you, Mr. Chairman.
    [Statement of Mr. Child may be found at end of hearing.]
    Mr. Peterson. Thank you, Mr. Child. I have a question for 
Dr. Telecky. The one conservation project that your 
organization has in Africa devotes $2 million to the 
development of elephant contraceptives. If this project is 
successful, it will reduce the reproductive capacity of 
elephants which you maintain are endangered throughout the 
whole range. Where is the logic in trying to reduce the 
productive capacity of what you maintain is an endangered 
species?
    Ms. Telecky. Thank you, Mr. Chairman. In answer to your 
question, I would say that certainly African elephants are 
considered threatened under our Endangered Species Act. The 
IUCN considers them to be threatened--endangered, rather, 
throughout the continent of Africa.
    However, in certain areas, there seem to be concentrations 
of elephants especially where they have been artificially 
fenced in, and there is no way for them to maintain their 
normal migratory routes. And Kruger National Park is one of 
those places--Kruger National Park in South Africa.
    In South Africa, they have quite a bit of tourism, and 
tourists were, of course, concerned about what they heard about 
600 of these elephants being killed every year by government 
rangers essentially. They were culling the population in order 
to keep the level down. And tourists were becoming very 
concerned about that.
    That was of concern to the South African government because 
they rely on tourists for quite a bit of income. And we 
approached them with an idea that we had. We had been working 
on contracepting a number of different species with an amino-
contraceptive vaccine which can be used to control populations 
of animals without resorting to massive culling operations, 
which are publicly unpalatable.
    And the South African government thought it was a good 
idea, and they have agreed to participate in some research on 
that with us. If you have any technical questions about the 
project, we have Dr. Jay Kirkpatrick here who is the research 
leader on that project.
    Mr. Peterson. I guess my response would be wouldn't it make 
more sense to translocate--have a translocation program where 
we move them to areas where they are really wanted and needed 
rather than using birth control?
    Ms. Telecky. Well, in fact, the South African government 
does translocate some of those elephants. They set up some new 
areas in South Africa where they are moving the elephants to. 
But they still feel the need to find a way to control the 
population even with the elephants being moved to other areas.
    Mr. Peterson. Thank you. Mr. Abercrombie.
    Mr. Abercrombie. Yes. We are at a disadvantage here. You 
folks know much more than we can right at this moment, and you 
have different points of view as to the question of hunting and 
whether or not that is a good idea.
    I want to go back then to Dr. Maple. If you will give me 
one second to work my way back in the material. You said then 
in your--you are in favor of the AECA programs. Right?
    Mr. Maple. Yes.
    Mr. Abercrombie. And your testimony isn't numbered so bear 
with me for a moment if you would. I am going to read to you. 
``These are thoughtful programs administered by experienced 
personnel committed to long-term conservation action,'' et 
cetera. ``There are situations--confidence in situations where 
morale can fluctuate wildly on an eventful day.
    ``Such conditions exist in Central Africa today where Zoo 
Atlanta has been monitoring a small group of elephants in 
Rwanda's Akagera National Park. The virtual survival of small 
groups of elephants, gorillas, or other forms of life depends 
on equally small groups of dedicated conservationists and the 
modest resources to support them.''
    I want to use that as a basis for asking both Dr. Telecky 
and Ms. De Ferrari, and Dr. Child, you are saying different 
things. But Dr. Maple has indicated that there may be a variety 
of approaches here that work. It depends on the individual 
situation and whether it can be monitored and controlled.
    So I would like--maybe, Dr. Maple, you can comment, if you 
would, on these other presentations. I mean, what are we to do? 
I think that the authorization is not at question. The point 
here is what kind of programs are going to be sustained? Should 
they all be sustained? Is this more a paradox than a 
contradiction?
    Mr. Maple. Well, I do agree that down the road and maybe 
even already starting today there is some disagreement about 
these programs, the scope of them, and the nature of them. I 
kind of like to remember what Congressman Gilchrest said, 
before he left, a little bit earlier in the day about having a 
little tolerance for differences of opinion.
    All of the people at this panel and many people in the 
audience are scholars. They are involved in these programs 
because they deeply believe in them. I think in the final 
analysis, a careful forum of evaluation of programs that are 
existing and programs that may occur in the future will be a 
critical variable in making these determinations.
    It may be the case that our evaluation process could be 
improved, and I think that the U.S. Fish and Wildlife Service--
--
    Mr. Abercrombie. Let me go to that question. Take Rwanda. 
The political situation in Rwanda must make it very difficult 
for you to be able to do your monitoring.
    Mr. Maple. Exactly so. In fact, in that particular 
instance, the chaos is so evident that it is difficult even to 
get personnel on the ground and to communicate with people who 
are there.
    Mr. Abercrombie. Well, my instinct then--yes. My time will 
run out fairly soon. My instinct is to support again under the 
right circumstances what Mr. Marlenee is talking about. Dr. 
Child, would you agree that you and Mr. Marlenee, the Safari 
Club's goals and your goals, they are compatible, are they not? 
Right? OK.
    And at the same time I can see under circumstances where 
you have limited resources that the birth control--the 
contraception thing would be a very valuable thing if it works. 
But that is going to require a lot of attention and funds, will 
it not, Dr. Telecky?
    Ms. Telecky. Our experimental research is ongoing right 
now. By early 1998, we will know whether this type of project 
can work with elephants, but it is right now working in the 
management of wild horses and deer populations in the United 
States.
    Mr. Abercrombie. Well, preliminarily then what I am 
concluding, Mr. Chairman, is that probably all of these 
programs need to be supported depending on the context within 
which they are being conducted. I don't really see any 
contradictions here. I see parallels and some paradoxes 
operating. But what we need then is to have sufficient funding, 
and I know that comes back to the old question of where do you 
balance this.
    But I think if we are to have good relations with Africa as 
a continent, and more particularly with those areas in which we 
have a demonstrated interest in the United States in 
conservation, and with tigers, rhinos, for example, as well as 
elephants, I think this is the case. You may have to move 
rhinos, would you not, Dr. Maple? That tiger and rhino program 
may find necessity for moving those animals. Right?
    Mr. Maple. Quite possible.
    Mr. Abercrombie. OK. So then I think, Mr. Chairman, what we 
are dealing with here is a question of adequate funding, and I 
for one cannot conclude yet whether any individual approach is 
superior one to the other. I think they are complementary.
    Mr. Crapo. [presiding] Thank you. The time of the gentleman 
has expired. Does the gentleman from California have questions?
    Mr. Miller. At the risk of being redundant----
    Mr. Crapo. Please go ahead.
    Mr. Miller. [continuing]--which in Congress is a privilege 
that we don't take lightly so don't laugh, but I am kind of in 
the position of Mr. Abercrombie. We have looked at a lot of 
background material on these programs. And the purpose of this 
hearing is to try to provide some sense of evaluation, whether 
we are headed off in the right direction or not, and that is 
not to suggest that this isn't without controversy, but that is 
part of the framework.
    But I am taken with the notion that we are trying to apply 
some solutions that make sense on the ground. And, of course, 
that is where you get into controversy, but that is true in the 
United States. You know, we run into the questions of outright 
preservation of species and animals that are game animals, and 
we have that all the time.
    But the fact of the matter is that the wildlife community, 
the hunting community has generated huge amounts of habitat 
preservation and increases in species as have the fishermen and 
others. And so I think it is all part of the same quilt here.
    The question for us is are these working the way we want 
them to do. And when I say what we want them to do, I think 
there is a very clear sense in the American public's mind that 
this is about the protection and preservation of these animals 
and hopefully the habitat that they come to rely on. That is 
really the overarching theme here.
    As Mr. Gilchrest pointed out, yes, we better figure out how 
to sit at the table together. But if there is something that 
drives this, if people get a sense that this funding is in 
contradiction to that overarching desire, then we have got a 
problem, which is different than a disagreement or a 
controversy about one approach versus the other in the smaller 
sense.
    I just wonder if you maybe can build on what Mr. 
Abercrombie was talking to you, because I get a sense that we 
are here reviewing $1 million that we are trying to steer a 
very large ocean liner here with a spoon. We are not going to 
make a lot of progress. But how does this merge with other 
things that are going on, whether it is USAID and other 
programs? Maybe, Dr. Child, you might want to since you see 
some of this from other support systems.
    Mr. Child. The African elephant funding has been--it is 
pretty well coordinated in southern Africa with major donors 
like USAID and the EU. In fact, the one project that is funded 
through this (AECA) is teaching communities how to set quotas, 
and that program is nested in entirely within a program that is 
coordinated by the Zimbabwe government, and includes support 
from the United States, the EU, and so on.
    So I think southern Africa has their act pretty well 
together--both within countries and between countries. For 
example, with the United States funding through USAID, there is 
a lot of networking that goes on, and the Namibians, 
Botswanans, Zambians, Mozambicans, and Zimbabwens work very 
closely together. So in that respect, it is very valuable.
    Mr. Miller. Let me go right to--and, Ron, you may want to 
comment on this and others. Is hunting an essential component? 
I guess maybe that is one of the questions that gets--that is 
always right below the surface here. Is this a very real and 
essential component to the success of the preservation and 
protection of these species?
    Mr. Child. Definitely, and throughout all of southern 
Africa these programs are beginning with hunting. And the 
reason for that is they are starting with very marginal 
wildlife populations. There has been a lot of poaching in the 
past and so on. If it is difficult to see animals, it is 
difficult to have tourism, but you can have hunting.
    So what happens is that you will have hunting for about 15 
years, and then sometimes you get enough animals to do tourism. 
This is because when you hunt you are only taking two percent 
of the population which is growing at about 10 percent. So 
every year that you hunt, you probably have eight percent more 
animals which is very sustainable.
    And so the communities and the farmers will be making a lot 
of money out of hunting, and then in certain areas where there 
is nice scenery or nice rivers or it is a good tourism place, 
they may then add a tourism venture and ecotourism venture or 
switch completely from hunting to tourism.
    But hunting is a stepping stone from degraded cattle 
ranching to a wildlife production system. If you take out 
hunting, there is no way you are going to move from one to the 
other. So, yes, it is absolutely vital at least for the next 20 
years.
    Mr. Miller. Anyone else on that point? Yes, Ron.
    Mr. Marlenee. George, may I respond to that? I believe 
naturally that hunting is a very important component because it 
is an element in stopping the poaching. Once these indigenous 
people have an invested interest in that wildlife, they are 
going to protect it and they are going to protect it so that 
they have a resource that will return enough to feed and clothe 
them in their villages. It is extremely important that they are 
vested with an interest in that wildlife, and that has been the 
case wherever hunting has occurred around the world.
    Now, how much hunting? Well, hunting should be controlled 
in these instances, and it is controlled in two ways; one by 
our CITES agreement, which establishes quotas, in any country. 
They designate, these renown scientists, that you can take 60 
here, five here, none over here. Nobody disagrees with that.
    And then it is established by the professionals in each 
nation. Some of the foremost professionals in the world and 
wildlife management are involved in the programs in these 
African nations or in the republics of what was formerly 
Russia. So that controlled, scientific approach yields the best 
of both worlds.
    Mr. Miller. Ms. Telecky?
    Ms. Telecky. Yes. Thank you. I would like to address the 
trophy hunting issue too if that is the subject that we are on. 
First of all, it has been claimed that trophy hunting has 
decreased poaching I guess in the case of Zimbabwe, in 
particular.
    And I note that the Zimbabwe government has prepared a 
proposal for downlisting their elephants at the next CITES 
meeting in which they note--they give some poaching figures for 
four areas--four national park areas in Zimbabwe. And poaching 
has actually gone up in three of those areas since the CAMPFIRE 
program began. So I think to claim that elephant poaching has 
declined because of the implementation of this program is not 
quite right.
    Secondly, I wanted to say that trophy hunting does not 
actually address the problem animal situation which was 
discussed by Dr. Child a moment ago--elephants going into 
villages and harming people and harming crops.
    It really doesn't address that because the trophy hunters 
are not killing--they are not there when the problem animal is 
in the village. They are not killing the problem animal. They 
are killing, you know, a different animal essentially. So it 
doesn't really address that.
    It also doesn't act as a population control measure 
because, of course, the hunters are going after the old males. 
Those are the ones with the big tusks. And this is not the way 
to control an elephant population. So I wanted to make those 
three points.
    Mr. Miller. Thank you. If I could just ask one----
    Mr. Crapo. You can have one additional question.
    Mr. Miller. Dr. Child, could you comment on that because 
when you talk about trophy hunting, and my friends who hunt and 
have seen their trophies, this is--as I understand the hunters, 
they are not going there to get any old elephant.
    They are going there to get a particular elephant that 
looks a certain way, just as if you are trophy salmon fishing 
or what have you. You are looking for a certain--there are 
certain specifications in the hunting world on how you got this 
animal.
    So is this really a management tool, or is it because it 
spins off revenues because there is a lot of money spent in the 
process of getting to the taking of that animal? But is it 
really a management tool--a crucial--I mean, is it an 
essential, as I started out saying, management tool?
    Mr. Child. The primary reason for trophy hunting is to give 
the wildlife a value so people farm wildlife and not cattle. 
The actual take is not a management tool, it is a management 
necessity. And I would like to comment on two of the other 
points like the one about problem animals.
    As you stated, American hunters generally like to take the 
biggest bulls and so on. But what we have worked out in 
Zimbabwe is that we have a cheaper deal whereby a hunter can 
come, and he can shoot an elephant, and he has to take the 
exact elephant that is eating the crops or killed somebody.
    And he pays less for that, and he also feels better for it 
in many cases. It is marketing, you know. You have to market 
everything. If you shoot an elephant and you don't make money 
out of it, that is a waste of resources, and that is something 
that we try to avoid.
    We also try to reduce the number of elephants being killed. 
Before this program started, as I said, there were 300 killed a 
year. Now there are only 130 killed because they are valuable 
and because people are using them more carefully. They are not 
just somebody else's elephants that come and maraud through 
your fields. They are now your elephants, and you get $10,000 
every time one is shot.
    I also want to address the poaching issue. I work in these 
communities, and, sure, poaching still continues because life 
is not perfect. But once communities start to get benefits from 
wildlife, the social pressures can stop poaching overnight. And 
I have seen it happen in many, many instances. And it is very 
easy to pick out three villages and quote that poaching is 
going up. But as a general rule, throughout southern Africa 
where these programs are working, wildlife populations are 
going up. Thank you.
    Mr. Marlenee. George, may I address that question?
    Mr. Abercrombie. Excuse me. Would the gentleman yield on 
that?
    Mr. Miller. It is up to----
    Mr. Crapo. Certainly.
    Mr. Abercrombie. Just so I make sure--and, excuse me, Ron. 
You know what this comes back to in my mind now on the 
poaching--because, again, we can argue back and forth here, but 
there wouldn't be poaching in the first place even under the 
circumstances you cite or as much poaching if there wasn't a 
market someplace.
    It is like drugs in this country, and this stupid 
decertification argument that we are having right now. The 
drugs are sold in this country. You have no business preaching 
to other countries about it when we are consuming them. And so 
if it wasn't for the fact that there is a market for that, the 
poaching in addition to the circumstances that you cite would 
decline or decrease or diminish or disappear. Right?
    There has to be a market. Somebody has got to be paying 
them for that. So don't we need to concentrate some funds and 
some international effort on getting sanctions--genuine 
sanctions, hard-hitting sanctions on countries that import this 
ivory?
    Mr. Child. I think the motivation for poaching is much 
broader than the ivory trade. People kill lions because they 
are dangerous. In my area, we have had 11 lions killed this 
year because they kill people. The other major market is meat. 
Africans who only have one or two meals of porridge a day crave 
meat, and they kill elephants and they kill buffalo to eat. And 
there is no way you are ever going to close that market down. 
And the ivory market is a very specific issue and----
    Mr. Abercrombie. Well, to the degree then there is an ivory 
market there, isn't the exporting of it because there is a 
market to receive the ivory?
    Mr. Child. The CAMPFIRE program has been incredibly 
successful in turning wildlife land back into wildlife because 
it is profitable. If you traded ivory and it was twice as 
profitable, maybe there would be twice as many animals. I mean, 
that is an argument that----
    Mr. Abercrombie. I understand. If that was coming as a 
result of programs, that would be one thing. But now the 
poaching is for two reasons--for food and for--or--I'm saying 
poaching now--for food and for profit from the ivory. Right?
    Mr. Child. Yes. But----
    Mr. Abercrombie. OK. I just think that the answer is--part 
of the answer has to be to make sure that if there is illegal 
trade as opposed to legal trade--maybe we can get back into a 
situation where there is enough elephants and enough ivory 
where you can get back in legal trade. But right now those 
populations under stress are under more stress from those who 
think that the acquisition of ivory is going to be profitable 
to them. Right?
    Mr. Child. Yes. But we are in a situation in southern 
Africa where there are actually too many elephants. And we are 
also in a situation where now that the communities are 
benefiting from them, if a poacher comes in, he has got to stay 
somewhere. He has got to get food. They will report him. So 
your information system is much better than it used to be.
    Mr. Abercrombie. Thank you.
    Mr. Crapo. The Chair will allow Mr. Marlenee to answer if 
you still have one, and then we are going to go to the next 
panel. Do you have an answer? Did you want to make an answer?
    Mr. Marlenee. Yes. I would like to respond to George's 
specific question about harvesting the older elephants, and 
that has been brought up here--the trophy hunting part of it. 
The oldest males monopolize the females, and so in many cases 
these are not the most virile. Their fertility count is not the 
highest. So you select that oldest male, remove him from the 
herd, and it increases the genetic diversity and gives the 
younger bulls a chance to procreate, and it----
    Mr. Abercrombie. You better be careful. We are all going to 
get in trouble here, Ron, pretty soon. Somebody may want to 
advance that idea elsewhere.
    Mr. Marlenee. I am starting to gray quite a lot.
    Mr. Crapo. We are not going to let this hearing get into 
that issue or the subject of decertification.
    Mr. Abercrombie. Can we go to the next panel real quick?
    Mr. Crapo. The Chair would like to thank this panel for 
their patience and their presentation of materials. And the 
panel is now excused. Thank you very much for your information 
and participation. We would like to invite to come forward now 
our fourth and final panel of witnesses.
    And while they are changing places at the table and coming 
forward, let me indicate the first witness on this panel is Ms. 
Barbara Jeanne Polo, the Political Director of the American 
Oceans Campaign.
    Following her will be Dr. James W. Porter, the Professor of 
Ecology and Marine Sciences at the University of Georgia, and 
following him will be Dr. Robert Ginsburg, part of the 
International Year of the Reef Organizing Committee and 
Professor of Marine Geology and Geophysics at the Rosenstile 
School of Marine and Atmospheric Sciences.
    We would like to welcome our witnesses for this panel. I 
know you have been patient all day long and appreciate your 
patience. Please let me remind our witnesses that under the 
committee rules, they must limit their testimony to five 
minutes.
    But let me reassure you that your entire statement will 
appear in the record, and the Members of Congress and their 
staff, even those who aren't here, will fully be made--have 
that information made available to them. We will also allow the 
entire panel to testify before we begin questioning of the 
panel. And the Chair would now recognize Ms. Polo.

STATEMENT OF BARBARA JEANNE POLO, POLITICAL DIRECTOR, AMERICAN 
                        OCEANS CAMPAIGN

    Ms. Polo. Thank you. My name is Barbara Jeanne Polo. I am 
the Political Director of American Oceans Campaign, a national 
environmental organization dedicated to the protection and 
restoration of marine ecosystems.
    On behalf of my organization and its members, I would like 
to thank Chairman Saxton, Mr. Abercrombie, and the 
Subcommittee----
    Mr. Crapo. Could you bring the mike just a little closer to 
your mouth please? Sorry about that.
    Ms. Polo. That is OK. [continuing]--for holding this 
hearing today on coral reef restoration and protection. This 
hearing is timely because reefs around the world are suffering 
from overwhelming destruction and calamitous declines, and they 
need our attention and support.
    We would also like to thank the Chairman and Mr. 
Abercrombie and the co-sponsors for their leadership in raising 
awareness at the Federal level of the plight of coral reefs by 
introducing House Concurrent Resolution 8 in the very early 
days of the 105th Congress and the first days of the 
International Year of the Coral Reef.
    H.Con.Res. 8 supports the goals of the International Coral 
Reef Initiative and encourages improvements in many reef-
related U.S. activities. American Oceans Campaign strongly 
supports these goals and hopes that through congressional 
commitment the means to accomplish these ends will be 
identified.
    We would like to recommend that a final point be added to 
the resolution that would make a commitment to funding for 
research and monitoring and for better implementation and 
enforcement of provisions in existing statutes that would 
protect coral reef ecosystems. These statutes include the Clean 
Water Act, the Magnusen-Stevens Act, the Endangered Species 
Act, and the Coastal Zone Management Act and others.
    We would like to also thank Congressman Miller for 
introducing House Resolution 87 just this week. This resolution 
seeks to protect coral reefs from destructive fishing 
practices. Harmful fishing methods such as cyanide and dynamite 
fishing and overharvesting of fisheries that are critical to 
coral reef health are two of the gravest dangers coral reefs 
face.
    Mr. Miller's resolution directly confronts those threats 
and promotes replacing these fishing methods with methods that 
could sustain the fishery and the communities that rely on 
them.
    The introduction of these resolutions gives the 
environmental community hope that a broader discussion of 
legislative protection for coral reefs will ensue over the 
course of this year. I have attached to my testimony a letter 
that is signed by many national, regional, and local groups 
asking for more congressional hearings on reef-related issues 
that would be held within the communities that rely on reefs 
for economic and environmental stability.
    Stronger legislative initiatives and funding priorities 
could be the topic of these hearings. There are many 
legislative avenues available to Congress to help protect and 
restore coral reef ecosystems. Since the greatest threats to 
these reefs are the result of human action, regulation of those 
actions can reduce threats.
    Water pollution, destructive fishing practices, poorly 
planned and managed coastal development, inappropriate trade 
practices, and lack of protection for threatened species can be 
addressed through new legislation or enforcement of current 
law. We need to build on the groundwork that Chairman Saxton, 
Mr. Abercrombie, Mr. Miller, and their co-sponsors have 
provided to develop enforceable, secure protection for coral 
reefs.
    To illustrate how better enforcement of current law will 
protect reefs, let me discuss pollution in the Florida Keys. 
There is an influx of agricultural runoff in Florida Bay from 
South Florida and the Everglades. Coastal development continues 
in southern Florida which causes millions of pounds of sediment 
to flow into the ocean.
    Development is also responsible for destroying the mangrove 
forests and seagrasses and coastal wetlands. There are 
thousands of sources of inadequately treated sewage poring onto 
the reef that come from cesspits, septic tanks, injection 
wells, inadequate treatment plants, and boats that are there to 
serve 87,000 year-round residents and 4 million tourists a 
year.
    All of these activities can be controlled through 
legislation or enforcement of existing provisions of the Clean 
Water Act. Through oversight, Congress has the ability to 
emphasize provisions of the Clean Water Act that address 
standard settings, stormwater discharges, boat discharges, 
protection of wetlands and mangroves, and ocean discharges of 
sewage to the water that support reefs.
    Through new legislation, Congress could strengthen coral 
reef protection by improving polluted runoff controls and 
emphasizing the special nature of reefs. Finally, Congress can 
give EPA and the states money to accomplish their Clean Water 
Act goals.
    Fishing is another major threat to reefs. Some practices 
are destructive because they target creatures that fill 
critical biological niches. Sea urchins, who live on coral 
reefs, are a prize commercial fishery. They eat the algae and 
by grazing algae they keep it in check. When they are harvested 
from the reef, the algae grow out of control and smother the 
reef.
    Under the Magnusen-Stevens Act, areas in reefs can be 
designated as essential fish habitat or made offlimits to this 
kind of destructive fishing. If certain areas of reefs were 
closed to fishing and these species which fill critical niches 
were protected, there is a better chance to save reefs, and 
everyone would have healthier fisheries over the long run.
    In closing, American Oceans Campaign would like to express 
our appreciation to the sponsors of these congressional 
resolutions to protect coral reefs. They have opened the door 
to ongoing dialog about stronger measures that can be taken by 
the Federal Government or on the State and local levels, and we 
look forward to more hearings and a continuing search for ways 
to ensure long and healthy futures for reefs around the world. 
Thank you for considering my testimony.
    [Statement of Ms. Polo may be found at end of hearing.]
    Mr. Crapo. Thank you, Dr. Polo. And, Dr. Ginsburg, you are 
next.

   STATEMENT OF DR. ROBERT GINSBURG, CHAIRPERSON, ORGANIZING 
          COMMITTEE OF INTERNATIONAL YEAR OF THE REEF

    Mr. Ginsburg. Mr. Saxton, Mr. Abercrombie, I am very 
pleased to testify on behalf of the International Year of the 
Reef which I am the Chairman of the Organizing Committee. And I 
would like to commend Ms. Polo for her efforts in bringing this 
forward and yours, Mr. Saxton and Mr. Abercrombie, for 
sponsoring it.
    I think the best way to think about coral reefs is to 
realize that they are cities, and just as our cities are 
centers of creativity and diversity, so are coral reefs. And 
let me, with a few illustrations that you have I believe--the 
colored illustrations--show you what I mean about this analogy 
and how it helps us understand not only reefs but some of their 
problems.
    If you look at the one marked A, you will notice that I am 
drawing an analogy. Do you have those, Mr. Chairman? If you 
look at A, you will notice that I am drawing an analogy between 
corals and apartment houses. And indeed there is a very clear 
one because the individual corals or polyps, of course, build 
their own apartment houses. And, of course, from a developer's 
point of view, it is a dream to have the inhabitants build 
their own apartments.
    I would also like to call to your attention, and I am not 
going to have time to go through all the list of analogies 
between reefs and cities, the sponges that are like water 
purification plants, the fish that are like gardeners or 
dermatologists, and the urchins that are like maintenance men.
    What I do want you to notice in illustration B is just as 
the location of cities is determined by geography, as in Miami 
and Boston and even Washington, the same is true for coral 
reefs. And that illustration of the Great Barrier Reef reminds 
us that reefs are best developed facing the ocean where they 
have a constant supply of fresh ocean water at constant 
temperature and salinity.
    And that they are also best developed, for example, in the 
Atlantic on the east-facing sides of the ocean for the same 
reason. In other words, that is the preferred location for 
geographic reasons.
    Now, in illustration C, I want to call your attention to 
hazards of reefs just as we have hazards for cities--
earthquakes, floods, and so on. When the water gets unusually 
hot, as it does at the end of the summer, for example, in the 
Atlantic, we have a phenomenon of bleaching; that is, the 
corals lose their central symbiotic algae, and they turn white. 
Sometimes they recover, and sometimes they don't.
    That is only one of the natural hazards like hurricanes and 
earthquakes that affect reefs, but there are plenty of people-
induced hazards, and one of them is down there as oil spills. 
And that really is substituting for a whole litany of people-
induced problems, many of which we have already heard about 
this morning.
    Now, the final next-to-last panel is number D in which, of 
course, I am calling attention to what we don't want; that is, 
ruins of reefs as ruined cities. In other words, no Rome, 
Carthage, or Chechanetsa. And also to remind us that corals are 
a kind of model for the future of our cities in the sense that 
they recycle wastes, and that they use solar energy.
    Now, in the final panel that I have given you, number E, I 
want to show you an example of the kind of thing that we are 
doing under the aegis of the International Year of the Reef. 
And it concerns an area of particular interest to the United 
States, and that is what I call Reefs of the Americas.
    All those little red areas outline the locus of cities--
coral cities, tens of thousands of them. And if this were a 
hearing where the mayors of some of those cities came forward, 
they would be telling you about some of their problems, just as 
mayors of our cities tell you about problems.
    For example, someone from Jamaica would tell you on the 
north coast of Jamaica that there has been a catastrophe in 
reef loss. The same would be true in Costa Rica where runoff 
has caused the death of reef, and so on. But what we don't 
know, Mr. Chairman, is the condition of the very large areas 
outside those small ones that I have mentioned in those large 
reef areas that are marked in red here.
    And that is of major interest to us in the United States 
because, first of all, as you notice on the bottom of that 
thing, we have trade with those countries that amounts to $50 
billion. We have tourism that amounts to something between $10 
and $20 billion. And you will notice that blue band that goes 
through the Caribbean, that is the Gulf Stream circulation that 
brings larvae north to Florida. And 95 percent of our fish 
larvae come in that way.
    So we have a very strong and vested interest in this area, 
and one of the things we hope to do during the Year of the Reef 
is assess the condition of all those reefs remote from centers 
of population because that will tell us if there are serious 
problems outside those we know where large populations are 
impacting coral reefs.
    I wish I had time to tell you more about the educational 
activities that are so central to the Year of the Reef, but I 
see that my time is up. Thank you, Mr. Chairman.
    [Statement of Mr. Ginsburg may be found at end of hearing.]
    Mr. Crapo. Thank you, Dr. Ginsburg, and the analogies you 
have shown are very interesting, and they do make a very good 
point. I look forward to questioning on this. Dr. Porter.

STATEMENT OF DR. JAMES PORTER, PROFESSOR OF ECOLOGY AND MARINE 
     SCIENCES, INSTITUTE OF ECOLOGY, UNIVERSITY OF GEORGIA

    Mr. Porter. Thank you, Mr. Chairman, and Members of 
Congress. I would like to ask permission to show slides during 
my presentation if I may please.
    Mr. Crapo. Certainly you may. We just ask that you stay 
within the five minute time period.
    Mr. Porter. If someone could turn the lights down, we will 
just go ahead and begin. Coral reefs are very unusual 
structures because unlike most other animal communities, they 
are dependent on light. The reason they are dependent upon 
light is the symbiotic algal cells which live inside them.
    The entire biology of reef-building corals and the survival 
of coral reefs depends, therefore, on many characteristics that 
are typical of plant communities and not strictly animal 
communities. Corals look like trees because functionally they 
are trees. They produce more oxygen than they consume.
    And the color that corals have are not animal pigments but 
plant pigments. The green that you see here is chlorophyll. 
This is the essential character of coral reefs, and water 
quality is going to be critical to their survival.
    We can measure the oxygen production and consumption by 
corals such as in this particular kind of chamber sitting on a 
coral reef in Florida. We are involved in a study of coral reef 
photosynthesis and respiration here in the Florida Keys on the 
11th of September. And before I am finished with today's talk, 
you are going to understand why it was important where this 
work was being done, and why it was important the exact date.
    Normally, corals produce a great deal of oxygen, and over a 
seasonal basis, they produce a nice curve of oxygen evolution. 
However, on September 11, 1993, the oxygen and photosynthetic 
capacities of the entire Florida reef track collapsed. 
Fortunately, that collapse lasted only a small while, and as 
time went on, it recovered its photosynthetic characteristics. 
We had absolutely no idea what was going on or special about 
September 1993.
    But to understand this, you have to look at a nonintuitive 
aspect of coral reefs, and that is their connection with the 
rest of the world. And for those of you who are Members of 
Congress from nonmarine States or marine States or States 
bordering on the Mississippi River, this analogy and 
understanding will be of relevance to you.
    This is a shot of the Mississippi River with Missouri and 
Illinois in 1992, and in 1993, as those of you know, there was 
an unprecedented increase in the amount of water in the river 
as historical levels of flooding occurred.
    That water brought to the Mississippi and down and out into 
the Gulf of Mexico herbicides which were normally used for 
agricultural purposes such as atrazine, which is one of the 
major breakdown products of herbicides.
    If you look at the Mississippi delta area before the--as 
the flooding occurred in a natural color shot, you can see this 
area here with the Mississippi coming in, and this next picture 
emphasizes atrazine and other hydrocarbons, showing that the 
Mississippi flooding brought not only riverwater, it brought 
other products to the Gulf area.
    And that water didn't stay there in the Mississippi delta, 
but moved and arrived in the Florida reef track on September 
11, 1993, where we recorded a tremendous collapse. And the 
point is here that we cannot just protect one environment. We 
have to protect all the environments which are hydrologically 
connected. And it also means that the people in this room who 
have no direct voting representation in the State of Florida 
are nevertheless connected intimately to the health of that 
reef.
    This is a picture from 1975 on the Carries Fort Reef, and 
the next picture you will see is 1985. And it shows a 
tremendous loss of coral. In this one area alone, some 95 
percent of all the branching corals had died. These are the 
trees. This rainforest has been deforested. And you can also 
see another thing as you compare these two pictures. You can 
see the clear blue water there, and in 1985, its diminution on 
increase in the amount of particulates in the water.
    These are the things that cut down the light. These are the 
things that are absorbed, and chlorophyll can no longer do its 
function. And what you see here is the distribution of murky 
water in Florida Bay because that murky water did not come from 
the Gulf Stream, but is coming from Florida Bay itself. It 
moves between the Keys and goes out onto the coral reef.
    The agricultural and human practices in the south Florida 
region affect the water quality both in terms of the nutrients, 
nitrogen, and phosphorous, as well as the amount of turbidity. 
Some of this turbidity may be due to resuspension of sediments 
in the bay, but some may also be due to phosphate mining in 
west Florida, or contribution of nutrients from the Florida 
Everglades agricultural district, and also from nutrients being 
put out into the reef area from the Keys themselves.
    And there are many things that we don't understand--
mysterious diseases. Last year I described the origin and 
evolution of white pox. These parrot images that you see here 
are from the Key West area, and they show that between 1995 
when this picture was taken and 1996, almost 80 percent of that 
coral reef died from a mysterious disease.
    Whether these are or are not related to the water quality 
problems in Florida Bay is not known at this particular time. 
We don't know whether this is a virus, a bacterium, or a 
fungus, and we are investigating this at this time.
    But I leave you with this message. There are very few 
natural laws, but one of them is everything is connected to 
everything else. Everything goes somewhere. We are on one earth 
that is hydrologically connected, and whether you are from 
Pennsylvania or from Ohio or from Florida itself, the things we 
do and the decisions we make in these halls of Congress are 
going to affect the survivorship of the most diverse 
environment on earth. Thank you.
    [Statement of Mr. Porter may be found at end of hearing.]
    Mr. Crapo. Thank you, Dr. Porter. We appreciate that timely 
message. And I thank the panel for their testimony. I want to 
remind both of us that are here that we have a five-minute 
limit on our questions, and I will start out. I just have a 
couple of quick questions, and any of you could answer this for 
me.
    I am from Idaho, and I am learning how nonreef States or 
States that aren't involved, as you show in your presentation, 
can be very concerned and have input. There is a lot of talk 
about the fact that our reefs are in a state of crisis. Is that 
a unanimous opinion among the experts, or is there a dispute 
among the experts about that conclusion?
    Mr. Porter. I think I better answer that. Between 1981 and 
1992, we surveyed six reefs quantitatively using the kinds of 
photographic imagery that you saw there. Of the six reefs, five 
declined at an average rate of four percent per year with a 
maximum rate of 10 percent per year. The reef that declined at 
a rate of 10 percent per year will be gone in less than a 
decade.
    Now, the question is is that a universal truth throughout 
the Florida Keys. And in response to that, the Environmental 
Protection Agency has funded a monitoring study which I am 
involved in which extends throughout most of the Florida Keys, 
but unfortunately at this point in time, does not include 
either national park holdings of the Biscayne National Park or 
the dry Tortugas.
    And one of the things I would love to see Congress do is to 
get the agencies to rip off their institutional badges and get 
the end members of this monitoring program funded. That study 
started a year ago, and within two years of this date, I will 
be able to answer that question definitively for an 
ecosystemwide survey. But I can tell you right now the only 
ones we have any data for are showing decline.
    Mr. Crapo. And that is in Florida?
    Mr. Porter. That is in Florida.
    Mr. Crapo. OK. And, Dr. Ginsburg, is that something that 
might be more generally----
    Mr. Ginsburg. I think the jury is still out, and that, in 
fact, was my point, that, for instance, if we just look at the 
western Atlantic, we know quite a lot about reefs in Florida, 
quite a lot about reefs in Jamaica and Panama and a few other 
places. But if you look at the very large areas of reefs in the 
Bahamas, in Belize, and in Yucatan, we really do not know very 
much about their condition.
    So I personally am hopeful that we are not going to find 
that they are in serious decline, but I think we really must 
find out about what is happening to those reefs that are remote 
from centers of population and immediate stress, not to say 
that they are immune from overfishing and exploitation, you 
know, by ship.
    But if we talk about obvious and immediate declines, I 
don't think we know in the Atlantic, and I think there are 
large areas of the Pacific where we are just beginning to get 
that kind of information.
    Mr. Crapo. All right. Thank you. And, Dr. Porter, you 
briefly touched on the white pox disease.
    Mr. Porter. Yes.
    Mr. Crapo. Is that disease or do we know what causes that 
disease? Is it human induced or human-induced factors a 
relevant part of the problem?
    Mr. Porter. We don't know the answer to that. We do know 
that actually the Key West area has seen the origin of four 
diseases. We have no idea if something about the water quality 
in that area promotes a stress of individual corals to the 
point that they are more susceptible to natural disease, but 
the white pox is the first time it has been seen, and it is 
described in that area. We simply don't know.
    Mr. Crapo. Is this disease geographically limited to the 
south Florida area?
    Mr. Porter. There is a report in Puerto Rico of a disease 
that upon verbal description sounds like what we have 
documented in south Florida. But at this point in time, I 
believe that it is confined to the south Florida area.
    And the question that we have right now is is it going to 
spread beyond those reefs in Key West that are currently 
affected. I have never in my entire 25-year career seen any 
biological agent destroy a reef as fast as that disease. And if 
it spreads, we are in real trouble.
    Mr. Crapo. And is the impact of this disease permanent? In 
other words, can a reef or do we know whether a reef can 
recover from this disease?
    Mr. Porter. Within a human lifetime, that reef will never 
recover. And how many human lifetimes are required, I cannot 
say.
    Mr. Crapo. All right. Thank you very much. I am finished 
with my questions. Mr. Abercrombie.
    Mr. Abercrombie. Yes. Thank you. Dr. Porter, you indicated 
or rather you were here I believe during the testimony when I 
made previous mention of the article in the Washington Post 
magazine within which you were quoted.
    Mr. Porter. Yes.
    Mr. Abercrombie. Are you familiar with that article?
    Mr. Porter. Yes, I am.
    Mr. Abercrombie. Someone managed to send it to you and said 
look, ``You are in the papers,'' right?
    Mr. Porter. Yes, they did. Yes.
    Mr. Abercrombie. And you weren't indicted or anything. No.
    Mr. Porter. That is right. Good news from Washington.
    Mr. Abercrombie. Right. But there was--I do want to clear 
this up. There is no reference to this statement. It said, 
``But as research continued, white pox and other new diseases 
are spreading in ways that portend poorly for reefs elsewhere 
in the world. Black band, which was once confined to the 
Caribbean, has begun to infect corals in Hawaii.'' Are you 
familiar with where that statement came? I was----
    Mr. Porter. No.
    Mr. Abercrombie. [continuing]--unable when I contacted 
people in Hawaii to get much confirmation of that.
    Mr. Porter. No, sir. I didn't know that black band is 
located in Hawaii. Black band is actually a combination of a 
blue-green algal infection and a sulphur bacterium infector. 
And I am unfamiliar with that as well for the Hawaii area, but 
Dr. Richard Greg, who is head of Seagrant, would know.
    Mr. Abercrombie. Yes. Right. OK. Because I don't want to 
get--we do not want to get into scare routines either. We need 
good information so that we can deal with things correctly and 
sensibly. One of the interesting points to me was apparently a 
colleague of yours in the sense of someone who was concerned 
and who had a personal commercial interest, Craig Corollo. I am 
not sure----
    Mr. Porter. Yes, sir.
    Mr. Abercrombie. [continuing]--that I am pronouncing his 
name correctly.
    Mr. Porter. That is correct.
    Mr. Abercrombie. A Key West diver. He comments in the 
article on something that made some sense to me, and I think 
that you indicated, Dr. Ginsburg, in your slides about hot 
areas or for lack of a better phrase, and that some of the 
diseases turned up in this hot spots. And this can come where 
you have outfalls for sewage and that kind of thing. Is that 
correct? Either one can answer.
    Mr. Ginsburg. I don't think so, no. I don't think there is 
any clear connection. The bleaching, the loss of the symbiotic 
algae, seems to coincide with areas with periods during the end 
of the summer, at least in the Atlantic, when the winds are 
light and the temperature increases above 30 degrees 
centigrade.
    Mr. Abercrombie. That is a natural phenomenon though. 
Right?
    Mr. Ginsburg. That is a natural phenomenon. Exactly.
    Mr. Abercrombie. But we are talking about those things 
which human beings may do which add to the water temperature. 
Right? Discharges of various kinds or----
    Mr. Ginsburg. That would be rather hard. The only thing 
that might occur is around an outfall for an atomic energy 
plant.
    Mr. Abercrombie. Well, then that moves me to the point that 
Mr. Corollo was making. He was looking at water color, which I 
think has more to do with degeneration of the quality or purity 
of the water, and that that could be a factor in degeneration 
of reefs?
    Mr. Ginsburg. It could I think locally, and Dr. Porter may 
address that as well. Any stress I think--people are inclined 
to think any localized stress could result in this phenomenon 
of bleaching and might even contribute to disease. But I defer 
to Dr. Porter about that. I think he is a little more familiar 
than I am.
    Mr. Abercrombie. Could you----
    Mr. Porter. Mr. Corollo was actually using the word hot 
zone as a concentration of diseases and not indicating the 
temperature of the water.
    Mr. Abercrombie. I see.
    Mr. Porter. Right now what we have is a geographic 
correlation, a correlation of an area of high human impact, 
that is Key West, and the distribution of new and unknown 
diseases. That correlation is not causation. We do not know 
whether the human activity in the Keys is the origin of these 
new diseases.
    Mr. Abercrombie. It may be contributing though? I can't 
imagine----
    Mr. Porter. It easily could.
    Mr. Abercrombie. [continuing]--that runoff doesn't 
contribute.
    Mr. Porter. And it could weaken the corals. You see, 
particularly the problem of the photosynthetic nature of 
corals, the deterioration of the water column doesn't need to 
be some sort of horrible chemistry. It can simply be a 
diminution of the amount of light that stresses the coral and 
makes them more susceptible to disease.
    Mr. Abercrombie. But I am worried about in areas like 
Hawaii as we have always relied on a couple of things--trade 
winds--in other words, we don't have pollution. Well, of course 
we have pollution--air pollution, but it gets blown away 
because of the trade winds. So if you can't see it, then we 
don't have it.
    And I am worried as well that where the water is concerned 
that we have very strong tides, tidal movements, various 
currents between the islands that tend to move things around. 
But I am worried that the more--if you simply dump more sewage, 
waste, runoff of various kinds keeps cascading into the ocean, 
there may come a point when the tides, the currents, et cetera, 
are not going to be sufficient to disperse it into the rest of 
the ocean so that we can kind of escape what we are doing.
    Mr. Porter. That is definitely correct. And if you remember 
from one of my slidesshowing the elevated pollution in Florida 
Bay, we are talking about an area of 1,000 square miles.
    Mr. Abercrombie. So, in other words, we have to be very 
concerned in this Year of the Reefs--it makes us focus on 
oceans, that ocean pollution simply because the planet is about 
three-quarters water doesn't mean that we are going to be able 
then to continuously discharge foreign elements, if you will, 
nutrients, et cetera, waste, into the ocean and expect that it 
is so large, so huge that it will simply be able to disperse 
everything that we are putting into it, and there will be no 
degradation of the water environment?
    Mr. Porter. That is absolutely correct.
    Mr. Abercrombie. OK. I think that that about does 
everything, Mr. Chairman, except for one thing. I would like to 
acknowledge the presence in the audience of a young man who is 
trying to decide whether he wants to be an environmental 
engineer.
    And I said that if he came in and listened particularly--no 
offense to you, Ms. Polo, on this--but particularly listen to 
Dr. Ginsburg and Dr. Porter, that it might--he might conclude 
that, in fact, is what he would like to do--Allen Yu from St. 
Louis High School in Honolulu. There you are. He can see today 
that we actually do things in these hearings which advances our 
knowledge certainly legislatively, and I hope intellectually as 
well, so that we can make good decisions.
    And I want to thank you personally for the clarity of your 
presentations. And, Dr. Porter, in particular, I want to say 
that I commented to Mr. Crapo that it is too bad that the rest 
of the Members not only of this committee but of the Congress 
couldn't see your presentation. If you could put that together 
in the same form as----
    Mr. Porter. Yes. I can do that.
    Mr. Abercrombie. [continuing]--Dr. Ginsburg did here--it is 
somewhat the same form--I am sure the Chairman would agree that 
we could get it to the rest of the committee. I thought it was 
an impressive demonstration of the interconnectedness of 
elements that affect us all.
    Mr. Porter. Thank you, sir.
    Mr. Abercrombie. Could you do that?
    Mr. Porter. I certainly will do that.
    Mr. Abercrombie. And I am sure the Chairman would agree. I 
can't speak for him, but it would be very valuable for us, and 
it will be taken into account. Mr. Chairman, thank you for your 
consideration. Oh, and I have one request. Mr. Chairman, Mr. 
Miller has a statement on H.Con.Res. 8, and I would like to 
seek a unanimous consent to have it introduced into the record.
    Mr. Crapo. Without objection, so ordered.
    [Statement of Mr. Miller follows:]

    Statement of the Hon. George Miller, A U.S. Representative from 
                               California

    Mr. Chairman, I'm very pleased that you are holding this 
hearing today to discuss the crisis that coral reefs are facing 
worldwide. I commend you for introducing H.Con.Res. 8, of which 
I am an original cosponsor. On Monday, I introduced a 
resolution, H.Res. 87, that condemns destructive fishing 
practices that are causing severe damage to coral reef 
ecosystems, particularly in southeast Asia, and urges the 
United States and the United Nations to promote sustainable 
development of coral reef resources. I see this resolution as 
complimentary to yours: It focuses on a particular problem that 
I am concerned about, one which I believe we can and should 
address in the short term, while continuing to work on the 
longer term issues which your resolution addresses.
    Coral reefs are vital to the environment and the economy of 
many island and coastal nations. They are among the most 
biologically diverse and productive ecosystems on earth, 
rivaling the tropical rainforests on land. The hard structure 
of the reef is built up over thousands of years by the 
secretions of the tiny living coral animals. So, a coral reef 
is truly a living structure. And, as a living structure, 
thousands--perhaps millions--of individual coral animals are 
dying and others are taking their place on the reef at any one 
time.
    The problem is that now human activities have shifted that 
balance and coral reefs are dying off at an alarming rate 
worldwide. Corals are very sensitive to water pollution, 
sedimentation, damage from boat groundings, and even simple 
physical contact by divers. These largely inadvertent injuries 
are a significant cause of the well-documented decline of coral 
reefs worldwide. Coral reefs are, in a sense, the canary in the 
coal mine of the oceans.
    A great deal of injury is being inflicted on coral reefs, 
mainly in southeast Asia, through easily preventable, largely 
illegal fishing techniques. Cyanide, other poisons, and 
surfactants like dish washing liquids, are being used to stun 
and capture fish for the aquarium trade and for the live food 
fish trade. These chemicals kill nearby coral, and divers 
scrambling to get fish out of nooks and crannies in the reef 
often inflict further damage on the reef. Although illegal 
virtually everywhere, dynamite is still being used on some 
reefs to stun or kill fish. Afterwards, they float to the 
surface where they are easily harvested. The effect on the reef 
is obviously devastating. Most of the aquarium fish captured in 
this way end up in hobbyists' tanks in the United States. Most 
of the live food fish end up on plates in the homes and 
restaurants of southeast Asia.
    Although the State Department, NOAA, Department of the 
Interior, and other agencies are working, through the 
International Coral Reef Initiative, to identify and reduce 
threats to coral reefs, they need our help. These kinds of 
unsustainable fishing practices would not be occurring if 
powerful market forces were not at work. U.S. and Asian 
consumer demand for reef fish is, in part, driving the 
destruction of coral reefs. Yet how many aquarium hobbyists 
would purchase a wild-caught reef fish if they truly understood 
that in doing so, they were aiding the destruction of the reef 
environment that they sought to reproduce in their tank. 
Furthermore, if affordable alternatives to wild-caught fish 
were available, wouldn't the educated consumer choose them? 
This has worked very well in the exotic bird trade; we could do 
the same for reef aquarium specimens.
    Many of the countries where the reefs are being destroyed--
Indonesia, Malaysia, the Philippines, and others--have laws on 
the books protecting their reefs. But there is little money for 
enforcement, and the more lucrative the market, the more people 
are willing to risk the penalties in any case. So the keys are 
information and education. Only by identifying these 
destructive practices and the consumer demands that drive them 
can we begin to eliminate or modify them. And only through the 
development of sustainable coral reef fisheries can the reefs 
be saved.
    Both of these resolutions share a common purpose. They are 
intended to bring the global plight of coral reefs before 
Congress, raise the level of awareness of policy makers, and 
ask us to do more. The scientific and environmental communities 
have declared 1997 the International Year of the Reef. We 
cannot stop ships from running aground on reefs and we may not 
be able to stop global warming. But what better time for us to 
pay attention to the many problems plaguing coral reefs, and 
seek practical solutions to those threats that we can address. 
If we don't do something soon, there may not be any reefs left 
to save.
    In that spirit, I hope we can work together to bring both 
of these resolutions before the House soon, and I look forward 
to hearing the testimony of the witnesses today.

    Mr. Abercrombie. Thank you so very much.
    Mr. Crapo. Thank you very much. And before we conclude the 
hearing, I did have one final question of Dr. Porter--just a 
very quick question, and that is is there any knowledge or any 
information about whether the white pox disease could be the 
result of the introduction of a nonindigenous species to the 
reefs?
    Mr. Porter. We don't know about that. It is a very 
interesting question because, in fact, it has been suggested 
that the sea urchin die-off in the Caribbean resulted from the 
introduction of a disease from the Indo-Pacific, which in its 
own habitat was not virulent, but in the new habitat of the 
Caribbean, where no resistance had evolved against it, became 
devastating. It is very much within the realm of possibility.
    Mr. Crapo. All right. Well, again, thank you very much to 
all of the witnesses on the panel. The information has been 
very helpful, and if there is no further business, I would 
again thank and excuse the panel. And this Subcommittee would 
stand adjourned.
    [Whereupon, at 1:00 p.m., the Subcommittee was adjourned; 
and the following was submitted for the record:]

  Statement of Dr. Teresa M. Telecky, Director of the Wildlife Trade 
            Program, the Humane Society of the United States

    Good morning, Mr. Chairman and members of the Subcommittee. 
Thank you for providing The Humane Society of the United States 
(HSUS) with an opportunity to testify on H.R. 39, the African 
Elephant Reauthorization Act of 1997.
    I am Dr. Teresa M. Telecky, Director of the Wildlife Trade 
Program for The HSUS, the nation's largest animal protection 
organization, with more than 4.1 million members and 
constituents.
    Mr. Chairman, The HSUS wishes to emphasize its unqualified 
support for the African Elephant Conservation Act and its 
reauthorization at the level proposed in H.R. 39.
    By way of illustrating the reasons that The HSUS supports 
the Act, we wish to remind Members of the Subcommittee of the 
circumstances under which the Act was passed. In 1987 when 
Congress first considered the Act, and in 1988 when the Act was 
passed, Americans had become alarmed by reports on the rapid 
decline of African elephant populations due to the ivory trade.
    Elephants numbers had dropped from about 1.3 million in 
1979 to only 700,000 by 1988 and were declining by about ten 
percent per year; by 1989 there were only about 600,000 
elephants; today there are between 286,234 and 543,475 African 
elephants remaining, according to the IUCN/SSC African Elephant 
Specialist Group.
    In 1986 approximately 100,000 elephants were killed to 
satisfy the worldwide demand for ivory and at least 10,000 of 
those were used to supply the ivory for jewelry and other 
trinkets purchased by American consumers.
    Elephants had virtually disappeared from some areas of 
Sudan, Chad, the Central African Republic, and Zaire. In the 
Selous Game Reserve in Tanzania, elephants declined by 50 
percent between 1977 and 1986; in Tsavo National Park in Kenya 
there was a 75 percent decline between 1972 and 1988.
    The average weight of a tusk being exported from Africa had 
declined from 35 pounds in 1979 to only 13 pounds in 1988, 
indicating that poachers were turning to younger and younger 
elephants, a particular concern since elephants do not reach 
sexual maturity until their early teens and then reproduce very 
slowly. In 1988, about 10-15 percent of tusks exported weighed 
less than 1 pound--tusks of infant elephants. Entire 
generations of older elephants were being wiped out by the 
ivory trade.
    The Parties to the Convention on International Trade in 
Wild Fauna and Flora (CITES) had, in 1985, instituted a ``CITES 
Ivory Control System'' (System) to regulate the ivory trade 
through marking of ivory and establishment of country-specific 
ivory export quotas. However, by 1988 the System was clearly 
failing to halt poaching and illegal trade because it was not 
implemented and enforced by CITES Paries. Experts agreed that 
about 80 percent of ivory in trade in 1988 was taken from 
poached elephants.
    The prices paid for ivory increased from $2.25 per pound in 
1960 to $68 per pound in 1988, indicating that ivory was being 
used as a commodity, like gold and silver, as a hedge against 
inflation. Elephants were being victimized by an upward spiral 
of supply and demand: the higher the price, the more elephants 
were slaughtered.
    Mr. Chairman, as you know, the African Elephant 
Conservation Act was passed primarily to address the ivory 
trade that was clearly, irrefutably driving elephants to 
extinction.
    The Act, while expressing a desire to give the CITES Ivory 
Control System a chance to work, put in place a mechanism 
whereby the United States could unilaterally decide to stop the 
importation of ivory into the United States if it was 
discovered that this System was failing to control the ivory 
trade. In June 1989, eight months after the Act was passed, the 
Bush Administration imposed a ban on the importation to the 
U.S. of African elephant ivory under the provisions of the Act. 
At the time, the U.S. was one of the major markets for elephant 
ivory; about 30 percent of the ivory in trade was consumed by 
Americans.
    This preceded by four months, and made a significant 
political contribution to, a decision by the more than 100 
Parties to CITES, including the majority of African elephant 
range states, to ban the international commercial trade in 
ivory in October 1989. The reason that the Parties decided to 
ban the international commercial trade in ivory was that, 
despite an internationally coordinated CITES Ivory Control 
System, the trade proved uncontrollable and was driving 
elephants to extinction. The ivory trade was uncontrollable 
because it is highly lucrative for dealers who are highly 
organized, heavily armed, and well-connected to politicians who 
look the other way for a price; because elephants are largely 
unprotected in most of Africa and are so easily poached; and 
because Africa's destitute poverty makes it easy for dealers to 
find people willing to risk their lives to poach elephants. The 
ivory trade harmed both elephants and local people, while 
making a few ivory dealers and corrupt politicians rich.
    At the meeting of the Parties to CITES in 1992, African 
elephant range states, whose lead was followed by other 
Parties, rejected proposals to resume the deadly ivory trade. 
At the most recent CITES meeting, in November 1994, African and 
other Parties again rejected a similar proposal, and some 
stated their concern that down-listing elephants from CITES 
Appendix I to Appendix II for trade in any elephant products 
would stimulate real or speculative elephant poaching for ivory 
which, due to lack of resources, they would be unable to 
control.
    The ban, which was passed with the support of most African 
elephant range states, and which is still supported by most 
African elephant range states, has been largely successful in 
stopping the dramatic decline of the African elephant. Although 
elephant poaching and illegal ivory trade still occur, it is in 
minuscule quantities as compared to the levels when the ivory 
trade was legal and provided a cover for the illegal ivory 
trade. The naysayers who predicted that elephant poaching would 
continue, or even increase despite the ban, were proven wrong.
    Despite the demonstrated success of the listing of the 
African elephant on CITES Appendix I, three southern African 
countries have proposed to resume the deadly ivory trade. 
Zimbabwe, Botswana, and Namibia have proposed down-list their 
populations of the African elephant to CITES Appendix II in 
order to sell their ivory stockpiles to Japan, as well as to 
engage in commercial trade in live elephants and elephant 
trophies. Zimbabwe, but not the others, has also asked for 
permission to trade in ivory souvenirs and elephant hide. Their 
proposals will be considered at the tenth meeting of the 
Conference of the Parties to CITES, to be held in Zimbabwe in 
June 1997.
    If passed, these proposals have the potential to return us 
to the days when more than 200 elephants a day were slaughtered 
for the illegal ivory trade--to the conditions that promoted 
passage of the African Elephant Conservation Act.
    Any change in the listing of the African elephant under 
CITES--even if it is for trade in live animals, trophies, 
souvenirs, or hides--will be seen by elephant poachers, ivory 
dealers, and consumers as a sign that the ivory trade ban will 
soon be relaxed. As evidence of this, elephant poaching 
increased in Kenya and other countries in the months preceding 
each CITES meeting since 1989 because poachers hear about CITES 
proposals regarding African elephants. Indeed, just a few 
months ago, over 200 elephants were found massacred in the 
Congo, their tusks removed. Down-listing elephants for any 
reason is the proverbial nose under the tent that will send 
poachers into the brush for elephants. Ivory from poached will 
be stockpiled as an investment by dealers who will await the 
day when CITES will open the trade.
    Indeed, under CITES, a Panel of Experts was sent to each of 
the three southern African countries as well as Japan to assess 
the status and management of the elephant population concerned; 
the ability of the countries concerned to control the ivory 
trade; and the control of the trade in non-ivory products. The 
Panel's report, which was released in February, recognized that 
legalizing the import of ivory to Japan may make it easier to 
trade illegally; that poachers and dealers may increase 
activities in anticipation of a future expansion in ivory 
trade; and that there may be a decline in anti-poaching effort 
and morale amongst law enforcement staff, because of confusion 
about why legal trade in ivory is acceptable.
    The Panel concluded that:
    ``Control over ivory stocks in Botswana are inadequate.'' 
``It may not be possible to determine the origin of much of the 
ivory in the stockpile.'' There continues to be illegal 
``movement of ivory through Botswana'' to South Africa.
    Controls over ivory stocks in Namibia need improvement and 
there is evidence that some ivory is moving illegally through 
Namibia to South Africa.
    Law enforcement in Zimbabwe ``with respect to the ivory 
trade has been grossly inadequate.'' The Department of National 
Parks and Wild Life Management ``has permitted the 
establishment of large-scale ivory carving operations, which 
are selling commercial quantities of semi-worked ivory intended 
for export to Asian countries, including Japan, People's 
Republic of China and Thailand.'' ``Officials in the Customs 
Department declared that they had no interest in controlling 
ivory exports.'' Information from South African authorities 
``indicates that a large proportion of illegal ivory arriving 
in South Africa has passed through Zimbabwe.'' ``Zimbabwe has 
poor control over trade in elephant products other than 
ivory.''
    Control of ivory stocks in Japan ``needs improvements for 
parts of tusks. The software of the [Japanese authority] 
database must be improved to allow monitoring of the stocks.'' 
``The control of retail trade is not adequate to differentiate 
the products of legally acquired ivory from those of illegal 
sources. With the system as currently implemented, it is 
unlikely that the import of partially worked ivory (e.g. 
inzais) could be reliably detected. More inspections are 
needed, including physical checking of the stockpiles. A method 
needs to be devised to allow the verification of scraps and 
wastes produced.''
    In addition, if passed, the proposals will also allow these 
countries to clear out their ivory stockrooms in order to make 
way for new ivory from culled elephants. Both Botswana and 
Zimbabwe claim enormous problems with human-elephant conflict 
and growing elephant populations which are causing people to 
ask for a political solution to crop-raiding elephants. In 
culling operations, entire elephant families are gunned down; 
traumatized infants are pulled away from their dying mothers 
and sold to circuses and zoos. The ivory is stockpiled, hide 
sold to make shoes and briefcases, and the meat is sold to 
crocodile farmers. The HSUS opposes elephant culling as a means 
to control elephant populations and offers a humane 
alternative, which we will address in the second half of our 
testimony.
    Mr. Chairman, The HSUS also fully supports the portion the 
African Elephant Conservation Act that has sets up the African 
Elephant Conservation Fund to support projects on research, 
conservation, management, or protection of African elephants. 
However, we have concerns about some of the types of projects 
funded under the Act which we will elaborate on in detail in 
our testimony. But first, I would like to describe for you some 
of the conservation, protection and research projects related 
to African elephants that are currently funded by The HSUS.
    In 1993, we provided a $10,000 grant to the Owens 
Foundation for Wildlife Conservation for their work on the 
North Luangwa Conservation Project (NLCP) in Zambia and we have 
continued to leverage about $30,000 for the Foundation each 
year through private granting agencies. The HSUS considers the 
NLCP to be a model program for combining wildlife conservation 
with development of rural African communities without resorting 
to consumptive use of wildlife.
    In 1986, Mark and Delia Owens established the NLCP to 
rehabilitate, conserve and develop the 2,400 square mile North 
Luangwa National Park in Zambia. At that time, 1000 elephants 
were being killed in the Park each year by commercial meat and 
ivory poachers. In the previous 15 years, up to 100,000 
elephants had been poached in the Luangwa Valley. Wild fires 
set by poachers had burned over 80% of the Park's vegetation 
every year. If left unprotected, North Luangwa would be 
sterilized by 1996.
    The Zambian government had limited resources to protect or 
develop the Park. Therefore, the Owenses' first priority was to 
decrease poaching by improving the efficiency of the government 
Game Scouts. New equipment, housing, training and incentives 
were provided to the Scouts. After working closely with these 
men for years, the North Luangwa Scouts have been declared the 
best in Zambia.
    At the same time the Owenses developed a plan to involve 
the local people in the conservation of their greatest 
resource, their wildlife. Poaching was the primary industry in 
the area, providing more jobs and more sources of protein than 
any other. Therefore, the Owenses began a Community Development 
Program of the NLCP that established small sustainable 
businesses that offer basic goods and services to the local 
people and provide alternative legal jobs to poachers. These 
services are not a free hand out. Each business is based on the 
free enterprise system and the initial start-up loan must be 
repaid to the project so that new businesses can be started in 
the village.
    In the past, many of the villagers could obtain ground 
corn, their staple diet, only by trading poached meat for it. 
Now the NLCP grinding mills provide this service for pennies 
and, at the same time, offer employment to millers, mechanics 
and bookkeepers. Villagers used to poach bush meat to trade it 
for cooking oil, a much prized commodity in rural Africa. NLCP 
has taught them to grow sunflower seeds and press oil using 
simple seed presses. Again, poaching is replaced by sustainable 
legal trade. Other cottage industries that have provided jobs, 
food or services to the local people are carpentry shops, 
sewing co-operatives and cobbler shops. In some villages, small 
shops are opened to provide simple goods to villagers such as 
matches, soap and salt. Farmers are assisted with seed loans, 
transportation and technical assistance. More than 2000 
families in the NLCP target area are benefiting from NLCP's 
Community Development and Agricultural Assistance Programs.
    The Owenses established the NLCP Conservation Education 
Program in fourteen remote villages near the National Park. 
Many students had never seen a color photograph and schools 
lacked the most basic supplies. The NLCP Education Officer 
visits schools monthly, weather permitting, offering a 500 
volume mobile library, curriculum guidelines, school supplies, 
wildlife slide shows (powered by a gasoline generator), 
lectures, projects and contests. Forty-eight American schools 
participate in a conservation oriented exchange program with 
NLCP's students, exchanging letters, art work, reports and 
essays. American schools sent school supplies, books and donate 
magazines. These Zambian students will not grow up to be 
poachers.
    NLCP's Rural Health and Family Planning Program teaches 
hygiene, first aid, preventative medicine, family planning and 
advanced clinical techniques to village medics. NLCP has 
trained and equipped 48 ``Traditional Birth Attendants'' to 
assist the pregnant women in the villages near the Park. The 
Attendants also teach AIDS prevention, early childhood 
development and nutrition to the women of their villages.
    The ultimate goal of the NLCP is to ensure that tourism 
development in North Luangwa National Park will have a low 
impact on the environment and return revenue to the local 
villagers. Once the local villagers are benefitting legally 
from the National Park through tourism, there will be even less 
incentive to poach. The Owens have worked with the Zambian 
government to develop a plan for tourism in the Park.
    The NLCP has been very successful. When the Owenses 
arrived, 1000 elephants were being poached each year. Since 
September of 1994 not one has been poached. However, after 
nearly six years of almost complete protection, the elephant 
population of North Luangwa has not increased. This argues 
strongly for continued protection for the African elephant 
under a CITES moratorium on trade in elephant parts and 
continued funding by the U.S. government for research, 
management, protection, and conservation of African elephant 
populations. Twenty elephants have been collared with radio 
transmitters and aerial data is being obtained to chart their 
movements, habitat usage, and more.
    Likewise, the people near the Park no longer have to poach 
to feed their families. Over 2000 families, many of whom were 
once involved with poaching, now have legal, sustainable jobs. 
Leaders from villages outside the NLCP range are now coming to 
the Owenses and requesting their advice on how to start 
programs such as those implemented by the NLCP.
    It is sad to note that, although for many years the Owens 
Foundation has applied for funding for the NLCP from the 
African Elephant Conservation Fund, and has apparently met all 
of the criteria for funding under the Act, the project has 
inexplicably not been funded to date. The NLCP operates on a 
comparatively small budget of approximately $500,000 per year, 
which is provided by the Frankfurt Zoological Society of 
Germany and the Owens Foundation for Wildlife Conservation. 
This is a successful project, which is conserving wildlife, 
including elephants and helping people, is worthy of funding 
under the Act.
    In January 1997, HSUS along with Humane Society 
International (HSI), signed a US$1 million, five-year agreement 
with the National Parks Board (NPB) of South Africa to conduct 
a study on the use of contraception as a means for controlling 
reproduction in elephants and humanely controlling the size and 
growth of elephant populations. Additionally, under the 
agreement, The HSUS/HSI will develop, promote and conduct 
ecotourism programs in South Africa. The NPB will undertake to 
extend the range of elephants in South Africa and will use the 
contraception program to control elephant population sizes if 
it is shown by research to be safe, feasible, economic, and 
appropriate. Additionally, the NPB will examine and implement 
other means of reducing conflicts between elephants and other 
wildlife and human interests, including fencing, and 
translocating elephants to other parks and protected areas in 
South Africa.
    The elephant contraception experiment is being conducted in 
Kruger National Park, which is home to over 8300 elephants. 
Within the Park's fenced boundaries, rangers have culled about 
600 elephants each year in an attempt to maintain a population 
of 7500 elephants. But widespread opposition to culling has led 
South Africa to consider alternative means for controlling 
elephant populations and providing more habitat for elephants. 
In May 1995, after a public debate on the Kruger National 
Park's elephant management policy, the NPB undertook a review 
of that policy. The NPB announced that no elephants would be 
killed in Kruger National Park in 1996, although the NPB 
retains its policy to allow elephants to be killed when 
necessary as a last resort. The moratorium has been extended 
through 1997.
    The HSUS/HSI is sponsoring the program which is being 
conducted by a team of scientists from Zoo Montana, the Medical 
College of Ohio, the University of Georgia, and the University 
of Pretoria in South Africa. Dr. Jay Kirkpatrick, HSUS 
consultant for contraception and director of science and 
conservation biology at Zoo Montana, is leading the scientific 
research team. These organizations have joined with the South 
African NPB to administer a contraceptive vaccine to elephants 
in Kruger National Park.
    This vaccine, the PZP (porcine zona pellucida) 
immunocontraceptive vaccine, was first developed in the 1970's, 
and works by stimulating the immune system to produce 
antibodies that block pregnancy. Since its development, PZP has 
been tested and adopted by the National Park Service for 
management of wild horses on Assateague Island National 
Seashore, Maryland; successfully tested by The HSUS and the 
Bureau of Land Management on wild horses in Nevada; 
successfully tested by The HSUS in collaboration with the 
National Park Service on white-tailed deer at Fire Island 
National Seashore, New York; and is currently being used on 
over 90 species in 60 zoos and aquaria throughout the world.
    Before allowing this technique to be tested on wild, free-
ranging African elephants, the research team vaccinated three 
female zoo elephants with PZP. These elephants, which were not 
mated, showed the strong immune response to the vaccine that is 
required for successful contraception. Before taking the 
vaccine into the field, the research team also showed that 
antibodies produced in response to the PZP vaccine would 
prevent sperm from attaching to elephant eggs in the 
laboratory.
    Between October 2 and 12, 1997, the research team and staff 
from Kruger National Park captured, radiocollared, and treated 
with PZP 21 adult female elephants in Kruger. Twenty additional 
animals were radiocollared but left untreated to act as 
controls. Before treatment, non-pregnancy of each animal in the 
study was confirmed with ultrasound. In November, the 21 
experimental animals were successfully given booster shots 
using PZP-containing darts fired from an airborne helicopter. 
Currently, the research team plans to deliver a third shot to 
treated elephants in May or June 1997. We emphasize that, for 
the purposes of this research, once the elephants have been 
marked the vaccine can be delivered without ever capturing them 
again.
    Unfortunately, there has been some confusion between The 
HSUS/HSI sponsored immunocontraception project and a concurrent 
elephant contraception project being carried out in Kruger 
National Park by a German team from the Institute for 
Zoological and Wildlife Research in Berlin. This team placed 
implants containing a six-month supply of the steroid hormone 
estrogen in the ears of a sample of adult female elephants. The 
HSUS/HSI and our research team strongly opposed this project, 
because, among other reasons, we believed that the estrogen 
implants would lead to prolonged and sustained estrus in 
implanted females. We have received preliminary reports from 
our colleagues at the University of Pretoria that just such an 
effect is being seen among the elephants treated by the German 
research team. We stress, however, that no such indications 
have been reported for the PZP-treated elephants.
    By late 1997 or early 1998, our research team will carry 
out pregnancy tests on the PZP-treated and untreated control 
elephants to determine the effectiveness of the PZP 
immunocontraceptive vaccine.
    Should the vaccine prove effective as an elephant 
contraceptive, there are several reasons that it could be a 
useful management tool for free-ranging elephants. First, it 
can be delivered directly from the air without capturing the 
elephant. Second, the vaccine itself should be relatively 
inexpensive to produce. Third, non-pregnant females can be 
distinguished from the air with 85-90% accuracy by the age of 
calves accompanying them, a technique whose effectiveness was 
confirmed with ultrasound during the initial captures. Clearly, 
further research would be required to refine the vaccine, 
assess its effects on elephant health, reproduction, and 
behavior, and develop efficient techniques for delivering the 
vaccine to significant numbers of elephants.
    Nevertheless, The HSUS/HSI feels that the PZP 
immunocontraceptive vaccine offers the promise of a practical, 
cost-efficient, humane alternative to the barbaric practice of 
destroying these magnificent, sensitive, and complex animals.
    Finally, Mr. Chairman, in reviewing the African Elephant 
Conservation Fund, The HSUS is distressed to learn that monies 
from the fund have been used to support the Communal Areas 
Management Program for Indigenous Resources (CAMPFIRE) in 
Zimbabwe was directly supported by an $85,000 grant from the 
African Elephant Conservation Fund to Safari Club 
International. The HSUS is opposed to the use of funds from the 
African Elephant Conservation Act to support CAMPFIRE for the 
following reasons.
    CAMPFIRE has used money from the U.S. government to lobby 
the U.S. Congress to weaken the Endangered Species Act so that 
more endangered and threatened species may be imported to the 
United States for commercial and other purposes.
    CAMPFIRE promotes the resumption of the international trade 
in ivory. The U.S. has publicly opposed the resumption of the 
ivory trade since 1989. The Department of the Interior should 
not pay other organizations to directly oppose its own 
programs.
    CAMPFIRE is based primarily on elephant trophy hunting, an 
activity that is opposed by 84% of Americans (according to 
December 1996 nationwide poll conducted by Penn & Schoen 
Associates Inc.). The same percentage of Americans oppose U.S. 
foreign assistance being used for this purpose. None of the 
scarce funds available under the African Elephant Conservation 
Act should be used to promote or enable elephant trophy 
hunting. Trophy hunting is an industry like any other that 
should not receive government subsidies in the guise of 
conservation.
    CAMPFIRE is environmentally unsound. An independent 
contractor hired by the U.S. Agency for International 
Development (USAID) to evaluate CAMPFIRE found that the program 
is ``notoriously weak in its environmental assessment of 
potential impacts resulting from the project''; that there was 
a lack of quantitative assessments of the health of wildlife 
populations and the impact of the project upon them; and that 
the methodology used to monitor wildlife populations was 
``questionable''. The World Wide Fund for Nature in Zimbabwe 
reported in 1995 that, ``in order to sustain good quality 
elephant hunting, off-take quotas ideally should not exceed 0.7 
percent of the estimated total population ... when the number 
of elephants killed as problem animals is added to those taken 
during sport hunting, the total offtake amounts to 1.03 per 
cent, clearly exceeding the level which would ensure that 
trophy quality remains constant.'' Diminished ``trophy 
quality'' means that the number of mature, sexually active 
males in the population is decreasing, threatening the survival 
of elephant populations.
    CAMPFIRE is plagued by corruption. For example, in a 
December 1996 report, the Zimbabwean Parliament concluded that 
Zimbabwe's Department of National Parks and Wild Life 
Management, one of the implementors of the CAMPFIRE program, is 
``riddled by corruption, infighting, and jealousy'' and that a 
``management crisis'' existed in the Department. In addition, 
in July 1996, senior officials of Zimbabwe's richest CAMPFIRE 
district, Nyaminyami, were alleged to have misappropriated 
funds and to have accepted kickbacks for granting illegal 
hunting rights.
    CAMPFIRE already receives approximately $5 million dollars 
in support each year from the U.S. Agency for International 
Development (USAID)--five times the amount the African Elephant 
Conservation Fund receives from Congress. The HSUS considers 
USAID's contribution to CAMPFIRE to be a waste of American 
taxpayer dollars that should not be repeated during the U.S. 
Department of the Interior's allocation of scarce funds 
available under the African Elephant Conservation Act.
    Mr. Chairman, in closing, I would like to note that the 
remaining years of this century will determine the way in which 
humans will interact with wild animals in the future. Human 
populations have expanded into natural habitat, causing 
destruction or unnatural confinement of animal populations, 
which at the same time causing the increase in the number of 
conflicts between humans and wild animals. Urgent action is 
required to develop and implement innovative approaches to 
reduce human-animal conflict in ways that will protect animal 
populations and their habitat in the new millennium. We can no 
longer pursue growth and development at the expense of 
wildlife. The HSUS is working to find ways to promote humane 
and sustainable development that does not rely on wildlife 
killing and seeks your support for our efforts.
    Thank you, Mr. Chairman and members of the Subcommittee, 
for this opportunity to share with you our views about the 
African Elephant Conservation Act.

                                ------                                


  Statement of Robert N. Ginsburg, Chairperson, Organizing Committee, 
            Representing the International Year of the Reef

    In 1994 Terrence Hughes, a coral reef biologist, completed 
20 years of surveillance of reefs fringing a Caribbean island 
he found appalling changes in reef health. Most of the reef-
building corals originally fully alive were now dead and 
covered with fleshy algae. The devastation was like what one 
sees in a forest that has been clear cut. From Southeast Asia 
to South Florida, coral reefs show signs of decline, not only 
from destructive fishing methods, but from a multitude of other 
injuries inflicted by growing human populations. In response to 
this crisis, 1997 has been designated the International Year of 
the Reef.
    IYOR is a grass roots coalition of scientists, 
environmentalists, sport divers and students in some 20 or more 
countries who want to highlight the importance of reefs, spread 
understanding of these remarkable ecosystems and promote their 
preservation. IYOR is the recognized public counterpart of the 
International Coral Reef Initiative, a multi-government-
sponsored initiative aimed at the promotion of sustainable 
management of coral reefs and their associated sea grass beds 
and mangrove forests. Both programs are the result of the 
growing concern for the survival of reefs and the increasing 
recognition that reefs are essential to the economic health of 
many nations of the world.

    RATIONALE FOR IYOR AND ITS GOALS:

    The idea for an International Year of the Reef developed in 
June, 1993 at a meeting in Miami, Florida of more than a 
hundred reef scientists from 20 different countries. During the 
week-long meeting a strong consensus developed that many reefs 
were seriously degraded, but it was also clear that information 
on the global extent of these declines and the impacts 
responsible was lacking. It was also evident that protecting 
reefs and their rich resources can best be accomplished by 
educating users, government officials and the general public. 
These concerns led to the development of four main goals for 
IYOR.

    Goals of IYOR:
    <bullet>assess the health of the worlds reefs to identify 
reefs in decline and those that are potential parks or 
preserves;
    <bullet>diagnose causes of decline and help develop 
remedies;
    <bullet>promote community management of resources to 
accomplish their sustainable use; and
    <bullet>educate the public about reefs to promote their 
protection.
    Support from the International Coral Reef Initiative helped 
start the global assessment of reef health last year with pilot 
projects in the Pacific, Atlantic and Indian oceans. These 
include (1) a Report on the status of Pacific reefs in ten 
countries based on anecdotal reports, to be published this 
summer; (2) the results of a study of the effects of fishing on 
coral reefs of Tanzania, soon to appear in a scientific 
journal; and (3) re-surveys of reefs studied twenty or more 
years ago in Puerto Rico and the Bahamas providing information 
on long-term changes in the coral communities.
    During IYOR, the combined efforts of reef scientists and 
volunteer divers will produce the first-ever comprehensive 
overview of global reef health. Assessments by specialists will 
be supplemented by Reef Check 1997, surveys of reef corals and 
fishes worldwide by volunteers from at least a hundred sport 
diving groups. In addition, re-surveys of reefs studied decades 
ago will be expanded to gauge the effects of long-term impacts 
of both natural and anthropogenic stresses.

    CAUSES OF REEF DECLINE AND RECOMMENDED REMEDIES:

    There is no universal cure for reef degradation because the 
causes are so variable.. Just as physicians must diagnose 
before treating human diseases, so reef scientists need to 
first identify the causes of degradation before designing 
remedies. Overfishing for subsistence and livelihood is a 
principal negative impact on reefs in many island nations where 
socio-economic alternatives are in short supply. Among the 
alternatives that already show signs of promise is the effort 
to convince fishermen that live fish can have more long-term 
value as tourist attractions than as a short-term food supply. 
Establishing no-take fish reserves that are monitored by local 
populations can maintain stocks. Aquaculture of corals and 
tropical fish could reduce pressure on wild stocks. Convincing 
restaurants and diners in some countries that large reef fish 
are more valuable as key elements in the reef ecosystem than as 
status-symbol meals could reduce current run-away harvesting of 
these top predators that are key elements of reef ecosystems. 
Coastal runoff of sediments and fertilizer is a significant 
threat to reefs that must have, clear low-nutrient waters. 
Proper design of land development and forest logging in several 
areas can reduce the deterioration of coastal water quality. 
Halting the discharge of industrial pollutants and untreated 
sewage from centers of population can cut down on chronic 
stresses on nearshore reefs.

    EDUCATION TO INSPIRE STEWARDSHIP:

    A major goal of IYOR is to increase public awareness of the 
need to protect coral reefs through education. Some of the 
various efforts on hand and being developed in at least 20 
different countries include:
    <bullet>an outstanding exhibit on Caribbean reefs prepared 
by the Smithsonian Institution to be displayed at several 
locations in the United States;
    <bullet>regional workshops on reef systems and reef 
management are to be held in Kenya, Brazil and Fiji;
    <bullet>teaching aids on reef communities and their 
interactions for students and the public are being developed in 
Mexico, Colombia and the United States;
    <bullet>television documentaries and public-service 
announcements are already available and other are in production 
in several countries;
    <bullet>special programs on reefs are planned for zoos and 
public aquaria in the United States;
    <bullet>a poster contest on coral reefs for students has 
been announced;
    <bullet>lectures and demonstrations about reefs are 
scheduled in Germany, the Philippines, United Kingdom, Colombia 
and the United States;
    <bullet>field trips for families and a reef awareness 
weekend in Florida; and
    <bullet>an exhibit of underwater photographs is circulating 
across the United States.
    These numerous initiatives are just the beginning, and 
interest groups all over the world are developing their own 
programs of education about reefs.

    ASSESSMENT OF REEFS OF THE AMERICAS:

    To illustrate the IYOR approach to reef assessment, I offer 
the example of the Western Atlantic; a similar approach can be 
applied to other reef areas of the world. Coral reefs of the 
Western Atlantic, Figure E, are of special interest to the 
United States for several reasons. The reefs of South Florida, 
the Virgin Islands and Puerto Rico are major attractions for 
tourism and for education. Tourism alone in these areas amounts 
to 10-20 billion dollars annually and provides numerous jobs. 
To preserve the valuable resources of reefs requires that they 
are used in a sustainable way. Already there are clear signs of 
decline in reef fish populations, the kind of warning signal 
that forecasted the disappearance of major commercial fisheries 
which has occurred elsewhere in the world--California 
anchovies, cod, herring, salmon and some tunas.
    Individual coral reefs cannot persist alone, but must be 
replenished with new reef building recruits from other reefs. 
For Puerto Rico and the Virgin Islands, these recruits may come 
from upcurrent in the Antilles; for South Florida, it is the 
Gulf Stream System that brings the immigrant larvae of reef 
fish (95%) and corals from the Caribbean Sea and especially 
from reefs of Central America. Clearly, maintaining the health 
of reefs throughout the region is therefore in our own 
interests.
    Our total trade with countries that have reefs in this 
region was some 50 billion dollars in 1995 and total tourism 
from the United States is estimated to be at least 10 billion 
dollars. Helping these trading partners to manage their reefs 
has benefits to both sides. It insures that these reefs 
continue to replenish our own reefs with recruits of fish and 
coral and it demonstrates the kind of enlightened 
neighborliness that helps to insure good relations with our 
trading partners.
    It is well established that reefs close to population 
centers are often seriously degraded. What is not know, and 
must be discovered as rapidly as possible, is the condition of 
large areas of reefs remote from population centers. If these 
remote reefs show extensive declines, that would indicate the 
impact of a regional stress, a most serious threat to other 
reefs. If alternatively, remote reefs are in good health, then 
the surveys can provide valuable baseline information to assist 
governments of the region in developing sustainable management 
strategies and in selecting reef areas for parks or preserves.
    The IYOR Program of reef assessment in the Americas will 
build on and expand existing programs in the region. CARICOMP, 
the network of long-term reef monitoring sites around the 
region will provide essential baseline data on reef 
communities. Assessment of the condition of Florida reefs is 
well underway by several different groups: NOAA and EPA, The 
Nature Conservancy, Florida Institute of Oceanography and the 
University of Miami. It will expand this summer with cruises to 
examine reefs in the large areas of the Bahamas, Yucatan and 
Belize. And parallel activities are being planned for other 
reef areas in the Caribbean.
    Similar efforts are needed in the other reef areas of the 
world. In the Pacific, assessments of reef health can build on 
the extensive experience of the reefs of the Hawaiian Chain, 
Guam, Samoa, and the Philippines among others and it should 
expand to other little known reef areas like the South China 
Sea. The background of information on reefs of Indonesia and 
East Africa can be used as the foundation for more 
comprehensive assessment of Indian Ocean reefs.

    SUPPORT FOR THE RESOLUTION (H. CON. RES. 8):

    Coral reefs are among kingdom earth's crown jewels. We, the 
users and beneficiaries of these remarkable resources must do 
all that we can to preserve them in good health for future 
generations. The Resolution before this Subcommittee is a clear 
and forceful statement of the importance of coral reefs and of 
the existing government-sponsored measures to protect them and 
to contribute to their understanding. What is needed, and 
needed urgently, is funding to support non-governmental 
activities that address the goals of Resolution. I suggest that 
the way to support these activities is through a program of 
matching grants that can stimulate the involvement of foreign 
governments, foundations and even individuals. On behalf of the 
community of scientists, environmentalists, and reef 
enthusiasts involved in the International Year of the Reef, I 
commend the authors and sponsors of the Resolution and I am 
pleased indeed to offer our full support for it and its goals.

                                ------                                


 Statement of James W. Porter, Ph.D., Professor of Ecology and Marine 
     Sciences, Institute of Ecology, University of Georgia, Athens

    Coral reefs are by far the most diverse ecosystems on 
earth, supporting more than 33 animal phyla, as compared to 
only 8 phyla found in a tropical rainforest. As can be expected 
from such diverse environments, coral reefs yield an amazing 
pharmacopeia of drugs and products to fight human disease. 
Prostaglandin is one of the most potent anticancer drugs known 
to medical science and was first extracted from Floridian sea 
whips. Porites coral skeletons are routinely used as a bone 
substitute for advanced cases of osteoporosis and coral is the 
material of choice for skeletal reconstructive surgery. 
Estimates of coral reef fisheries of up to 31 metric tons per 
annum, as well as tourist and recreational value demonstrate 
the economic importance of maintaining the health and stability 
of coral reef ecosystems. In the Florida Keys alone fishing, 
diving, boating, and other water-related activities contribute 
$1.5 billion per year to the local economy.
    Corals are actually a unique association between a 
cnidarian host (The phylum Cnidaria includes the sea anemones) 
and a symbiotic unicellular plant (the dinoflagellate alga, 
Symbiodinium) (Porter et al., 1984). This duality confers on 
coral its Herculean strength but also its Achilles heel. Unlike 
most animals, corals require light to survive because of its 
symbiotic algae. Therefore, turbid water kills coral. Coral 
reefs flourish in sea water which is (1) clear, (2) low in 
nutrients, and has (3) stable salinity and (4) stable warm 
temperatures. Corals are very efficient in extracting nutrients 
from the surrounding water, and recycling them within their 
symbiotic association. Therefore corals do best under 
conditions that for most marine organism would be considered 
deprivation and are killed by luxury (Muscatine and Porter, 
1977). During growth, corals deposit calcium carbonate 
(limestone). Like tree rings, coral skeletons indelibly record 
past climates, paleotemperatures, and human transgressions to 
the coral reef environment.
    Corals are the marine equivalent of canaries in the coal 
mine. They are among the first organisms to disappear when 
conditions for reef development become unfavorable. Since they 
actually build the limestone structure of the reef, their death 
means rapid decline of the three-dimensional habitat. Their 
loss is to fish what deforestation is to birds. As demonstrated 
in the following paragraphs, corals can also be early warning 
detectors and harbingers of: (1) global marine problems, (2) 
oceanic basin problems, (3) oceanic regional problems, and (4) 
oceanic local problems.
    Recent data shows that global ocean temperatures are rising 
(Cane et al., 1997). Ironically, corals are much closer to 
their upper lethal temperature than to their lower lethal 
temperature. Most tropical marine creatures are similar in this 
respect. An increase of only a few degrees centigrade kills 
coral. Normally such elevated temperatures are not in the realm 
of possibility, but in 1987, corals throughout the Caribbean 
turned white (Brown and Ogden, 1993). This was caused by 
abnormally high seawater temperatures. A rise of only three oC 
was sufficient to denature coral proteins and destroy plant 
pigments (Porter et al., 1989). Theoretically, corals can 
recover from this thermal stress when the temperature returns 
to normal, and we documented such a ``recovery'' in corals 
between 1987 and 1989 (Fitt et al., 1993). I put ``recovery'' 
in quotation marks, however, because our publication was 
premature. Corals that bleached had a much higher rate of 
mortality over the next three years than those that did not. 
Many corals that appeared to recover subsequently lost color 
again and died.
    Coral bleaching does not prove global warming, but global 
warming is the best current hypothesis to explain the outbreak 
of coral bleaching episodes during the last decade world wide. 
Even if we can not use coral bleaching to prove global warming, 
we can state unequivocally that 99.99% of all coral bleaching 
is caused by elevated To, and that without a doubt, corals will 
be the first tropical marine animals to show the effects of 
global warming. Coral reefs as we know them would not survive 
global warming.
    Corals are also influenced by problems occurring within 
their oceanic basin. As part of our NSF supported studies on 
seasonal patterns of photosynthesis and respiration of 
Floridian corals, we measured oxygen production and consumption 
in situ in the reef-building star coral Montastrea annularis. 
Most of the data conformed to expected values, exhibiting an 
increase in respiration rates during the warmer summer months 
and a decrease in respiration during the colder winter months. 
Likewise, photosynthesis was expected to follow the same 
pattern. It did not. During our September, 1993 sampling, 
photosynthesis completely collapsed.
    The best explanation is not intuitive. During the summer of 
1993, the Mid-West and the Mississippi River experienced one of 
the worst periods of flooding in recorded history (Halpert et 
al., 1994). Along with the flood waters, the river carried 
pesticides and herbicides in sufficient quantities to be 
recorded as they exited the mouth of the Mississippi River 
(Dowgiallo, 1994). These materials, particularly herbicides, 
entered the Gulf of Mexico, but were soon entrained into the 
Gulf Stream and arrived at our experimental sight in Florida 
the day before our measurements began. We speculate that it was 
the herbicides in this water, manufactured to kill weeds, which 
ultimately diminished the photosynthetic capacity of Floridian 
corals.
    A proper scientific experiment is replicated three times. I 
do not want to replicate this "experiment" three times. This 
example suggests that, in the ocean, everything is connected. 
Further this should tell subcommittee members, who may not be 
from maritime states, that your states are nevertheless 
hydrologically linked to maritime environments and maritime 
problems.
    We have documented a loss of corals in the Florida Keys 
(Porter and Meier, 1992). The loss rate at the studied 
locations averaged 4% per year, and was up to 10% per year in 
some places. The best predictor of coral loss was simply a 
reef's proximity to the cuts and passes between the Keys 
leading from Florida Bay to the open Atlantic Ocean. Reefs near 
passes, and therefore reefs frequently inundated by Florida Bay 
water, declined rapidly; reefs removed from the influence of 
Florida Bay grew (Porter, et al., 1994). As part of a large 
EPA-funded study in the NOAA Florida Keys National Marine 
Sanctuary, we are examining what aspects of Florida Bay water 
may exert an adverse influence on coral reefs in the Sanctuary. 
We are focusing on elevated turbidity in the Bay. Data provided 
by Drs. Ron Jones and Joe Boyer of Florida International 
University show an increase in the amount of turbidity in Bay 
waters throughout this current decade (Boyer, et al., 1997). 
Remembering that corals require clear water with low nutrient 
concentrations, these data suggest a possible regional link 
between the deterioration of Florida Bay and the decline of 
Floridian coral reefs. The health of downstream ecosystems is 
inextricably linked to the health of upstream ecosystems.
    Sometimes we have no explanation for local problems. A host 
of new coral diseases have recently appeared in Key West, 
including the newly described ``White Pox'' (Holden, 1996). 
Figures 1 and 2 show ``before'' and ``after'' photographs taken 
a little over a year apart on coral reefs off Key West. The 
area is infected with this new disease and these paired 
photographs from the same site show the virulence and rapidity 
of spread of the disease. Several new coral diseases were first 
discovered in this same location. The origin and rapid spread a 
host of new coral diseases in the Key West area is as yet 
unexplained. These discoveries, however, emphasize the 
importance of monitoring (Ogdenet al., 1994) and local 
stewardship of our diminishing coral reef resources.
    Congressional Resolution 8 will aid in the protection of 
coral reef resources. It should be supported by both maritime 
and land-locked states because even land-locked states are 
hydrologically linked to the sea. Good words, however, are not 
enough, and a vote for this bill should be accompanied by an 
appropriations vote for financial support for agencies such as 
the National Marine Sanctuary Program, which is charged with 
protecting these environments, and the U.S. EPA, which is 
charged with providing the research and monitoring required to 
make these long-term management goals feasible.
    References Cited:
    Cane, MA.et al., 1997. Twentieth-Century sea surface 
temperature trends. Science 275:957-960.
    Boyer, J.M., J.W. Fourqurean, D. Rudnick, and R.D. Jones. 
1997. Temporal trends in water chemistry of Florida Bay (1989-
1995): Influence of water management activities. Program 
Abstracts, Amer. Soc. Limnol. Oceanogr., Santa Fe, NM 02/10/97, 
p. 106.
    Brown, B.E., and J.C. Ogden. 1993. Coral bleaching. Sci. 
Amer. 64:64-73.
    Dowgiallo, M.J., (ed.) 1994. Coastal oceanographic effects 
of summer 1993 Mississippi River flooding. Special NOAA Report. 
NOAA Coastal Ocean Office / National Weather Service, Silver 
Spring, MD 76 pp.
    Fitt, W.K., H.J. Sperm, J. Halas, M.W. White, and J.W. 
Porter. 1993. Recovery of the coral Montastrea annularis in the 
Florida Keys after the 1987 ``bleaching event.'' Coral Reefs 
12:57-64.
    Halpert, M.S., G.D. Bell, V.E. Kousky, and C.F. Ropelewski. 
1994. Fifth annual climate assessment, 1993. U.S. Dept. of 
Commerce, NOAA National Weather Service.
    Climate Analysis Center, Camp Springs MD. 111 pp.
    Holden, C. 1996. Coral disease hot spots in the Florida 
Keys. Science 274:2017.
    Muscatine, L., and J.W. Porter. 1977. Reef corals: 
Mutualistic symbioses adapted to nutrient-poor environments. 
BioScience 27:454-460.
    Ogden, J.C., J.W. Porter, N.P. Smith, A.M. Szmant, W.C. 
Jaap, and D. Forcucci. 1994. A long-term interdisciplinary 
study of the Florida Keys Seascape. Bull. Mar. Sci. 54:1059-
1071.
    Porter, J.W., O.W. Meier, J.I. Tougas, and S.K. Lewis. 
1994. Modification of the South Florida hydroscape and its 
effect on coral reef survival in the Florida Keys. Ecol. Soc. 
Amer. Published Abstracts, Knoxville TN.
    Porter, J.W., L. Muscatine, Z. Dubinsky, and P. Falkowski. 
1984. Primary production and photoadaptation in light- and 
shade-adapted colonies of the symbiotic coral, Stylophora 
pistillata. Proc. R. Soc. Lond., B 222:161-180.
    Porter, J.W., W.K. Fitt, H.J. Spero, C.S. Rogers, and M.W. 
White. 1989. Bleaching in reef corals: Physiological and stable 
isotopic responses. Proc. Natl. Acad. Sci. USA 86:9342-9346.
    Porter, J.W., and O.W. Meier. 1992. Quantification of loss 
and change in Floridian reef coral populations. Amer. Zool. 
32:625-640.
    Figure 1. Origin and development of a new coral disease 
``White Pox'' on coral reefs in the Florida Keys off Key West. 
Top photograph shows one photostation on Eastern Dry Rocks Reef 
(KW-II-26) in July, 1995 and the bottom photograph shows the 
same area photographed the following year (KW-II-26, October, 
1996). In this region alone, more than 80% of the elkhorn 
coral, Acropora palmata, were attacked and killed by ``White 
Pox'' within one year. Photographs by James W. Porter.

                                ------                                


Statement of Terry D. Garcia, Acting Assistant Secretary for Oceans and 
   Atmosphere, National Oceanic and Atmospheric Administration, U.S. 
                         Department of Commerce

    Good day, Mr. Chairman, and members of the Subcommittee. I 
am Terry Garcia, acting Assistant Secretary for the National 
Oceanic and Atmospheric Administration (NOAA) of the Department 
of Commerce. It is an honor and a pleasure for me to appear 
before you today to highlight the programs that NOAA has 
undertaken to address our Nation's coral reef crisis, which was 
so eloquently stated by House Concurrent Resolution Number 8 
(HCR 8).

    INTRODUCTION

    NOAA is pleased to provide testimony in support of 
Congress's leadership for, and commitment to, active 
stewardship of our Nation's fragile coral reef ecosystems, 
including associated mangrove forests and sea grass beds. HCR 8 
addresses the leadership needed at the national level to 
address and support local management that balances economic, 
social, and environmental concerns for the welfare of these 
coral resources and the benefits they provide our Nation.
    NOAA has established itself as a global leader in coral 
reef stewardship through its many activities. NOAA, in 
conjunction with other Federal agencies, non-governmental 
organizations, scientists and Congress, joins over 50 nations, 
principalities, and other organizations in celebrating the 
International Year of the Reef. Domestically, NOAA and others 
launched the United States Coral Reef Initiative (US CRI) to 
protect the Nation's coral reef resources. Internationally, 
NOAA has been a leader in the development of the International 
Coral Reef Initiative (ICRI) since it was established by the 
United States and 8 other nations in 1994. There are now over 
75 participating governments. NOAA appreciates the 
congressional recognition embodied in HCR 8 as well as the 
responsibilities commensurate with it, although we are but one 
player in this process. The Department of the Interior, the 
Department of State, Agency for International Development, and 
the Environmental Protection Agency are all actively involved 
in implementing the goals of the Coral Reef Initiative. With 
your continued support, NOAA and the rest of The Administration 
will continue to help address your concerns for the health and 
stability of our Nation's coral reef systems--systems that are 
in dire crisis. We will do this by working with the key 
resource managers and scientists at the national, regional, and 
local level.
    HCR 8 states that NOAA has a key role in the stewardship of 
our Nation's marine resources through national partnerships 
such as the National Marine Sanctuaries, National Estuarine 
Research Reserves, and Coastal Zone Management programs, and 
our continued work to develop science-based solutions for 
habitat conservation and sustainable development. There are 
many other NOAA programs involved in the protection of coral 
reefs and their associated habitats such as the National Marine 
Fisheries Service, the National Sea Grant College Program, the 
National Undersea Research Program and the Coastal Ocean 
Program. While these programs address and support many aspects 
of reef stewardship, it is important to remember that much of 
the work of coral reef management for most of the Nation's 
reefs takes place at the local level under local and regional 
management initiatives.
    I would like to take this opportunity to discuss four 
issues with you: the current global and national coral reef 
crisis; what this means in the United States to both local 
communities and regional resource-dependent economies; what 
NOAA is doing to address the crisis; and the identification of 
needs and gaps in our resource monitoring, protection and 
management strategies.

    RECOGNITION OF AN ECONOMIC-ENVIRONMENTAL CORAL CRISIS

    Coral reefs are in serious decline globally, especially 
those near dense populations and in shallow waters. Our 
Nation's reefs are no exception. Many coastal communities in 
semi-tropical and tropical latitudes depend on coral reef 
ecosystems for jobs, income and food, making the degradation 
and loss of coral reefs a serious economic and environmental 
crisis.
    International Experts now estimate that over two-thirds of 
the world's reefs are dangerously stressed. It is estimated 
that 10 percent of the world's reefs are beyond recovery, while 
30 percent are in critical condition, with 10-20 years left to 
live if something is not done to save them. Although coral reef 
and seagrass communities have adapted to deal with natural 
stresses such as predators, diseases, tropical storms, and some 
climate changes, human activities are now impacting reefs in 
many different ways and the cumulative impact of human and 
natural stresses is destroying many reefs. The cumulative 
impact of human activities is more than reefs can handle 
leaving them dead, damaged and seriously compromised in dealing 
with natural stresses. The solution is both simple and 
difficult: If coral reefs are to survive we must reduce the 
magnitude and diversity of human impacts.
    The human impacts of reefs vary from reef to reef, region 
to region. In general, however, the most serious anthropogenic 
causes of coral reef degradation are land-based sources of 
pollution and direct and indirect effects of fishing. Corals 
need clean warm water to survive. Poor water quality caused by 
oil pollution, plastics, sewage, or agricultural run-off can 
poison reef organisms or cause algae to overgrow and smother 
reefs. Sediment pollution from dredging, filling and sediment-
runoff from coastal or upstream deforestation can also smother 
the fragile corals. Depletion of fish stocks removes key 
species that are essential to maintaining the balance of coral 
reef ecosystems. For example, many reef fish are grazers on 
algae. When the fish are removed the algae can overgrow the 
coral itself, eventually smothering and killing sections of 
coral reef. The indirect effects of some fishing is very 
destructive: in the Indo-Pacific thousands of years of coral 
reef growth is destroyed in minutes by dynamite blasting and 
poisons used to collect fish and other reef organisms for food 
and the international aquarium trade.
    Other human impacts on coral reefs include damage from the 
growing dive and tourism industry that can now bring hundreds 
of divers and snorkelers to reefs every week. Boats and boat 
anchors can do serious damage to reefs. In the past two months, 
for example, there have been three ship groundings on the coral 
reefs in the Florida Keys National Marine Sanctuary, including 
the largest ship to ever hit these reefs. Other uses of the 
coastal fringe that destroys the backreef mangrove and seagrass 
communities that are important parts of the coral reef 
ecosystem can also have negative impacts. This would include 
the harvesting or displacement of mangroves and seagrasses for 
aquaculture ponds and the mining of coral and coral sand. By 
signing on to the International Coral Reef Initiative, more 
than 75 nations and principalities have demonstrated that they 
recognize that human activities can cause significant impact to 
coral reef ecosystems and have begun national initiatives. The 
United States is proud to be one of the first.

    NATIONAL

    Like coral reefs all over the world, reefs in the United 
States are also in crisis. There are significant coral reef 
resources in the southern Atlantic, the Caribbean, the Gulf of 
Mexico and the western Pacific. They include: the Florida Keys 
coral reef tract and seagrass beds; the deepwater corals of the 
Oculina Banks off the southern Atlantic Coast; diverse 
Caribbean coral reefs in Puerto Rico and the US Virgin Islands; 
the Flower Garden Banks off the coast of Texas, the 
northernmost reefs in North America, and extensive reefs in the 
Pacific including Hawaii, American Samoa, Guam, and the 
Commonwealth of the Northern Mariana Islands.
    There are a number of indicators of the coral crisis here 
in the United States. Of special concern are the coral 
resources that are candidates for listing under the Endangered 
Species Act, including 10 coral and 2 fish species. Perhaps the 
best studied example of the crisis at the national level is the 
Florida Keys where the coral reef tract and associated seagrass 
beds are being adversely affected by humans. Problems include 
both large and small boat groundings, poor water quality from 
Florida Bay, and impacts from divers and snorkelers 
inadvertently breaking coral. Overharvesting of many species of 
fish, particularly large predators, has severely altered the 
environmental balance of the Keys. The past two years has seen 
an increase in the incidence and types of diseases afflicting 
corals as well as other reef organisms. Scientists are 
currently investigating whether some of these diseases result 
from human activity.

    WHY DOES IT MATTER WHAT HAPPENS TO CORAL REEFS?

    The economics of coastal areas affect the entire Nation. 
The health of the reefs influences where people live, work and 
play. More than one-half of the US population lives in one of 
our Nation's 411 coastal counties--only 11 percent of the 
land--an average of more than 750 people per square mile. 
People depend on coastal resources for jobs, income and a way 
of life. For example, the recreational fishing industry 
contributes more than $30 billion to the US economy annually. 
Tourism-related businesses serve 180 million Americans visiting 
the coast each year. The Gulf of Mexico produces 42 percent of 
all seafood harvested in US waters. A significant portion of US 
fisheries and tourism is related to coral reef ecosystems.
    The density of fishes on the reefs is 100 times greater 
than the average for most of the ocean. Reefs can be tens of 
meters high and thousands of kilometers long. Coral reefs are 
among nature's most spectacular and beautiful creations with 
almost a million species, a warm water world of exotic fish, 
coral and sponges of every imaginable color proving to be an 
irresistible attraction to tourists and visitors worldwide. For 
many of these reasons, the Florida Keys are the number one dive 
destination in the world. The contributions that healthy coral 
reef ecosystems can make to coastal and regional economies are 
incredible.

    CORAL REEFS SUPPORT FISHERIES AND TOURISM INDUSTRIES

    For example, over three million tourists visit the Florida 
Keys every year primarily to participate in ocean-related 
activities like fishing, diving, boating. In 1991, the gross 
earnings of the Florida Keys and Monroe County was $853 
million, $307 million (36 percent) of which came from services 
provided by the tourism industry. This does not include the 
other significant contributions these annual visitors make to 
other sectors of the local economy. It also does not include 
the commercial fishing industry that contributed $17 million to 
the Keys' economy. All of these activities depend on a healthy 
coral reef and coastal environment.
    Tourism is a major industry in other US coral reef areas 
like Puerto Rico, the US Virgin Islands, Hawaii, Guam and the 
Northern Marianas. In 1991, visitors to the US Virgin Islands 
spent over $700 million. A significant portion of these tourist 
dollars is attracted by healthy coral reefs that over the long 
term help make the sand for the beaches, protect the islands 
from storm damage, and provide the incredible biological 
diversity people come to see. Many islands have seen the 
increase in underwater trails, glass bottom boats, divers, 
snorkelers and fisherman as clear signs of the value of healthy 
coral reef habitat. US recreational divers spend at least $300 
million in the Caribbean and Hawaii every year.
    Tourism in Puerto Rico brought in over $1.4 billion in 
1991. Hawaii's tourism generates over $9.0 billion in revenue 
annually, and some 3 million people visit just one of Hawaii's 
many corals reef sites every year. About 90 percent of new 
economic growth in Guam and the Commonwealth of the Northern 
Marianas, both of which have large coral reef habitats, is 
tourism related.
    Coral reefs cover only about 0.2 percent of the ocean 
floor, or an area about the size of Texas, but they produce 
about one-tenth of the fish caught for human consumption, and 
hold about one quarter of all marine species. Coral reefs are 
critical habitat for both recreational and commercial 
fisheries--lobster, red snapper, shrimp and grouper. Twenty-
three percent of the 200 commercial reef species in the 
southeast are overfished, one percent is at full utilization, 
and the other 76 percent are of unknown status.
    A large portion of the economic value of coral reef 
ecosystems is in their importance in producing commercial and 
recreational fisheries. In Puerto Rico, for example, the 
commercial fishery had a vessel value of over $4.0 million. 
Coral reefs produce an annual maximum sustainable yield of 15 
metric tons of reef fish per square kilometer. The productivity 
of coral reefs is responsible for about one-eighth of the 
world's fish harvest. In the U.S. Caribbean, for example, the 
true economic value of the contribution of coral reefs to reef 
fish production has been estimated at several million dollars 
annually.
    These fisheries can be sustainable contributors to local 
communities and economies when managed wisely. The Magnuson-
Stevens Fisheries Conservation and Management Act provides 
important new authority that will enable NOAA to do a better 
job of ensuring long-term sustainability of fisheries that 
depend on healthy coral reef habitat. The Act calls on NOAA, 
through the National Marine Fisheries Service, to identify and 
designate habitat that is essential for the continued viability 
of living marine resources. Coral reefs designated as essential 
fish habitat will be eligible for augmented conservation 
measures. These measures will lead to more stable fishery 
harvests, with the result that fishing will continue to be an 
important sector in local coastal economies.

    CORAL REEFS PROTECT COASTAL COMMUNITIES FROM STORM AND WAVE 
DAMAGE

    Developers and hotel owners are dependent on coral reefs to 
provide buffering from high waves and storm surge that can wash 
away sandy beaches as well as any structures built behind them. 
In the Northern Marianas and Guam, reefs provide protection 
from the potentially devastating effects of the storms of 
``Typhoon Alley.''

    LOST OPPORTUNITIES AND BIOMEDICAL CONTRIBUTIONS

    Coral and other organisms that depend on coral reefs have 
produced promising leads in the search for anticancer 
compounds, antibiotics, pain suppressors, sun screens and other 
products. These organisms potentially hold the secrets to 
numerous scientific and medical benefits within their rich 
diversity. A Caribbean sea whip coral, for example, produces 
compounds with anti-inflammatory properties that are now being 
used in skin creams and may help alleviate arthritis and other 
debilitating inflammatory diseases. Coral skeletons have been 
used for bone grafts in humans, and kainic acid from reef 
organisms in Japan and Taiwan is used in the diagnosis of 
Huntington's chorea, a rare but fatal disease that affects the 
nervous system. There is significant potential for improving 
human health and stimulating the biomedical industry. NOAA's 
Sea Grant program and the National Cancer Institute are the 
main supporters of this research, making the compounds 
available to industry for testing.

    NOAA ACTIVITIES ADDRESSING THE CORAL REEF CRISIS

    NOAA is the primary federal agency charged with the 
stewardship of US coral reefs. Reefs, and their associated 
habitats like seagrass beds and mangrove forests, are also in 
state, territorial or commonwealth waters. These entities have 
important responsibilities and are important partners in our 
efforts. Many coastal states and territories with coral reef 
resources have worked to improve their management capabilities 
to minimize adverse impacts to corals.
    NOAA is also involved in international efforts to protect 
and conserve non-US reefs through partnerships with the State 
Department, the Agency for International Development,and 
numerous non-government organizations and other government 
entities. I am pleased that so many parts of NOAA are involved 
in activities related to US and other coral reefs including:
    The National Marine Sanctuary Program--Through this 
program, NOAA manages national coral reef treasures like the 
Florida Keys National Marine Sanctuary, the Fagatele Bay 
National Marine Sanctuary in American Samoa, the Hawaiian 
Islands Humpback Whale National Marine Sanctuary and the Flower 
Gardens National Marine Sanctuary off the coast of Texas. The 
Jobos Bay National Estuarine Research Reserve in Puerto Rico is 
another area protecting coral reef habitats and developing 
solutions for sustainable management of these resources. Many 
of these sites work closely with other federally protected 
coral reef areas such as National Parks in the US Virgin 
Islands, American Samoa and South Florida.
    These programs have had also had important roles in 
restoring coral reefs. For example, following two 1989 ship 
groundings in the Florida Keys National Marine Sanctuary that 
caused significant damage to the coral reef, NOAA recovered 
funds to restore both sites. By working with the US Army Corps 
of Engineers and a contractor, NOAA is building a three-
dimensional habitat to prevent further degradation of the reef. 
Marine life is returning and it is hoped that soon coral 
resettlement will begin.
    The Coastal Zone Management Program--This program 
establishes federal-state partnerships that help coastal states 
and territories to sustainably manage the coastal zone to 
prevent damage to precious coastal resources like coral reefs. 
Seven state and territorial coastal zone management programs 
include significant efforts aimed at protecting coral reef 
resources, while others have indirect benefits.
    The National Marine Fisheries Service (NMFS) has several 
important roles related to coral reefs. NMFS manages hundreds 
of species making up commercial and recreational fisheries that 
are vital to coastal economies and valued at millions of 
dollars. For example, over 200 species of reef-dependent 
commercial fish species exist in the Gulf of Mexico alone. The 
western Pacific also has many state and federally managed 
fisheries that depend on coral reef habitats for their 
survival. NMFS also works to manage and restore the federally 
and internationally protected species dependent on coral reef 
habitats like sea turtles, some marine mammals and the hard 
corals. NMFS, often in conjunction with the National Marine 
Sanctuaries program, also restores habitat including coral 
reefs and associated sea grass habitats in sanctuaries and 
elsewhere. This often involves development of innovative 
technologies to address the impacts of ship groundings. NMFS 
enforcement, in conjunction with NOAA General Counsel, promotes 
compliance with the laws and regulations related to marine 
sanctuaries and fisheries through various means, including 
civil monetary penalties, education and outreach programs.
    The National Sea Grant Program is an important contributor 
of information on coral reefs. Working with state, territory 
and university partners, this program provides research funds 
to improve the understanding of coral reefs and how humans both 
benefit and harm them. For example, Sea Grant has produced 
nearly 1000 scientific and popular articles on coral reefs 
through its research programs. Sea Grant also has an extension 
function, through which it provides information to managers and 
the public. Sea Grant is funding projects on the viability of 
harvest refugias and on how reefs respond to nutrient loading. 
Additionally, Sea Grant has helped develop curricula for 
teachers to use in teaching about the value of coral reef 
systems. Sea Grant funds an average of $2.5 million in coral 
reef-related research and outreach activities every year.
    The National Undersea Research Program (NURP), the Coastal 
Ocean Program (COP), and the Office of Global Programs (OGP) 
are unique contributors to NOAA's effort. NURP provides state-
of-the-art submersibles and underwater technology and support 
for underwater research. Three of NOAA's six NURP centers are 
working on coral reef issues in Florida, the Caribbean and 
Hawaii by facilitating the provision of undersea technology and 
research support. Funding of projects ranges from the Jason 
Education project to coral reproduction, and the role of corals 
in water quality and nutrient dynamics in the Florida Keys, as 
well as coral diseases. COP is synthesizing much of NOAA's 
information, providing the first ecosystem studies and models 
that predict the consequences of actions and impacts, for 
example how Florida Bay water quality affects ecosystems like 
the Florida Keys. OGP helps predict future climate changes by 
studying historical changes in the Earth's climate that are 
reflected in the skeletons of corals that hold records of the 
past ocean conditions much like the rings in a tree.
    The National Environmental Satellite, Data, and Information 
Service (NESDIS) provides perspectives of the coral reef crisis 
from space. Using satellite-derived data on sea surface 
temperature, NESDIS now provides global maps showing ``hot-
spots'' where water temperatures are higher than expected and 
where coral bleaching might occur. These bleaching 
``forecasts'' are now updated twice weekly and available on the 
internet. They may allow reef managers to reduce the stresses 
on coral reefs from other activities during these periods of 
high water temperature, and thereby reduce the chance of 
serious damage to the reefs.
    These are just a few examples of NOAA programs and 
activities related to coral reefs. These are the tools NOAA 
uses to address the coral reef crisis and help fulfill NOAA's 
environmental stewardship responsibilities as outlined in our 
strategic plan. In FY 1996 NOAA spent approximately $26 million 
for these activities addressing management and protection of 
coral reefs.

    ICRI: THE US AND NOAA'S ROLE

    Despite some progress in the protection and management of 
coral reefs, the coral reef crisis remains very real both in 
the US and abroad. In response to the continued decline and 
destruction of coral reef ecosystems worldwide, the US and 
eight other nations established the International Coral Reef 
Initiative (ICRI) in 1994 to support additional actions to 
protect, restore and sustainably use these fragile resources. 
ICRI is designed to be a catalyst for additional actions that 
build on existing efforts. The goal is for each nation to 
develop its own initiative to fill the gaps and create 
partnerships that can slow the decline of coral resources. I am 
very pleased to say that the US was one of the first nations to 
develop a national coral reef initiative and help others do the 
same. There are now 75 nations that have joined the Coral Reef 
Initiative process. For example, the South Pacific region 
launched its own Pacific Year of the Reef on February 11.
    NOAA, AID, the Department of the Interior, EPA and other 
federal agencies have assisted the State Department in the 
development and implementation of ICRI by providing technical 
assistance on many coastal/ocean management issues and helping 
define priorities for coral reef initiative efforts.
    NOAA is involved in many international projects related to 
ICRI. A few of the many examples include:
    --NMFS has worked with the State Department to help 
establish and implement a Global Coral Reef Monitoring Network 
(GCRMN). The GCRMN will provide global access to coral reef 
data, including management techniques which have proven useful 
in sustaining coral reefs.
    --NMFS is working with Mexico on regional implementation of 
the International Coral Reef Initiative in North America 
through NAFTA's Commission for Environmental Cooperation (CEC).
    --In addition to broader Hawaii Sea Grant activities in the 
Republic of the Marshall Islands, and the Republic of Palau 
which include coral reef issues, Hawaii Sea Grant recently 
participated in a team of U.S., Japanese, and Palauan experts 
which assessed the feasibility of an international coral reef 
center in Palau.
    --NOAA has actively supported U.S. Government efforts to 
work with the Asia Pacific Economic Partnership (APEC) to 
reduce detrimental fishing activities, such as cyanide fishing, 
that are significant contributors to the destruction of coral 
reefs in the Indopacific region, a major center of diversity 
for coral reefs. NMFS is helping organize an APEC workshop on 
cyanide fishing in Mexico this June.
    --Working with USAID, NOAA has been providing technical 
assistance in support of the Middle East peace process, helping 
the governments of Jordan and Israel develop a Binational Red 
Sea Marine Peace Park. This park protects the coral reefs in 
Aqaba, Jordan and Eilat, Israel and supports sustainable 
development goals related to coral reef based tourism. The 
Peace Park now has a complete mooring and boundary marker 
system in place. The park has management regulations including 
zoning, and has begun the process of supporting a collaborative 
research and monitoring program between the countries of 
Jordan, Israel, and Egypt for the Gulf of Aqaba.

    WHAT CAN BE DONE?--THE US CORAL REEF INITIATIVE

    NOAA has been an important contributor to the design and 
implementation of the US Coral Reef Initiative. Although no new 
funds have been appropriated for NOAA's participation, NOAA 
contributed over $1.2 million from in FY 1996 base funds to 
support 42 new projects addressing priorities of the US Coral 
Reef Initiative. Some of these projects are now public-private 
partnerships developed through the National Fish and Wildlife 
Foundation to leverage public resources. All of these projects 
are NOAA's attempt to help to fill gaps in existing US efforts 
to protect and manage coral reefs. Here are just a few examples 
of the kinds of projects I am talking about. Many of the 
projects are described in more detail in the brochure that you 
have entitled ``NOAA Coral Reef Initiative''.

    PROMOTING SUSTAINABLE USE.

    Sea Grant extension agents have worked with other federal, 
local and private entities to transfer information and 
technology to local communities. In the Pacific, this has 
supported sustainable use of reef resources through ecotourism 
and mariculture. Mariculture provides a means of reestablishing 
species that have been overharvested, provides an alternative 
to wild harvest, and provides economic development 
opportunities. Sea Grant is also funding local research to 
understand human impacts on the reefs.

    SUSTAINABLE REEF FISHERIES

    In the western Pacific, NOAA supported the first 
comprehensive assessment of coral reef resources, current 
management efforts and future management needs. In the 
Caribbean, NOAA and its partners have helped develop protected 
marine areas and conduct research to determine how best to 
manage them.

    REDUCING ILLEGAL CORAL TRADE

    NOAA's National Marine Fisheries Service is working with 
partners to help prevent illegal exports of corals by training 
import and export personnel about corals and international 
trade regulations. The US is the world's largest importer of 
coral products accounting for 85 percent of the raw coral and 
98 percent of live coral trade. Ninety-five percent of this 
trade comes out of Indonesia and export of corals requires 
permits from country of origin because all hard corals are 
listed in Appendix II of CITES, the Convention on International 
Trade in Endangered Species. The more people granting the 
permits know about corals and coral trade, the better 
management decisions they will be able to make.
    Twenty percent of the over $1.2 million contributed by NOAA 
to the US Coral Reef Initiative were used to build private-
public partnerships, which have now attracted over $150,000 in 
non-federal matching funds for local-level management projects 
through NOAA's new partnership with the National Fish and 
Wildlife Foundation. We think public-private partnerships are 
powerful tools in this and other areas of our environmental 
stewardship responsibilities.
    Although this is a start, the crisis is far from over, and 
much work remains. One of the most important themes of the US 
CRI is the support for community involvement in the 
implementation of local and regional efforts to protect and 
sustainably manage US coral reef ecosystems. NOAA is working to 
marshal resources for these kinds of efforts in addition to our 
other coral-related stewardship responsibilities.
    The US Coral Reef Initiative is fundamentally about 
partnerships. These partnerships will work to stop the 
degradation and loss of coral reefs while balancing local and 
regional economic concerns. The power of these partnerships is 
that they produce actions that are more than the sum of their 
parts. States, territories, commonwealths, non-government 
organizations, universities, the private sector and other 
federal agencies are working together on reef related 
activities to make this a reality. Although the US CRI is off 
to a good start, we still have a long way to go, and a number 
of on-going gaps and needs to be addressed.

    WE NEED TO INCREASE PUBLIC AWARENESS

    In the last decade, the awareness of the fragility of these 
reef ecosystems has grown considerably, as has the growing 
awareness of the need to concentrate increased management 
efforts to mitigate impacts from adjacent land uses. We can no 
longer afford to allow direct, physical damage to occur due to 
uses which degrade the fragile ecosystem of a reef. Educating 
users who impact coral reef communities, and directing their 
activities so as to avoid such impacts, must be one of the 
constant objectives of comprehensive stewardship.
    The International Year of the Reef (IYOR) was declared by 
scientists, managers, and non-government organizations to 
promote coral conservation efforts and increase public 
awareness of human impacts, coral losses and the need for 
local, national and international stewardship of coral reefs. 
The United Nations, the US, other signatory nations and 
numerous organizations are involved in the production of 
videos, posters, and other materials to promote public 
awareness of how human activities can impact our natural 
environment.
    On February 24, 1997, NOAA, the State Department and many 
of our non-governmental partners kicked off a new national 
public awareness campaign on the value and loss of coral reefs. 
This is NOAA's major contribution to the International Year of 
the Reef. The theme of the campaign is `` Coral Reefs: The 
Rainforests of the Sea'' because like rainforests, coral reefs 
are among the most diverse ecosystems in the world.
    The campaign makes available information on what people can 
do to save coral reefs no matter where they live. We've 
provided you with some of the materials that are available 
including the poster by renowned marine artist Robert Lynn 
Nelson, and the brochure ``25 Things You Can Do To Save Coral 
Reefs''. These, and other materials, are available to the 
public by calling 1-888-CORAL-REEF. You will begin seeing this 
number on signs, on public service announcements before movies 
in theaters, on television, and on the radio in the near 
future. Public awareness is important because people can make a 
difference in the coral crisis.
    There are, of course, many other areas of need and gaps to 
be filled in our efforts to avert further loss of coral reefs. 
Let me leave you with just a few key themes.

    THE NATION NEEDS BETTER INFORMATION AND TECHNOLOGY

    Scientists and managers need the resources and simple 
techniques to monitor the health of coral reef ecosystems. 
Techniques must be implemented on the local and regional level 
to give managers better information on the status of reefs so 
they can make effective, and proactive, management decision. 
What is needed is not only additional monitoring but also 
improved access to the information being produced. There are 
several examples of information networks that can be expanded 
to link information and people working on coral reefs in the US 
and around the world.

    RESTORATION TECHNIQUES

    Ongoing support is needed for research and development on 
the restoration of coral reefs and their associated ecosystems, 
which is a critical parallel to the reduction of human impacts.

    PROACTIVE INVOLVEMENT BY RESPONSIBLE PARTIES

    Government, as well as other parties, needs to proactively 
reduce threats from anthropogenic sources, such as the 
sedimentation and poor water quality affecting reefs in Hawaii 
and the Florida Keys. Responsible parties also need to work 
together to prevent, while at the same time being prepared, to 
address impacts from singular events like oil spills and ship 
groundings, and nonpoint sources like sewage seepage and 
nutrient input into coral systems.
    For example, Hawaii and the trust territories and 
commonwealths of the Caribbean and Pacific are ringed by coral 
reefs and subject to increased stresses from rapid coastal 
urbanization. These reefs are impacted by nutrient enrichment 
from point and non-point sources of pollution, dredging for 
harbor and marina uses, overfishing and fishing practices, 
anchor damage, and similar activities, and have not received 
the total focus needed to ensure their health and protection. 
In South Florida, work is needed on the outbreaks of coral 
diseases and how to address questions of human carrying 
capacity of the Florida Keys and surrounding ecosystem.

    CONCLUSIONS

    Over $300 million is spent in the Florida Keys by tourists 
every year who expect to find a healthy Florida Keys National 
Marine Sanctuary. In Guam and the Northern Mariana Islands, 90 
percent of the new economic development is coastal, and 3 
million tourists visit one of Hawaii's many coral reef sites 
every year. In American Samoa, corals reefs have an important 
cultural role and supply over 50 percent of the local fish used 
for subsistence. Coral degradation reduces the productivity and 
value of the world's reef fish fisheries since these fish are 
dependent on reef habitats for food and shelter. Coral reefs 
produce an annual maximum sustainable yield of 15 metric tons 
of reef fish per square kilometer.
    By 2005, NOAA envisions the Nation's coasts with more 
productive and diverse habitats for fish and wildlife, cleaner 
coastal waters for recreation and seafood production, and 
coastal communities with thriving, sustainable economies based 
on well-planned development and healthy coastal ecosystems. To 
reach its Sustain Healthy Coasts goal under the NOAA Strategic 
Plan, we have committed ``to protect, conserve, and restore 
coastal habitats and their biodiversity.'' NOAA's strategy to 
reach its objective of protecting and restoring coastal 
habitat, including coral reefs, involves three distinct roles 
for NOAA: providing greater understanding, designing and 
implementing management solutions, and synthesizing and 
communicating information about problems and solutions to 
decisionmakers and the public.
    At NOAA, we are implementing our initiatives and issuing a 
call to action for the American people and all of our partners 
to help save ``Coral Reefs--Our Rainforests of the Sea''. But 
these initiatives, and any new ones that we hope to undertake, 
will depend upon strong partnerships and support from our 
constituents and Congress. NOAA wishes to acknowledge the 
critical role our partners play in this initiative, including 
federal agencies, non-governmental organizations, businesses, 
local governments and the public. With ongoing support, these 
partnerships will continue to grow in number, importance and 
effectiveness. Addressing the problem of human impacts on the 
world's reefs requires a synergistic response using the 
collective energies of science, resource management agencies 
like NOAA, and our many other partners. I am pleased to present 
the committee with examples from our outreach campaign for the 
International Year of the Reef--NOAA's poster ``Rainforests Of 
The Sea'', ``25 Things You Can Do To Save Coral Reefs'' 
brochure, and other materials.
    Thank you, Mr. Chairman. This concludes my testimony. I 
will be pleased to answer any questions you may have.

                                ------                                


 Testimony of Marshall P. Jones, Assistant Director for International 
  Affairs, United States Fish and Wildlife Service, Department of the 
                                Interior

    Mr. Chairman, I very much appreciate the opportunity to be 
here today to discuss H.R. 39, the African Elephant 
Conservation Reauthorization Act of 1997, and the U.S. Fish and 
Wildlife Service's implementation of the African Elephant 
Conservation Act. It is particularly timely that renewed 
emphasis is now being given to this landmark legislative 
initiative.
    With respect to H.R. 39, the reauthorization of the Act 
through the year 2002, the Service strongly supports this 
legislation. The African Elephant Conservation Act, as I will 
more fully detail in my statement today, has played a 
significant role in U.S. efforts to encourage and assist in on 
the ground projects aimed at conserving elephants in Africa. In 
fact, the early success of this program provided the impetus to 
the passage of the companion Rhinoceros and Tiger Conservation 
Act of 1994, and initial funding provided pursuant to this new 
act in Fiscal Years 1996/97 has allowed us to begin a modest 
grant program directed at highest priority projects for 
critically endangered rhinoceros and tiger populations.
    As a Party to the Convention on International Trade in 
Endangered Species of Wild Fauna and Flora (CITES), and a major 
consumer of species covered by the Convention, the U.S. shares 
responsibility for supporting and implementing measures to 
provide for the conservation of endangered and threatened 
species, both at home and abroad. The African Elephant 
Conservation Act is designed to encourage and assist efforts to 
conserve one of the world's most ecologically and 
sociologically important species of wildlife. The Act's key 
element is the provision of financial resources to help support 
elephant conservation programs in the wild in their countries 
of origin. The Act is part of the strong U.S. commitment to 
assisting the people of developing African nations in 
implementing their priorities for wildlife conservation. 
Continued support by the U.S. through reauthorization of the 
Act remains critical to the continued conservation of African 
elephants.
    The remainder of my remarks today will focus on the 
successes of the African Elephant Conservation Act. Enacted in 
1989 and initially funded in fiscal year 1990, the Act has now 
given us over six years of experience with African elephant 
conservation programs in seventeen African countries. The 
African Elephant Conservation Act came into existence at a time 
when most African elephant populations were declining at an 
alarming rate, due primarily to poaching for a large illegal 
trade in ivory. Population estimates vary widely for the 
African elephant from the 35 countries within the current 
range, but it is estimated that total elephant numbers declined 
continent-wide by as much as 50 percent during the late 1 970s 
and 1980s.
    In response to this precipitous decline, the Act authorized 
a unique, two-pronged conservation strategy. First, it required 
a review of elephant conservation programs and established a 
process for implementation of strict ivory import controls; and 
second, it established a Fund for cooperative conservation 
projects in African countries. Under the authority of the ivory 
trade provisions of the Act, in June of 1989 the President 
established a moratorium on all ivory imports into the United 
States, which was at that time the third largest consumer of 
ivory in the world. The Congressional leadership that 
facilitated passage of the Act, and ensuing U.S. ivory import 
moratorium, were essential precursors to the U.S. leadership in 
the subsequent decision by CITES parties in October of 1989 to 
transfer of the African elephant from CITES Appendix II to 
CITES Appendix I and impose a global ban on international ivory 
trade. While it was recognized that several African countries, 
particularly in Southern Africa, had stable elephant 
populations and were able to maintain adequate internal 
conservation programs, there was no effective mechanism to 
control international trade in illegal ivory.
    The information available to us today shows that the ivory 
ban was quickly followed by significant declines in the rate of 
elephant poaching, ivory prices and ivory trade, combined with 
stabilization of elephant populations in many countries that 
were previously experiencing declines. It is important to note 
that there was also a concurrent increase in donor funding to 
help support anti-poaching and other conservation efforts in 
range countries following the Appendix I listing--most notably 
from the United States, including the first appropriation of 
funds under the Act. It is also significant and gratifying to 
note that the U.S., unlike some other donor countries, is 
continuing to fulfill its commitment to elephant conservation.
    However, there is no room for complacency. The debate 
continues today over the impacts of the Appendix I listing on 
elephant utilization programs in some countries in Southern 
Africa. Furthermore, a recent report prepared for the last 
CITES Conference of the Parties in 1994 suggests that poaching 
appears to be on the rise again, which may be due in part to 
declines in both donor funding and in wildlife management and 
anti-poaching budgets in many African countries.
    The issues of elephant conservation and ivory trade are 
very complex and are expected to be a significant focus of the 
Tenth Meeting of the CITES Conference of the Parties, to be 
hosted by Zimbabwe in June of this year. Three Southern African 
countries--Botswana, Namibia, and Zimbabwe--have proposed that 
the Conference of the Parties agree to transfer their elephant 
populations back to CITES Appendix II, to allow for a number of 
trade options including a limited commercial trade in their 
legal stockpiles of ivory, live animals, and for Zimbabwe in 
carvings, hides, and leather as well. The Service is currently 
reviewing these proposals, as well as the report from a panel 
of experts appointed by the CITES Secretariat to review trade 
and enforcement controls in those countries and in Japan, where 
the ivory is proposed to be exported. During this review, the 
Service will consult with other Federal agencies and with 
affected range countries. It will also publish a Federal 
Register notice that will outline the U.S. proposed position on 
these and all other CITES proposals and will request public 
comment prior to the June CITES Conference in Zimbabwe. 
Regardless of the outcome of these proposals at the Conference, 
it is certain that the African Elephant Conservation Act will 
remain a critical link to enable continued active U.S. 
involvement in African elephant conservation, through both its 
import control provisions and the grant program.
    While this important dialogue is unfolding, we must 
continue to keep our focus on the positive strides being made 
as a result of the Act's unique conservation strategy--a small 
conservation Fund targeted at cooperative, on-the-ground 
conservation projects in Africa. Implementation of this program 
has played a directly positive role in the conservation of the 
African elephant, and an indirect role in the conservation of 
numerous species that benefit from the conservation of this 
keystone species.
    To date, the Service has funded 48 different projects in 17 
African countries affecting over 200,000 elephants. Each 
project is a cooperative effort with African CITES Management 
Authorities, other foreign governments, nongovernmental 
organizations or the private sector. No in-country project is 
approved unless it has the full support of and has been 
identified by that country as a priority for conservation. 
Through this cooperative approach the actual on-the-ground 
resources directed at African elephant conservation is almost 
double the $5 million allocated to the program since 1990. 
Under the Act all but 3 percent of funds allocated to the grant 
program are used to fund projects. Additionally, no overhead 
charges are supported by grant funds. All such costs are borne 
by the cooperators as matching contributions to the project. 
Thus, 97 percent of all funds allocated by Congress to the Fund 
are obligated to specific projects.
    In implementing this program the Service has also designed 
a streamlined process that allows for timely approval of 
projects, and that has the capacity to respond quickly to 
emergency situations. Since no implementing regulations were 
deemed necessary, there was no time lag in initial receipt of 
funds and actual implementation of the program. Furthermore, 
the grant program is designed to provide quick, short term 
support for holding actions and other conservation measures, in 
concert with existing or proposed long range activities, or 
until such long range activities are in place. In the early 
implementation of the Act, it became apparent that there was a 
definite need for such a responsive grant program, and it has 
become the hallmark of its success.
    One of the earliest projects funded was a cooperative 
effort with the Ministry of Forestry and Wildlife, Central 
African Republic, and the World Wildlife Fund. A cooperative 
effort was underway to establish a reserve in the southeastern 
portion of that country. While funds for gazetting the reserve 
were anticipated, no funds were available for basic equipment 
and operations of anti-poaching patrols--hired from local 
communities--until a cooperative project was implemented under 
the Act. When the first patrols were put into place, the only 
signs of elephants in a local clearing within the park were the 
carcasses of several poached animals. Today over 2,000 
individual elephants, young and old, have been identified to be 
using that clearing. From an observation platform, local school 
children can watch in awe as dozens of elephants gather 
together.
    In Senegal, the westernmost population of elephants in 
Africa is now secure. Through a cooperative project with the 
government of Senegal and the Friends of Animals, an anti-
poaching program has provided local community employment and 
protection for the remaining elephant population. For the first 
time in years, baby elephants are now seen in this small but 
genetically valuable population.
    In the first years of the program the majority of funding 
requests and the highest priority projects for funding were 
proposals submitted by or in cooperation with African elephant 
range state governments for anti-poaching assistance. Similar 
to the projects described above, funds have been provided to 
augment anti-poaching and management support in Cameroon, 
Congo, Eritrea, Gabon, Mali, Senegal, Tanzania, Zambia and 
Zimbabwe. Equipment purchased with these funds has ranged from 
vehicles to radios to field gear.
    One of the most innovative anti-poaching projects funded is 
a cooperative effort with the Southern African Wildlife Trust 
and several cooperating African government agencies. It 
consists of a meritorious service awards program for game 
scouts and rangers in Botswana, Tanzania, ambia and Zimbabwe. 
This program has provided a much needed morale boost for the 
individuals who are asked to risk their lives every day as they 
routinely confront heavily armed groups of commercial poachers.
    More recently there has been a shift in focus from anti-
poaching projects to other conservation activities that address 
management needs and increasing human/elephant conflicts, as 
expanding human populations reduce the amount of wild lands 
available. In Southern Africa a number of projects have been 
implemented to assist range state agencies with elephant 
management programs. A cooperative project with the Zimbabwe 
Department of National Parks and Wildlife, for example, focused 
on the development of translocation techniques for elephant 
family units. Over 1,000 individual elephants were successfully 
translocated to new range in Zimbabwe when drought threatened 
hundreds of individuals with starvation and destruction of 
available habitat. That technique is now being used in South 
Africa and other range states. A second project in Zimbabwe, in 
cooperation with Safari Club International, focuses on the 
development of a manual on elephant population management to be 
used as part of the CAMPFIRE program to assist local 
communities in sustainable development.
    In this regard it is also important to recognize that the 
Act specifically addresses the issue of sport hunting. The Act 
states that ``there is no evidence that sport hunting is part 
of the poaching that contributes to the illegal trade in 
African elephant ivory, and there is evidence that the proper 
utilization of well-managed elephant populations provides an 
important source of funding for African elephant conservation 
programs.'' Under this authority and special rule for 
threatened African elephants adopted under the Endangered 
Species Act, the Service has been able to make the required 
biological findings to allow the import of sport-hunted 
trophies from certain African countries, where it can be 
demonstrated that the range country has an elephant trophy 
export quota and that imports into the U.S. contribute to the 
enhancement of the survival of the species.
    The Service annually reconfirms these findings, and 
continues to allow the import of sport-hunted trophies from 
Zimbabwe and other countries, as part of those countries' 
overall African elephant conservation programs. We continue on 
an annual basis to evaluate these findings, particularly when 
new information becomes available. Zimbabwe's program, for 
example, with oversight and regulation by the Zimbabwe 
Department of National Parks and Wildlife, includes some 
communal land areas enrolled in the CAMPFIRE program.
    Other management projects include investigations into the 
effectiveness of various forms of deterrents used to discourage 
crop-raiding elephants in Cameroon and Zimbabwe; training 
wildlife officers in Ghana about elephant biology and ecology; 
and elephant population surveys in Cameroon, Chad, Central 
African Republic, Malawi, Namibia and Tanzania. Projects have 
also been funded to assist in the establishment of a continent-
wide database on elephant populations and in the establishment 
of the first comprehensive library of elephant resource 
material.
    These are but a few examples of the significant successes 
of the African Elephant Conservation Act program, demonstrating 
the wide array of projects and cooperators. I hoped that these 
have served to illustrate its effectiveness and positive 
impacts on African elephant protection and management. However, 
while much has been accomplished, much remains to be done. The 
annual requests for support of high priority projects greatly 
exceeds the funds available, and we believe that 
reauthorization of the Act can make an important contribution 
to elephant conservation.
    In closing, Mr. Chairman, the findings made by Congress in 
enacting this Act regrettably still ring true today: ``Many 
(African countries) do not have sufficient resources to 
properly manage, conserve, and protect their elephant 
populations.'' The United States must share the responsibility 
to provide for the conservation of this magnificent species. 
The principles embodied in this Act are sound. They provide a 
catalyst for cooperative efforts among the governments of the 
world, nongovernmental organizations, and the private sector to 
work together for a common goal--the conservation and continued 
healthy existence of populations of African elephants. This is 
not a hand out, but a helping hand. For all of these reasons 
the Service strongly supports the reauthorization of the Act.

                                ------                                


Testimony of Terry L. Maple, Ph.D., Zoo Atlanta; School of Psychology, 
                    Georgia Institute of Technology


    Indlov' ihlatshwa ngabantu bonke kandubub'iwe

    (The elephant is stabbed by all before it falls)
    Zulu parable

    When America's zoo directors behold an elephant, they see 
it through the eyes of the nation's 120 million zoo visitors. 
There are roughly 40,000 mammals on exhibit in the 170 
accredited institutions which comprise the membership of 
American Zoo and Aquarium Association's institutional 
membership. Only 136 African elephants currently reside in 
American zoos. They are extraordinarily difficult to properly 
exhibit, manage, and breed. It will be many, many years until 
we can proclaim a self-sustaining captive population. Even if 
we could clone an elephant to obtain a normal adult, we would 
spend decades nurturing and socializing a long-lived creature 
with a complex social structure and intellectual powers that 
rival those of humankind. The successful management of 
elephants in zoos is our most labor-intensive and expensive 
form of mammalian husbandry. It is as much art as it is 
science, and its expert practitioners, the elephant keepers, 
must be alert and savvy each and every day that they walk among 
the world's largest land mammals. Zoo professionals respect 
elephants, while our visitors shower them with affection. The 
label ``charismatic megavertabrate'' is a perfect fit with the 
African elephant.
    I rise to support ``AECA,'' the ``African Elephant 
Conservation Act,'' because I believe that its Grants Program 
is making a difference in Africa. It is doing what it intended 
in providing critical financial assistance to support 
protection, conservation, and management of African elephants 
in the wild. To date, 17 African countries have benefited from 
the fifty projects funded with $5,434,025 of programmatic money 
and $8,651,332 in matching funds. The identified needs are 
greater than the sum expended by a factor of twenty, but we 
have made an important start with this program. The Grants 
Program of the African Elephant Conservation Act is an example 
of American leadership at its best. We are fact-finding; we are 
solving problems; we are team-building; we are making a 
difference in the field.
    As one who must live by a budget based on a competitive 
marketplace, I recognize Me importance of cost-effective, well-
designed, focused, and flexible programs. AECA was designed to 
encourage donations from private sources, and the record 
demonstrates that this strategy has been successful. Therefore, 
I regard this program as a classic example of a public-private 
partnership. The key word is ``partnership,'' as our government 
must be an effective and willing partner with other responsible 
governments and other conservation organizations if we are 
going to save elephants in Africa. In my opinion, there is a 
great potential to dramatically grow the private side of the 
match to help fill the gap between proposed and funded 
projects. I will do what I can to encourage expanded 
participation by the nation's zoos. Working together, we will 
accomplish a great deal more in the future.
    Because the needs are great, and the funding at present 
modest, AECA was also designed to ``provide quick, short-term 
support for holding actions and other conservation measures in 
concert with existing or proposed long-range activities or 
until such activities are in place.'' Experts from the field 
have prioritized well, ensuring that our contributions are 
applied to the most critical endeavors, but in ways that 
contribute to a holistic plan. These are thoughtful programs 
administered by experienced personnel who are committed to 
long-term conservation action. America's continued involvement 
in such programs instills confidence in situations where morale 
can fluctuate wildly on an eventful day. Such conditions exist 
in Central Africa today, where Zoo Atlanta has been monitoring 
a small group of elephants in Rwanda's Akagera National Park. 
The virtual survival of small groups of elephants, gorillas, 
and other forms of life depends on equally small groups of 
dedicated conservationists and the modest resources that 
support them. AECA may be a relatively small program, but it 
sustains work and vigilance of enormous importance to the 
world.
    Africa's elephants are huge and visible creatures. Their 
decline throughout their range has been swift and dramatic. 
They are a symbol and a metaphor for our protection efforts. If 
we can't protect elephants, what can we protect? Habitat 
destruction and competition with humankind for access to land 
have contributed mightily to the elephant's decline, while 
poachers continue to annihilate whole populations of elephants 
throughout Africa. In 1990, I visited a site in Kenya's Tsavo 
National Park, where two adults and one baby elephant were 
butchered by poachers. Poachers had cut off their faces to 
remove their tusks. I had never witnessed an uglier act of 
genocide. We can save elephants in Africa, and we should do it. 
Saving elephants contributes to the tourist-based economies of 
many African nations, but it also contributes to the quality of 
life on earth. We must recognize that elephants are creatures 
valued worldwide by people who want only to see them realize 
their full potential as social, sentient beings.
    The Republican Senator from Georgia, Paul Coverdell, 
recently identified the 104th Congress as the ``most aggressive 
campaign to protect the environment in recent history.'' He 
cited eleven major environmental initiatives which will provide 
a ``safer and healthier environment for all,'' including the 
``Everglades Protection Amendments to the 1996 Farm Bill.'' 
(This legislation was also strongly supported by Speaker Newt 
Gingrich.) Senator Coverdell observed that water quality would 
be improved for both humans and the ``many thousands of plants, 
animals, and fish species, many endangered, that depend on the 
fresh water that filters through the Everglades.'' Senator 
Coverdell suggested that these initiatives set a new course by 
basing its decisions on current, real science.
    AECA is based on sound science. It is a small fund getting 
big results. It is leanly administered, prioritized, matched 
one-to-one by other, largely private, sources, focused, fast, 
and flexible. Republicans and Democrats alike should be proud 
to support legislation such as this carefully crafted, cost-
effective, well managed program enacted by Congress in 1988: 
The African Elephant Conservation Act. As Mr. Coverdell has 
concluded:
    ``History will judge this Congress on its merits, and in 
terms of environmental protection it must surely be said--they 
were committed to conservation for future generations.''
    References cited
    Butler, D.and G.(Eds.) Out of the African Ark. 1988. Ad. 
Donker Publishing Capetown, South Africa.
    Chadwick, D.H. The Fate of the Elephant. 1992. Sierra Club 
Books.
    Coverdell, P. ``Capitol Comment,'' The Citizen. 
Fayetteville, GA, December 1996.

                                ------                                


Testimony of Ron Marlenee, Director of Legislative Affairs, Safari Club 
                             International

    Chairman Saxton and members of the Subcommittee:
    My name is Ron Marlenee, I am the Director of Legislative 
Affairs for Safari Club International (SCI). We appreciate the 
invitation to appear and testify before the Subcommittee. As 
required by the House rules, I have attached further 
infommation about our organization, including the grants that 
we have received from the Federal government.
    SCI supports the passage of H.R. 39, which would amend the 
African Elephant Conservation Act (AECA) by extending the 
appropriation authorization through fiscal year 2002. The money 
appropriated under this authorization goes into the African 
Elephant Conservation Fund and to the Secretary of the 
Interior, for administration of the fund.
    In our view, the African Elephant Conservation Act is an 
extremely important piece of legislation because it assists 
African countries in meeting conservation goals for a species 
that we all believe is important. It does this primarily 
through the grants provided by the AECA. These grants provide 
work ``on the ground'' in the countries where the elephants 
occur. They are used in coordination with the countries in 
which the work will be done. The grants are excellent examples 
of cooperative conservation.
    One of the reasons that the AECA is necessary is that the 
Endangered Species Act (ESA) is long on mandates and sanctions 
and totally devoid of recovery support. 80% of the mammals 
listed under the ESA are foreign, yet that Act provides no 
benefits for foreign species. The AECA and its African Elephant 
Conservation Fund should stand as an example and model for the 
conservation of species that occur in other countries. The AECA 
is helping fill the gap left by the ESA in a small but 
important way.
    We understand that over 300 proposals, totaling $240 
million, have been received by the U.S. Fish and Wildlife 
Service, approximately $235 million of which have had to be 
denied for various reasons. Since the inception of the AECA, 66 
grants have been issue for 50 grants in 17 African countries. A 
total of $5,408,435 has been allocated through these grants. We 
have attached a descriptive summary (obtained from the U.S. 
Fish and Wildlife Service) of all of the projects that have 
been undertaken.
    In spite of the need, the Administration has never asked 
for the full $5 million annual authorization. For the last 
three years, it has dropped its request to $1,169,000, which is 
below the level of the FY 1992 and 1993 requests. The 
appropriations have never reached the authorized level either. 
The highest appropriation was in FY 1995, for $1,166,767. Last 
year, there were serious concerns that the request and/or the 
appropriation would be zeroed out. Along with several other 
organizations, we actively supported the appropriation and a 
total of $600,000 was eventually appropriated. We strongly 
recommend that the authorization of $5 million not be changed.
    The bill would not change the level of authorization, which 
is currently $5,000,000 annually. We agree with this approach. 
We would like to note, however, that appropriations have never 
approached the level of the full authorization, with the 
highest appropriation being $1,166,767 in 1995.
    Your invitation to testify asked us to address the various 
grant projects that we have under the AECA. Accordingly, we 
will briefly discuss our three grant projects--two in Tanzania 
and one in Zimbabwe.
    The matching grant for first Tanzanian project is $36,050 
(with total project costs being more than $60,000) and it was 
for a pilot program to train government game scouts to gather 
elephant data and pinpoint it geographically using hand-held 
Global Position System devices. The data is needed for wildlife 
management. Game scouts accompany safari hunting parties into 
the field at the expense of the hunter. The grant funds the 
training of Scouts to collect elephant data while in the field. 
It equips them with Magellan GPSs to pinpoint the location to 
accompany their recorded observations. It also provides a 
central computer for data storage. In effect, it has helped to 
extend the training of Game Scouts to also act as biological 
assistants while in the field.
    A second phase of the grant has been approved to allow an 
increase in the number of Game Scouts that can be trained. An 
additional $25,950 (out of a total project cost of $69,200) 
will begranted. Other donor agencies such as GTZ have adopted 
this approach and are training Game Scouts and even Village 
Scouts in areas of the famous Selous Reserve where they have 
other on-going conservation projects. Conservation 
organizations are adopting it as a model.
    The program also teaches the game scouts to evaluate the 
elephant populations from the point of view of their hunting 
trophy quality. This is important because it maximizes the 
revenues that can be obtained from a use of this natural 
resource, while minimizing biological impact of the program. 
The revenues are a key incentive to conservation, and provide 
much of the funding used for such conservation. I have attached 
a paper entitled ``Returns from Tourist Hunting in Tanzania,'' 
which describes in detail the economic importance of this 
activity. It states that foreign safari hunting (which is 
called ``tourist hunting '') had a value of more than $10 
million for Tanzania in 1992.
    The second matching grant was for $84,240 to help fund a 
survey of Tanzania's elephant populations, which may be the 
largest in Africa. The total project cost is $216,110. It will 
fund aerial surveys in three specific areas, completing the 
collection of data which will provide a new baseline for 
elephant populations in Tanzania.
    The third matching grant is being carried out in Zimbabwe 
and is for $85,OOO to support the CAMPFIRE program. The total 
project exceeds $150,000. CAMPFIRE stands for Communal Areas 
Management Programme for Indigenous Resources. Essentially, 
CAMPFIRE is a major experiment in granting ownership rights and 
responsibilities over wildlife to local people living in rural 
areas. It has been operating for several years and is showing 
that when people have a stake in the natural resources where 
they live, they are given an incentive to conserve those 
resources. Our grant in Zimbabwe is for the specific purpose of 
developing a training manual for use by local villagers to 
gather the necessary biological information for determining 
sustainable offtake quotas from wild populations. It is similar 
in concept to the Tanzania program, in that it provides a cost-
effective way to obtain necessary data. This grant is different 
in that it focuses on local people and enhances their 
involvement by empowering them to collect and interpret the 
data together with enforcing the rules governing the uses of 
their wildlife.
    The core ideas of CAMPFIRE are being emulated in many 
countries. Conservationists and government resource managers 
agree that if wildlife does not have value and meaning to the 
people who must share land and put their livelihood at risk 
with wildlife, then it has little chance of surviving very far 
into the 21st century. I have attached a brief description of 
the CAMPFIRE program.
    I would like to illustrate the point about sharing with 
wildlife by drawing the Committee's attention to this picture 
[show picture]. It is a blow-up taken from a Newsweek Magazine 
article published on September 18, 1995 and it shows an 
elephant coming through someone's laundry line somewhere in 
Africa. Imagine for a moment that it is your backyard, and 
consider that the elephant is the world's largest land mammal 
and is neither reluctant or hesitant in snuffing out human 
life. Or better yet, imagine that instead of being a Member of 
Congress you live in a rural area and depend on subsistence and 
cash crops scratched from an impoverished soil with hand tools. 
Then imagine your feelings as you watch a herd of elephants 
rampaging through your fields in a moonlit feeding frenzy, 
destroying everything in their path, including your home. To 
live with and tolerate this species takes requires some 
incentive. Without the incentive the pest control expert, 
called a poacher, is alerted and instead of the elephant having 
support and friends, the poacher gains new allies.
    I would also like to draw the Committee's attention to 
several articles that were published in the U.S. News & World 
Report on November 25, 1996. I have provided reprints of the 
articles for the Committee, because they tell in a simple but 
eloquent way about the importance of providing a value to 
wildlife like elephants if they are going to survive. David 
Western, the Director of Kenya's Wildlife Service, says that 
``elephants are the darling of the Western world, but they are 
enemy No. 1 in Kenya.'' He points out that 400 Kenyans have 
been killed by wildlife in the past six years, most of them by 
elephants.
    I have also provided the Committee with a copy of a recent 
book entitled Wildlife and People: the Zimbabwean Success, by 
one of Africa's premiere wildlife scientists, Dr. Graham Child, 
former Director of the Department of National Parks and 
Wildlife Conservation in Zimbabwe. I would like to draw your 
attention particularly to his detailed analysis of hunting in 
the chapter on ``Hunting for Conservation,'' beginning at page 
180.
    Dr. Child begins the chapter with, ``as in much of the 
world, recreational hunting has been a major force behind 
preserving wildlife and wild places in Zimbabwe.'' Child 
estimates that the overall value of the wildlife industry 
(hunting, tourism, food production, etc.) for Zimbabwe at over 
$200 million annually. He ends the chapter with the following 
statements on hunting:
    ``Recreational hunting [NOTE: this is the same as `tourist 
hunting' in Tanzania] is an efficient way of marketing 
wildlife. A few animals are sold for high prices with little 
effect on the productivity of wild populations, or their 
ability to increase .... This means that it can be a valuable 
source of income even while populations are low and recovering. 
It is also a service and labour-intensive industry which is 
applicable in areas unsuited to general tourism. As it requires 
relatively little specialized capital development and has 
little impact on the local environment, it does not foreclose 
options ....
    ``High prices for the removal of a few animals maximizes 
the return on the harvest of ecological energy, placing less 
stress on the ecosystems for a given quantity of human 
welfare....
    ``The high service component, representing human effort and 
initiative, makes it possible to raise the return from a safari 
operation .... With high under-employment in Zimbabwe, 
especially in the remote rural areas ..., any well-paid labour-
intensive activity that reverses the flow of wealth and people 
to the cities is a boon.''
    We believe that it was the intent of Congress and this 
Committee to exempt sport hunting trophies from USFWS import 
restrictions. This Committee found that sport hunting was not 
part of the problem. It was actually a very important part of 
the solution. All revenue and conservation incentives are 
important to elephant range nations. We hope that in the AECA 
reauthorization process or in some other way you can clarify 
the Committee's original intent to exempt sport hunting trophy 
imports in further support of elephant range nations' 
professionally regulated programs. Such imports need to be 
protected as long as they are from licensed, regulated sport 
hunters and comply with CITES. Because of programs like 
CAMPFIRE, AECA, professional management, and the revenue raised 
by trophy hunting elephants, elephants are increasing in 
population at over 5% per annum. CAMPFIRE is constantly 
threatened and jeopardized by animal extremists' attempts to 
stop the import of those few elephant trophies by threatening 
the USFWS offices of Management Authority and Scientific 
Authority. The legitimate wildlife management programs in 
Africa need to be protected and fostered.
    In summary, we support H.R. 39 because it will allow the 
continuation of an excellent program that puts money on the 
ground where the wildlife occurs, and does it in a way that 
works with, instead of dictates to, the people and governments 
of other countries.

                                ------                                


 Testimony of Gina De Ferrari, Director of TRAFFIC, World Wildlife Fund

    Mr. Chairman and members of the Subcommittee, thank you for 
the opportunity to appear here today. I am Gina De Ferrari, the 
Director of TRAFFIC at the World Wildlife Fund (WWF). WWF is 
the largest private conservation organization working 
internationally to protect wildlife and wildlife habitats. We 
currently support conservation efforts in many key African 
elephant range states.
    I am here today to convey WWF's views on the effectiveness 
of the African Elephant Conservation Act (AECA) of 1988. I 
would like to review what this law has accomplished to date and 
its importance for future conservation initiatives.
    First, l want to express WWF's appreciation for the concern 
and interest that this Subcommittee has shown for the 
conservation of the African elephant, one of the world's most 
magnificent and visible symbols for global conservation. We 
want to thank you, Mr. Chairman, for convening this hearing and 
we applaud the Subcommittee for taking a leadership role in 
securing passage of the African Elephant Conservation Act.
    We understand that the President's budget request for 
FY1998 contains $1,000,000 for the African Elephant 
Conservation Fund. WWF strongly supports a doubling of this 
amounts which would fall within the authorized level of 
$5,000,000. As noted earlier, the elephant funds have generated 
more than matching support from other sources over the six 
years of the program's existence, and there is little question 
that many times the amount appropriated by Congress will come 
from the private sector.
    WWF first testified before the House regarding elephant 
conservation on June 22, 1988. At that time, a dramatic decline 
in many elephant populations over the course of a decade had 
precipitated enormous concern among African nations and the 
global conservation community. From an estimated 1.2 million 
animals in 1979, elephant numbers dropped to about 600,000 by 
the late 1980s, a decline of as much as 50 percent in just ten 
years. Shrinking habitat and conflict with rapidly expanding 
human populations played a role in the decline, yet by the mid-
1980s it was clear that the overwhelming factor in the steep 
drop in elephant populations was poaching for the illegal ivory 
trade.
    During its peak over a decade ago, as much as 800 metric 
tons of ivory were exported from Africa each year, equivalent 
to the deaths of up to 80,000 elephants annually. 
Geographically, the losses were distributed unevenly, with some 
elephant populations in east and central Africa suffering 
devastating declines, while others fared better. In particular, 
elephants in several southern African countries were well 
insulated from poaching due to effective management and 
conservation programs.
    CITES grappled unsuccessfully with the massive outflow of 
illegal ivory from the African continent through an export 
quota system that ultimately failed to illicit ivory products 
out of global trade. The global response was the 1989 CITES ban 
on commercial ivory trade, a measure adopted by the vast 
majority of CITES member nations. Although controversial among 
some elephant range countries, the moratorium has proven 
important to the recovery of many of the elephant populations 
hit hardest by poaching. The upcoming CITES meeting in June 
promises a lively debate on the future of the ivory trade ban, 
as the African elephant clearly presents some of the most 
challenging issues in wildlife conservation and management 
today, and the needs and priorities associated with addressing 
these issues vary widely among African countries.
    The ivory trade ban was a stop-gap measure targeted at a 
crisis situation. The issue we are discussing here, Mr. 
Chairman, which is in many ways more critical over the long 
term, is international funding for wildlife conservation. To 
this end, the African Elephant Conservation Act has played a 
crucial role. The Act established the African Elephant 
Conservation Fund and authorizes up to $5 million per year for 
elephant conservation projects. Although the fund has never 
been appropriated to the amount fully authorized, it has proven 
an important instrument for helping African nations in their 
efforts to rebuild elephant populations hit hardest by poaching 
as well as for addressing the growing array of elephant 
conservation and management needs throughout the continent.
    To best understand the importance of monies provided from 
the AECA, one would have to consult with the governments and 
wildlife officials and experts of the 17 countries which have 
benefited from its support. WWF has conservation programs or 
projects in 16 African countries and oversees several projects 
which have been the direct recipients of support from the 
African elephant fund. Based on our own field reports and 
contact with experts across Africa, the fund has been an 
important source of support for projects that otherwise would 
not have been possible.
    The African Elephant Fund, administered by the U.S. Fish 
and Wildlife Service (FWS), has provided about $5.4 million 
over 8 years to elephant conservation activities in range 
states throughout Africa. Mr. Chairman, this is a very modest 
program--$5.4 million has supported 66 grants in 17 African 
countries. In our view, the Fish and Wildlife Service has been 
both efficient and effective in managing the elephants grant 
program.
    Through many years of developing and managing international 
conservation programs and projects, we at WWF have learned many 
important lessons. One is that successful conservation 
initiatives require commitment and continuity. The African 
Elephant Conservation Fund has in fact been the only continuous 
source of new funding for African elephant conservation efforts 
since the 1989 ivory trade ban went into effect. Unfortunately, 
funding from other sources has proven erratic. In the immediate 
aftermath of the ivory trade ban, when the world was sensitized 
to the elephant's dilemma, funding flowed from various 
unilateral and multilateral bodies and NGOs to projects in many 
parts of Africa. Since then, however, funding has largely dried 
up. A 1995 review cosponsored by WWF and the U.S. Fish and 
Wildlife Service, with support from the elephant fund, revealed 
that many African wildlife and parks departments have suffered 
severe budget cuts, some or, the order of 90 percent or more 
over four years--as was the case with Tanzania from 1989-1993. 
This not only underscores a very serious trend, but also makes 
the monies authorized by the AECA even more valuable and 
needed.
    From WWF's perspective, some of the strengths of African 
Elephant Conservation grants program ...include:
    *Emphasis on small grants. By emphasizing small grants, FWS 
is able to move monies relatively quickly with minimal 
bureaucracy, while also ensuring that a wide spectrum of 
projects is supported. The African elephant inhabits some 35 
countries, and conservation needs and capacity vary widely. The 
Service has chosen to provide maximum reasonable flexibility by 
keeping grants small, while maintaining a broad focus to ensure 
funding for meritorious projects throughout sub-Saharan Africa.
    *On-the-ground focus. Virtually all monies coming from the 
fund go directly to the field where needs are greatest; just 3 
percent goes for administration. Moreover, the Fish and 
Wildlife Service has been responsive to emerging needs, as 
witnessed in 1993 when an anthrax outbreak threatened Namibia's 
elephant population. Emergency assistance was provided from the 
African elephant fund, and helped head off a potential 
catastrophe.
    *Balanced set of projects. In the beginning, the African 
elephant fund supported mostly anti-poaching projects, as these 
were the immediate priority. Since then, we are encouraged 
that, while grants are still targeted at clear and identifiable 
needs, the fund supports not only anti-poaching but many other 
activities, such as elephant population research and censuses, 
efforts to mitigate elephant/human conflicts, investigations of 
the ivory trade and cataloging ivory stockpiles, elephant 
translocations, and identifying new techniques for elephant 
management.
    *Cooperation with range states. All FWS projects receive 
approval from the host-country government before proceeding. We 
have found that there is a very clear process and commitment to 
consultation and, where possible, collaboration with African 
governments.
    *Matching funds. Since the elephant grants program was 
initiated in 1990, more than $8.6 million in matching 
contributions has been spent on the various projects 
supported--a match ratio greater than 3:2. In addition, the 
fund has played a catalytic role in larger initiatives, such as 
in the Central African Republic's Dzanga Sangha Reserve. In a 
major effort to protect important wildlife habitat and 
biodiversity by working with surrounding communities to link 
conservation with development needs, African elephant funds are 
used to support three teams of game scouts that patrol the 
Reserve and combat poaching. In partnership with WWF and 
others, the U.S. government has been able to play a focused 
role in the conservation of this biologically-important area 
that is important for forest elephants as well as for many 
other unique species.
    *U.S. leadership. Last but not least, the AECA has allowed 
the U. S. to put its money where its mouth is and set an 
example for other countries to follow. I would like to 
emphasize the importance ofthe fact that FWS support has not 
been curtailed once the poaching crisis abated. It is such only 
through such continuing support that the long term survival of 
African elephants will be realized.
    The list of specific initiatives supported by the African 
Elephant Conservation Act is impressive and I would encourage 
members to review it. (The list of WWF projects funded under 
this Act is attached to this statement.) These projects have 
provided critical seed money to new elephant conservation 
initiatives in Africa, provided supplemental funds for existing 
projects with needs that could not be met from other sources, 
and helped build conservation infrastructure within elephant 
range states. With projects receiving matching support from 
organizations such as WWF, Safari Club International, the 
Wildlife Conservation Society, and others, the African Elephant 
Conservation Fund has clearly multiplied its conservation 
benefits substantially.
    WWF believes that the positive results of the projects 
supported by the African Elephant Conservation Fund are the 
most important signs of the strength of the Act. They have 
allowed the U.S. to play a lead role where it really counts--
funding initiatives in range countries to help ensure the 
survival of this threatened species in the wild.
    Although it is sometimes tempting to assume that once the 
immediate problem is addressed, the problem is solved. However, 
securing the future of Africa's wildlife requires a long-term 
commitment. Therefore, the continuing Congressional support for 
this program will be critical to the long-term viability of 
many elephant conservation initiatives--and I urge Congress to 
maintain the strong support it has shown to date.

    Key WWF Projects Funded by the African Elephant Conservation Act

    In Central Africa: Central Africa is home to as many as a 
half of Africa's elephants--the forest elephants. The 
establishment of protected areas in this region lags far behind 
that of southern and eastern Africa, and heavy poaching 
continues to pose a serious problem. Funding provided by the 
FWS has provided the impetus for the establishment of a network 
of such protected areas, and has leveraged funds from WWF and 
the Wildlife Conservation Society, as well as generous funding 
from the Dutch and German governments and the European Union. 
As a result, notable progress has been made in protecting the 
elephant populations in the region. WWF has been working in the 
following areas on the projects described below.

    Dzanga-Sangha Dense Forest Special Reserve and L'zanga-
Ndoki National Park. Central African Republic

    The southwestern region of the Central African Republic 
(CAR) contains the country's last stronghold of the diverse 
lowland tropical forest characteristic of central Africa, which 
is home to a significant population of elephants. The 
government of CAR and WWF have worked together to create a 
multiple use reserve (Dzanga-Sangha) and national park (Dzanga-
Ndoki) to protect this unique ecosystem. This project seeks to 
integrate wildlife protection, tourism, research, trailing, 
rural development and preservation of the cultural integrity of 
the BaAka pygmies to conserve this valuable forest. The FWS has 
supported elephant protection, ecological monitoring and 
coordination in the Dzanga-Sangha project for nearly 6 years. 
The anti-poaching operations supported by FWS include a force 
of 30 guards and have resulted in a marked decrease in poaching 
and a significant increase in the elephant population, and the 
recorded density of 3.18 elephants per square kilometer is one 
of the highest--if not the highest--ever recorded in the 
forests of Africa. Over 2,000 individual elephants have been 
observed at the Dzanga clearing, and only rarely are elephants 
shot in the park.
    A major focus of this project has been the participation of 
local people; it is one of the first conservation initiatives 
in the lowland tropical forests of Africa to integrate 
conservation with the needs of the rural poor. As such, it 
serves as an important prototype for future community 
conservation efforts in Central Africa, in which local people 
realize direct benefits from wildlife conservation.
    The objective of the project--to stop large scale poaching 
of elephants in the core area of Dzanga-Sangha--has clearly 
been reached. FWS support has made it possible to maintain an 
active anti-poaching effort that has resulted in an expanding 
elephant population--a situation that is unique in the central 
African region. Clearly, the steps that have been taken are 
working, and need to be continued in order to keep protecting 
this important elephant population.

    Gamba Protected Areas Complex--Petit Loango Reserve Gabon

    In April 1990, WWF joined forces with the FWS to provide 
emergency support for the conservation of elephants and other 
wildlife in the Petit Loango Game Reserve in Gabon. The reserve 
has a great diversity of habitats and species, covering 500 
square kilometers of seashore, mangrove, swamp and tropical 
forest. Established in 1966, the reserve is a priority site for 
elephant conservation.
    Recent increases in poaching for meat and ivory pose an 
immediate and severe threat to elephants in the reserve. Under 
this project, which is ongoing, an anti-poaching unit has been 
sent to patrol the area and to meet with rural communities to 
explain the problems associated with poaching. There measures 
are designed to give the government the time to develop a long-
term conservation program for Petit Loango and adjoining areas 
in the entire 10,000-square-kilometer Gamba Reserve Complex. 
Emergency anti-poaching efforts such as those at Petit Loango 
are buying time--time needed to develop sound, long-term 
conservation and development programs that demonstrate 
conservation benefits to communities and, in so doing, enlist 
the critical support of local people to reduce poaching.

    Bangassou elephant censusing project. Central African 
Republic

    Little information has been available on the status of 
elephant populations in the Bangassou forests of southern CAR, 
but there have been reports of high elephant density and heavy 
poaching in the area. The purpose of this project--which began 
3 years ago, and is near completion--is to estimate the numbers 
and distribution of elephants and chimpanzees remaining in 
those forests, to assess the impact of ivory poaching, and to 
assess the general conservation potential of the forests. Such 
surveys and analyses are the precursors to establishment of 
protected areas.
    In Southern Africa: Elephant conservation problems in 
southern Africa are increasingly related to human-elephant 
conflicts, as elephant populations outgrow the available 
habitat within protected areas. However, poaching in parks, and 
disease outbreaks are still of concern and WWF has undertaken 
projects in the following areas.

    Chobe National Park. Botswana

    WWF assisted the government of Botswana through the 
preparation of an elephant management plan for Chobe National 
Park in 1994. Chobe National Park is one of the most 
significant protected areas in southern Africa. It has more 
that 400 wildlife species and protects habitat for one of the 
largest known elephant populations on the continent. Recent 
elephant population estimates for northern Botswana (with Chobe 
as an important core area) are 70,000--highlighting the 
importance of developing a management plan here.

    Namibia Desert Elephants: anthrax outbreak

    In response to an outbreak of anthrax in Namibia in 1993, 
approximately 30 desert elephant were inoculated against the 
disease with emergency funding from FWS. The Namibian elephant 
population is one of the most mobile on the continent, and it 
is very easy for an infectious disease like anthrax to wipe out 
a large population in a very short time. Namibia has 
approximately 10,000 elephants that could have been threatened 
by the disease had it not been caught in time. In addition, 
elephant populations in neighboring countries also could have 
been susceptible to the disease.
    In addition to protecting the entire elephant population of 
the region, it was particularly important to protect the small 
population of approximately 50 desert elephants, as this 
population is unique in that it has developed characteristics 
that allow it to survive in the desert.

    Anti-poaching unit. Zambia

    Zambia is home to approximately 25,000 elephants, and at 
the inception of this project in 1991, poaching was a serious 
threat. Under this project, WWF helped the Zambian government 
establish an anti-poaching unit, which resulted in a 
significant breakthrough in the fight against poaching. Several 
poaching rings were broken and many individuals were arrested 
and prosecuted.
    The international headquarters for the World Wildlife Fund 
has also received support through the African Elephant 
Conservation Fund for projects in Cameroon to assess the impact 
of crop raiding elephants, and elephant related research in 
Kenya. In addition, the TRAFFIC office in Malawi, a joint 
program of WWF and IUCN, has received funds to monitor the 
ivory trade and has undertaken a survey to quantify existing 
ivory stockpiles. We would be pleased to provide the 
Subcommittee the details of these projects upon request.

    The Future

    Priorities for future WWF projects for which we will seek 
funding under the African Elephant Conservation Fund will focus 
on surveys of elephant populations and establishment of 
additional protected areas for the forest elephants in central 
Africa. Central Africa is many years behind east and southern 
Africa with respect to the establishment of protected areas in 
which elephants can find refuge, yet as many as half of 
Africa's elephants live here. The Dzangha-Sangha project would 
serve as a model for future WWF work in the region. It would be 
our goal to establish a more expansive system of protected 
areas in central Africa and in doing so, to involve local 
communities and make them partners in the effort to protect 
elephants.

                                ------                                


                      Statement of Dr. Brian Child

    Mr. Chairman, I thank you for this opportunity to 
participate in this oversight hearing on the African Elephant 
Conservation Reauthorization Act of 1997. I am Dr. Brian Child. 
I obtained a doctorate from the University of Oxford as a 
Rhodes Scholar, with my expertise being land use and wildlife 
economics. I was instrumental in developing the highly 
successful wildlife industry on private land in Zimbabwe. I 
also coordinated and developed the CAMPFIRE program as a senior 
official in the Zimbabwe Government, where I spent 12 years. I 
am now developing an equally successful program in Zambia. I 
have worked or visited community wildlife programs throughout 
Africa, have advised USAID, the World Bank, NORAD, UN/FAO and 
several African governments, and have published extensively. I 
live and work amongst the people and wildlife of Africa, and 
have been a dedicated conservationist since my earliest 
memories.
    This submission thanks the AECA for financial support 
received. It suggests that support should be continued, but 
that this support is targeted towards longer term solutions. 
Since long term solutions are usually based on utilizing 
wildlife, and killing animals is always contentious, this 
submission spends some time justifying the sustainable use 
approach. Note that this approach is supported by mainstream 
conservation and development agencies and is only considered 
controversial by fringe groups whose concern is with the rights 
of animals, rather than biodiversity conservation.
    Mr. Chairman, we in Southern Africa have recognized and 
accepted that conserving wildlife costs money but that this 
expenditure must be justified in a situation where people die 
for lack of medicine and food. This is why we are evolving 
pragmatic, economically sustainable, approaches. This is also 
why the external assistance offered to the range states by the 
AECA is extremely important for securing the long term survival 
of these species and the maintenance of their habitat. I would 
like to convey my strong support for the passage of H.R. 39, 
which would amend the AECA by extending the appropriation 
authorization through fiscal year 2002. The funds provided 
under the AECA, if appropriately used, can present important 
opportunities for maintaining sustainable wildlife 
conservation. However, this potential depends on using funds 
for wildlife conservation programs that are appropriate. These 
funds should support Africa's determination to manage wildlife 
for the benefit of her people in a dual approach which 
establishes parks and protects the wildlife inside them but 
which also promotes conservation through sustainable use 
outside them.

    Southern African Elephant Populations

    The AECA was enacted in 1988 in response to the declining 
elephant populations in many parts of Africa. However, it is 
important to note from the outset, that in many countries in 
southern Africa elephant populations where not declining. 
Indeed they have been steadily increasing over the past two 
decades. This is supported by regular surveys, the high quality 
of which has been acknowledged by CITES and verified by Dr. Ian 
Douglas Hamilton, the reknowned elephant expert of Kenya. These 
independent assessments were required to combat malicious 
misinformation campaigns designed to discredit the success of 
southern Africa's elephant management.

    We welcome increased emphasis on CBNRM

    The review process in the Act has shown the effectiveness 
of some southern African elephant management programs, and as a 
result we have been the recipients of several grants under this 
Act for which we extend out thanks. Initially the highest 
priority projects for funding were proposals for anti-poaching 
assistance. Such measures are valuable to combat short-term 
problems. For example, in Zambia, two anti-poaching projects 
were funded: one is a joint program of the World Wildlife Fund 
and the Zambia Anti-Corruption Commission to establish a 
Species Protection Unit to assist in elephant anti-poaching 
efforts; and the second is a co-operative project of the 
Ministry of Tourism and Natural Resources and the African 
Safari Club of Washington, D.C. to provide anti-poaching 
equipment and assistance to the Remote Game Scout Program for 
the (FY90, FY91, & FY95). Several other countries in Africa 
have also received funds to augment anti-poaching projects and 
this support has some positive effects on the elephant 
populations.
    We particularly welcome the change in focus of the AECA 
from anti-poaching activities to local management programs, and 
we encourage a continuation of such support. In our experience, 
programs that assist local communities and governments to 
manage their wildlife resources in the appropriate social, 
cultural and economic context have the greatest chance of 
success in the long term.

    Importance of landholders and communities

    I would like to emphasize the importance of a dual strategy 
that addresses short term problems like poaching by providing 
strategic funding but which also strengthens the long-term 
commitment of local communities to elephant conservation by 
ensuring that they participate and benefit from the management 
of wildlife on their land.
    This is a great challenge. Rural populations in Africa are 
more dependent on the natural resource base than any other 
region in the world. People and wildlife share the land, and 
wildlife, particularly elephants, can represent a serious 
threat to the survival of people. For example, in Kenya between 
1989-1996, 354 people were killed by elephants and another 235 
were injured. This was more people killed by elephants, than 
elephants by people!
    In Africa, like anywhere else in the world, peoples' first 
priority is survival, not conservation. Therefore, if the 
elephant is to survive and flourish outside of protected areas, 
it must contribute to the survival of local people, rather than 
threaten their survival. Otherwise the fate of the elephant 
will be similar to that of some of the larger, dangerous 
species here in the US such as the mountain lion or wolf. 
Recent experience in Africa has shown that when elephants 
becomes a source of economic benefit to those who live with 
them, this creates an incentive to conserve them and this can 
translate into wildlife conservation programs that are both 
sustainable and effective.
    ``Farmers--more than hunters [or poachers] threaten rare 
species,'' Newsweek, September 18,1995
    In a far-reaching conceptual advance, IUCN's Sustainable 
Use Specialist Group for Southern Africa (SASUSG), has pointed 
out that the primary threat to wildlife (including elephants) 
is loss of habitat to competing land uses like livestock and 
crops. To emphasize just how real and over-riding this threat 
is, more than 90% of the large herbivore biomass in Africa is 
now domestic stock, implying just how much wildlife has been 
lost. These insidious losses are more serious, more long-term 
and more far-reaching than the highly publicized and dramatic 
losses to poaching.
    Having identified the primary threat as competition for 
land, it follows that the survival of wildlife will depend on 
it becoming economically competitive. It then follows that 
conserving wildlife depends on sorting out economic mechanisms 
such that they reflect the comparative economic advantage of 
wildlife. This is achieved by two things: ensuring that 
landholders and communities are the primary beneficiaries of 
the wildlife on their land; and adding value to wildlife and 
its products to make it more competitive.
    Therefore we believe that the Act's change in focus to 
local management programs is a big step in the right direction 
but we believe there is much more that can be done to maximize 
the effectiveness of this Act. Further action should recognize 
that the primary threat to elephants in the long term is loss 
of habitat, and should therefore support measures to add value 
to elephants, and to encourage the implementation of suitable 
institutional structures that ensure that these benefits accrue 
to the people on whose land elephants live. There will still be 
times and places where the support of old-fashioned law-
enforcement will be necessary. Money will also be required. 
However, increasingly, the efforts of several African 
Governments to develop and implement a sound policy framework 
will require support, often through measures that depend more 
on dialogue and cooperation than financial aid.
    The future of wildlife will depend on markets and trade. 
For the sustainable use to work in the long term, and there is 
no realistic alternative, we will have to change the 
perspective that trade inevitably leads to extinction, and 
develop conditions so that trade leads to conservation.
    The way to make sustainability a reality is to give 
individuals the incentive and rights to participate. In 
supporting market-led approaches like those adopted in southern 
Africa, US Vice President Al Gore remarked in his treatise on 
environmental policy, Earth in the Balance, ``one of the most 
effective ways to encourage market forces to work in 
environmentally benign ways is to give concerned citizens a 
better way to take the environment into account when they 
purchase goods or make other economic decisions.'' For 
Zimbabwe, Zambia and many other range states this ``better 
way'' is CBCD. And it is clearly in the best interests of 
wildlife conservation for the AECA to support programs that 
give local communities sufficient incentive to protect 
resources.

    Community-Based Conservation and Development

    The southern African states support nearly half the world's 
elephants. In these countries there is a strong movement to 
complement traditional protected area-based conservation with 
sustainable use programs and devolved community-based wildlife 
management. Southern Africa's pioneering work has been 
applauded by most mainstream conservation and development 
agencies. However, because this approach involves using and 
sometimes killing individual animals, including elephant, it is 
often subject to vitriolic attack from fringe conservation 
groups. Because of this threat and the associated publicity, I 
have provided a fairly detailed justification of the 
sustainable use approach. We believe that the future of 
Africa's wildlife lies in this approach, and we wish to develop 
a broad understanding and support for it, especially in 
important consumer countries like the USA since the consumers 
(you) are as important to successful sustainable use as the 
producers (us).

    A new conservation paradigm

    Traditionally, conservation has been based on centrally-
managed protectionism. This approach is no longer appropriate 
for countries that suffer acute poverty and where people are 
largely dependent on natural resources. It is no longer 
appropriate in emerging democracies where local people are 
determined to be represented and to manage their own resources, 
not have management imposed on them by central or international 
agencies. Wildlife cannot be put into a black box and removed 
from economic reality or from its interaction with the people 
who live alongside it. It must benefit people, and it must pay 
for itself, and it must be theirs to control, otherwise it will 
be replaced.
    The traditional system for managing wildlife is also highly 
centralized with much in common with centrally planned 
economies. The recent demise of these indicates the future of 
conservation if a new approach is not initiated.
    In the last ten years strategies for conservation and 
wildlife management in Africa have seen dramatic changes. These 
changes resulted from the failure of the traditional 
``projectionist'' approach to conservation, as witnessed by the 
ever decreasing wildlife habitat, growing threats to certain 
key species--such as the elephant and rhino--and threats to 
biodiversity in general. The protectionist approach was based 
upon an assumption that humans and wildlife could not co-exist 
and must be separated, creating a conflict between the 
objectives of human development based on use of resources and 
conservation, to the detriment of both.

    Continue to protect Parks, but ADD a new approach 
sustainable use outside them

    Faced with this dilemma, new strategies for conservation 
have been developed in Africa, most notably within the Southern 
Africa Development Community (SADC) region. These strategies 
focus on complimenting and replacing aspects of the 
protectionist approach, rather than dismantling it entirely. 
Thus southern Africa retains the most extensive network of 
designated National Parks--completely protected areas--of any 
region in the world, covering approximately 15% of the total 
land area of the SADC region.
    It is for the management of wildlife outside these areas 
that new strategies have been developed. These strategies focus 
on harnessing socio-economic forces to conserve wildlife. At 
the core of these strategies is the recognition that to 
succeed, conservation must address the link between the needs 
of the people and the needs of wildlife.
    In Southern Africa, in particular, great strides have been 
made in developing a new conservation paradigm. Instead of 
being treated as a ``priceless'' non-resource, wildlife is 
recognized as an increasingly valuable resource which should 
and can pay for itself. The system for governing wildlife is 
also turned on its head. Instead of being centrally-planned, 
proprietorship of wildlife is devolved to the landholder, and 
the system is designed to self-regulate. Self-regulation occurs 
through the marketplace and by establishing mechanisms for 
community consensus and control. In essence, the benefits from 
wildlife are devolved to landholders and communities. For the 
first time, wildlife gives these local communities the 
financial resources to develop themselves. They no longer have 
to depend on the patronage of bureaucrats or donors. Decisions 
are made democratically in public meetings. This has dramatic 
effects. It introduces an effective system of grass-roots 
democracy. Communities begin to do things for themselves, and 
in doing so begin to over-come a crippling sense of dependency 
and helplessness. This transformation then releases the energy 
of these communities to develop themselves, making the process 
sustainable. The result is more wildlife, more democracy, more 
economic development and people with a greater sense of self-
worth.
    This new approach revolutionizes the governance of natural 
resources, and indeed governance in general, by empowering 
grassroots communities to manage their affairs through a 
participatory and democratic process. The following diagram, 
describing a Zambian CBNRM program, illustrates these dramatic, 
enlightened and far-reaching changes.
[GRAPHIC] [TIFF OMITTED] T0189.001

    If Americans understood that these programs promote human-
rights, human well-being and democracy, and lead to both rural 
develop and wildlife conservation, they would undoubtedly 
support them. Attempts to portray these cutting-edge programs 
as a cover for killing elephants are simplistic, naive and 
mischievous, and indicate an inability or unwillingness on the 
part of the critics to understand their far-reaching and 
positive implications.

    Principles of the new approach

    The principles underlying these programs are the principle 
underlying democracy and sound management. They have been 
extensively analyzed but, in essence, they ensure:
    <bullet>that management is devolved to landholder 
communities and is democratic, transparent and accountable;
    <bullet>that local people `own' resources, are the primary 
beneficiaries from them, and that resources like wildlife are 
not excessively taxed. Those who live with the wildlife should 
be the principal actors in management decisions regarding its 
use;
    <bullet>that, provided people have proprietorship of 
wildlife, wildlife should be marketed to add as much value as 
possible (thereby increasing the incentives to `produce' it). 
The landholder should be free to decide what is the best 
combination of uses, with these including protein production, 
safari hunting, tourism, eco-tourism and others. To date the 
greatest economic return has been provided by high quality 
hunting of a small, sustainable portion (usually 2%) of the 
wildlife resource.
    In short, these principle aim to get the economic system 
right such that wildlife conservation is regulated and 
encouraged by market forces, with government maintaining a 
backstopping role in the rare case of abuse.

    Proof in the pudding

    We are already seeing the impact of this grass-roots 
democracy in the increasing voice of African communities and 
wildlife producers in national and international fora.
    The impact of community-based wildlife conservation on the 
livelihoods of rural people is also well documented throughout 
southern Africa.
    In specific relation to elephant and wildlife conservation, 
this new approach is showing very significant conservation 
benefits. The attached cartoon illustrates the relative merits 
of the new and old paradigms for wildlife conservation, and the 
reluctance of some rich, western urban groups to see this 
reality (none so blind as those who do not want to see). Kenya, 
having banned hunting in 1976 represents the situation where 
the new African-generated approach to conservation has not been 
adopted (note that Kenya, as stated frequently by Dr. David 
Western Director of Kenya Wildlife Service, recognizes the need 
to adopt this approach but was painted into the preservationist 
corner by its past policies which included the burning of ivory 
and is struggling to climb out of it). Recent surveys show that 
the wildlife populations in Kenya have declined by as much as 
40-60% since this non-use policy was adopted.
[GRAPHIC] [TIFF OMITTED] T0189.002

    In contrast, in South Africa some 8 million hectares of 
ranch and farm-land have been allocated to wildlife. The 
contribution of this to wildlife illustrated by noting that 
this compares to 2 million hectares of national parks and 
protected areas. Similarly, in Zimbabwe more wildlife is now 
protected on ranch and farm-land than in national parks because 
of the adoption of pragmatic wildlife policies. The same is 
increasingly true throughout southern Africa.
    The challenge of the last decade has been to develop 
policies and practices whereby small-scale black subsistence 
farmers living in remote rural communities have come to own, 
manage and benefit their wildlife.
    That southern Africa has been successful in taking up this 
challenge is illustrated by the widespread involvement of 
communities throughout the region in community-based wildlife 
programs: LIFE in Namibia, NRMP in Botswana, CAMPFIRE in 
Zimbabwe, ADMADE in Zambia, all of which are partly supported 
by USAID.
    That these programs are at the cutting-edge of the global 
search for solutions to the problems of poverty, democracy and 
conservation in developing countries, is reflected in the 
excitement and endorsement of these programs by:
    <bullet>the major mainstream conservation agencies 
(examples are attached from WWF, IUCN AWF, WCS, NWF, IIED, and 
the renowned conservationist Paul Erlich are attached in 
support);
    <bullet>the support of these programs by the major 
development agencies and bilateral donors (USAID, EU, Norway, 
Netherlands, UK, Germany, to name a few);
    <bullet>the positive editorial support in major mainstream 
publications (Economist, Wall Street Journal, Newsweek, US News 
and World Report and others); and
    <bullet>the prominence of programs like CAMPFIRE in recent 
academic and development literature (e.g. ``Living with 
Wildlife'' and ``Decentralisation and Biodiversity 
Conservation'' by the World Bank, ``Whose Eden'' by IIED, 
``Natural Connections'' by Island Press).
    These programs are new and evolving, and their management 
philosophy is based on adaptive management, and therefore on 
on-going evaluation and transparency. This is reflected in the 
amount of self-criticism and self-evaluation generated by these 
programs, and it why these programs have allocated so many 
resources and, particularly time, to disseminating information 
and supporting visitors from interested parties including 
academics, other communities and even visitors patently opposed 
to the sustainable use approach.
    ``Animal rights activists want to kill the best hope yet 
for African wildlife'' UTNE Reader, Dec 1996
    ``For many, conservation seems a simple matter: stop 
killing wildlife. Those on the ground are coming to the 
opposite conclusion,'' The Economist, April 26, 1996
    While transparency is essential and criticism is welcome, 
an unfortunate consequence is that opponents of sustainable use 
often misuse and misquote this information. A timely and 
pertinent example are the recent attempts by HSUS to discredit 
CAMPFIRE. As noted in a response to one such article by HSUS 
(which is attached as an example) ``it is hard to avoid the 
conclusion that this [misrepresentation] is no accident, but a 
deliberate attempt at distortion to validate their ethics, with 
scant regard for the truth or human welfare''. Similarly Dr. 
Barry Dalal-Clayton of IIED notes: ``excerpts have been lifted 
... and presented together in such a way as to suggest, 
unfairly, a pattern of unsustainability in CAMPFIRE activities. 
They also imply, quite mistakenly, that IIED believes this to 
be the case. These quotes have been taken out of context ...'' 
To press home the point, Paul Ehrlich notes: ``I have long been 
a supporter of various animal rights initiatives ....[but] even 
the most casual analysis tells one that, in the case of the 
elephants, the Campfire Program is on the right side and the 
Humane Society is on the wrong side ... I'm sorry you are 
having your fine efforts at rural development being attached by 
a fringe group''. While criticism is welcome, indeed 
encouraged, such deliberate misrepresentation and irresponsible 
claims are not useful and can absorb and waste a lot of 
resources that could otherwise work directly to benefit 
wildlife and rural communities.

    Cutting edge and regional unit

    There is little doubt that the southern African community-
based wildlife programs are at the cutting edge of contemporary 
conservation. They have been greatly assisted by the support 
and partnership with America, who have has the foresight to 
recognize and support this innovative approach, providing 
significant funding through USAID and small amounts of 
strategic funding through the AECA. CAMPFIRE, and this support, 
is in the limelight because it is leading the way.
    The value of CBCD programs to a sustainable ecological 
future has won global recognition and is, in part, supported 
financially by assistance from the US government. The US, 
through the USAID, provides financial assistance to the 
following countries for their CBCD programs in the SADC region 
alone, Botswana, Malawi, Namibia, Zimbabwe and Zambia, as well 
as countries such as Cameroon, Kenya and Uganda elsewhere in 
Africa. This American support for these programs should come as 
no surprise, particularly given the emerging consensus in 
support of sustainable development from across the political 
spectrum. The former US Secretary of State, James Baker 
observed that:
    ``Sustainable development, to put it simply, is a way to 
fulfill the requirements of the present without compromising 
the future. When policies of sustainable development are 
followed, our economic and our environmental objectives are 
both achieved. In fact, America's entire approach to bilateral 
and multilateral assistance is based on the concept of 
sustainable development.''

    Outputs from sustainable use and community-based 
conservation

    To illustrate how successful the sustainable conservation 
approach to wildlife management can be, I would like to provide 
information using the example of CAMPFIRE in Zimbabwe, but 
recognizing that this is but one example of a regional 
approach.
    It is unfornmate that the American public is being 
misinformed that CAMPFIRE is about killing elephants. It is 
much broader than this. It involves democracy, human rights and 
improved governance. It involves human well-being. It involves 
fundamental economic restructuring and improved land use. And 
it results in broad-scale conservation of elephants, other 
wildlife and their habitats.

    Biological conservation

    When viewed in the context of elephant conservation, the 
results of CAMPFIRE are impressive. Whilst it is well-known 
that the number of elephants has declined in some African 
nations following more ``traditional'' conservation measures, 
for example, Kenya, where the elephant population plummeted 
from 35,000 to 26,000 in the 1980's. Zimbabwe's elephant 
population has increased under policies that include 
utilization, soaring from approximately 48,000 in the early 
1980's to 67,000 today and is currently increasing at a rate of 
2-3,000 per year. Likewise Botswana, which has a similar 
approach to wildlife management, has an elephant population of 
approximately 80,000, again a substantial increase in the 
elephant population. Namibia has sustained a significant 
increase as well.
    Interestingly, sound utilization has reduced the number of 
elephants killed. In the early 1980s, some 300 elephants were 
killed in communal areas every year largely because they were 
raiding crops. With the introduction of CAMPFIRE, offtakes were 
considerably reduced, with about 100 elephants sold to trophy 
hunters and only 30 killed for crop raiding. They had become so 
valuable that people began to tolerate and manage them.
    We have already noted the massive increase in land 
allocated for wildlife throughout southern Africa as a result 
of sound management policies.

    Monitoring

    Fringe groups sometimes attack CAMPFIRE on the basis that 
it has failed to conserve wildlife. This is simply not true. 
Indeed, with funding from AESA through SCI, CAMPFIRE has 
implemented one of the best quota management programs in 
existence. Every animal shot is measured and entered into a 
central data-base, with data confirming that trophy quality is 
being maintained. Communities are trained to analyze and 
collect date, and to set and manage quotas. Aerial surveys, 
ground counts and other such measures are undertaken. The end 
result is that communities are fully involved in managing their 
wildlife, and their maturity and knowledge is indicated by the 
fact that, where it is sensible, they are reducing quotas 
although this reduces their income. That is sound, sustainable 
management.

    Rural development

    As the elephant herd is sustained, local communities 
prosper. In 1994, the program generated over US$2 million in 
Zimbabwe, for the country's economic and ecological 
development--an enormous amount for a country where the annual 
average annual wages often fall below $150 per year. These 
funds significantly contributed to improving the livelihoods of 
some half a million people. With further USAID funding the 
program is set to expand further and by the year 1999 should be 
benefiting approximately 2 million people. These funds provide 
food in years of crop failure, support development initiatives 
and income generating projects such as schools, clinics, small 
shops, and grinding mills; and promote additional conservation 
efforts, such as the employment of local game guards and the 
installation of wildlife water sources.

    Governance and democracy

    One of the most remarkable facts about CAMPFIRE is that it 
has become an ideological movement whereby bureaucrats have 
been devolving financial to communities below them--and for 
bureaucrats to give up powers to such an extent is remarkable. 
This fiscal devolution is illustrated graphically by financial 
data which shows that in ten of the twelve primary wildlife 
districts, fully 74% of income reached grassroots communities, 
with the remainder being used for central wildlife management 
and administration. There is probably no other development 
project anywhere that has achieved such progress. Nothing is 
perfect, and two districts have been excluded from this 
analysis because they were reluctant to devolve authority and 
finances. This reflects the temptation for local government to 
`tax' its constituency, a temptation that is especially strong 
in Zimbabwe as local government is given more and more 
functions with less and less government grants to undertake 
them. The fact that fiscal devolution occurred at all in these 
circumstances is truly remarkable, and reflects the strength of 
the CAMPFIRE approach and the commitment of people to it.
[GRAPHIC] [TIFF OMITTED] T0189.003


    Allegations of corruption

    Because of grass-roots democracy and transparency CAMPFIRE 
is particularly difficult to corrupt. Nonetheless the program 
has been subject to a smear campaign based on alleged (not 
proven) corruption involving $1,600 in Nyaminyami district. The 
desperation of the smearers is reflected in the fact that the 
money involved had nothing to do with USAID, nothing to do with 
CAMPFIRE money, with the only connection being that a district 
council involved in CAMPFIRE has allegedly misappropriated 
money from a completely unrelated source.
    In five years of looking at CAMPFIRE accounts in 12 
districts in my role as CAMPFIRE Coordinator for the Zimbabwe 
government, I found no blatant case of corruption. There were a 
few instances where councils desperate for money for projects 
like clinics used wildlife money for non-wildlife causes 
instead of allocating these to producer communities. It was 
pointed out to them that this ran counter to the CAMPFIRE 
principles, and this was usually sufficient to rectify the 
situation. There were also a few cases at lower levels where 
community officials misused money. Here the transparency of 
financial management process resulted in people being turned in 
by their own communities before major losses occurred. I viewed 
this as a sign of the success of the transparency and checks-
and-balances built into the program, rather than failure.
    I hope that these few examples convey some of the 
excitement and progress associated with community-based natural 
resource management in southern Africa. There is a lot of 
literature available for anyone who wished to pursue any of the 
points made above, and we would naturally be willing to talk to 
anyone about this new approach.

    Conclusions

    In conclusion, and returning specifically to the AECA, I 
would like to reiterate my thanks for the funding provided 
under this Act.
    I point out that there are major transaction costs in 
moving from the centralized to decentralized management that I 
have discussed at some length, and believe that the AECA now 
faces a strategic decision. Can the AECA allocate sufficient 
funds to promote this transition given the high transaction 
costs as illustrated by the size of the USAID budgets that 
support this in several southern African countries?
    However, even small mounts of money can be important in 
removing bottlenecks. Even more important, is the fact that 
such expenditure signifies an endorsement of a sustainable use 
approach, and this might be the greatest contribution that the 
AECA can make to the conservation of African elephants and 
wildlife.
    I would therefore urge the AECA to recognize that the 
primary threats to elephants lie in competition for land, that 
their future lies in making elephant management economically 
sound, and that the AECA can greatly facilitate elephant 
conservation by endorsing this approach.
    Support in the form of small amounts of strategic funding 
for (1) law enforcement and (2) CBNRM programs will still be a 
major positive contribution. Funding the later, in particular, 
is critical for long term sustainability in that it endorse a 
pragmatic, African, utilization approach, and would be 
especially valuable if complemented by an effort to explain the 
rationale for sustainable community-based use to the American 
public who are already a major market for elephants.
    Allocating funds for frivolous and illogical projects like 
elephant contraception would be wasteful and would send the 
wrong message. After all, how can one justify birth control for 
a so-called endangered/threatened species? And how can one 
justify reducing productivity in a continent so starved of 
resources?

    Trade, not aid

    CBCD programs depend upon obtaining economic return from 
wild resources, which in turn requires open and functional 
markets for these products. In the final analysis, trade, both 
domestic and international will determine the future of the 
programs. However, presently there is a misconception that 
trade restrictions, such as the ban on trade in ivory and other 
elephant products, are effective instruments that assist in 
advancing sustainable development and protecting wildlife.
    It has been argued by some that the existence of trade 
restrictions has been resulted in a significant decline in 
poaching and the stabilization of the elephant population. Our 
experience is that the stabilization of elephant herds and the 
decline in poaching has occurred in nations with sustainable 
conservation programs.
    Dr. Hugo Jachmann has recently published data showing that 
investing in law enforcement has reduced the number of 
elephants killed in the Luangwa Valley in Zambia from 10 each 
day to less than 40 each year. This is the best data set on law 
enforcement in existence. Interestingly, this data shows that 
the amount of poaching is directly and inversely related to the 
amount of money spent on law enforcement, especially on 
performance-related bonuses. It also shows that external 
factors like the ivory ban has no significant value as a 
predictive variable, supporting the conclusion of a major study 
done by IUCN/SSC that poaching is reduced primarily by spending 
money on law-enforcement ``Four years after the CITES ban: 
illegal killing of elephants, ivory trade and stockpiles''.
    We would urge the AESA to recognize this and to support 
trade if (and only if) products arise from a process that is 
both ecologically and socio-economically sustainable and is 
carefully regulated, thereby harnessing market forces to 
promote elephant conservation.
    ``Animal lovers hail the ivory ban--but many African 
conservationists hate it and say it hurts wildlife.'' US News 
and World Report, Nov 25 1996
    While on this point, we note that CAMPFIRE has been highly 
successful but that the ban in trade in elephant products has 
probably halved the income from wildlife. How much more 
successful would such programs have been at conserving 
elephants and uplifting rural people if they had been twice as 
profitable?
    I would also like to point out the massive opportunity 
costs imposed on southern Africa by this ban, and the fact that 
they cannot reap the rewards of their successful elephant 
management programs. In general, we have been extremely 
disappointed that those who clamored for the ivory ban have 
done so little to compensate for the massive losses imposed, or 
to assist in putting in place measures to ensure the 
sustainable long-term management of elephants given the 
realities of the competition for land. We are therefore doubly 
grateful for the support provided to sustainable wildlife 
management provided to the southern African region by the USA, 
with significant funding provided by USAID and small but 
strategic funding provided through the AECA.
    The sustainability of local communities management programs 
will depend on adequate funding as well as the tolerance of 
domestic and international trade regimes for carefully 
controlled and sustainable trade in wildlife resources. In this 
regard, we encourage further U.S. conservation efforts to 
proceed in accordance with the framework of CITES.
    As the U.S. considers the Reauthorization of the Africa 
Elephant Conservation Act, we urge the policy makers to take 
into account the effectiveness of CBCD programs in wildlife 
conservation as they evaluate programs for assistance under the 
Act. Since sport hunting is an important source of revenue for 
the programs, we request your committee to consider the 
exemption of sport hunting trophies from import restrictions in 
line with the committee's original intentions.
    Mr. Chairman, we thank you and members of this Subcommittee 
for this opportunity to testify on the African Elephant 
Conservation Act and to express our support for the 
Reauthorization Act of 1997.

                                ------                                


 Testimony of Barbara Jeanne Polo, Political Director, American Oceans 
                                Campaign

    (Testimony prepared with the assistance of Tanya 
Dobrzynski, Living Resources Specialist)

    Good morning. My name is Barbara Jeanne Polo and I am the 
Political Director of American Oceans Campaign (AOC), a 
national environmental organization dedicated to the protection 
and restoration of marine ecosystems. On behalf of AOC, I would 
like to thank Congressmen Saxton and Abercrombie, the 
Subcommittee on Fisheries Conservation, Wildlife and Oceans, 
and cosponsors of the ``Coral Reef Protection Resolution of 
1997'' for holding this hearing on coral reef restoration and 
protection.
    This hearing is timely because 1997 has been declared the 
International Year of the Reef, and also because coral reefs 
around the world are suffering from overwhelming destruction 
and calamitous declines. They need our attention and support.
    Coral reefs make up a tiny percentage of the earth. Their 
total land area is about equivalent to the size of Texas. They 
thrive in clean, clear, warm waters of the tropical and 
subtropical zones. Approximately 100 countries around the world 
have coral reefs within their territorial waters. The United 
States is one of these fortunate nations. In the U.S. these 
exotic treasures can be found in the waters of Florida, Hawaii, 
the Gulf of Mexico. They are also prominent features of the 
U.S. affiliated territories and islands such as Puerto Rico, 
the U.S. Virgin Islands, Guam, American Samoa, and the Northern 
Marianas.
    Although many Americans cannot claim to have seen a coral 
reef first hand, we have surely all seen these magically 
colorful and labyrinthine structures displayed on the pages of 
National Geographic or on the screens of our televisions. Their 
colors are numerous and vibrant; their shapes reflect the 
diversity of life on our entire planet, mirroring flowers, elk 
horns, sponges and even human brains. Coral reefs are perhaps 
the most glorious of marine ecosystems. They have inspired 
artists, scientists, environmentalists, politicians, and 
outdoor recreationalists alike to explore their mysterious 
qualities.
    Beauty is only the most apparent asset of the coral reef. 
Composed of tiny animal and plant-like elements which have 
taken thousands of years to produce the huge calcium carbonate 
structures we recognize as reefs today, coral reef ecosystems 
are the most productive and diverse ecosystems of the sea. 
Although the total number of reef-based species is still 
unknown, more than 3,000 different species can be found on a 
single reef in the Pacific and more than 1,000 on a single reef 
in the Caribbean. Overall, reefs provide the habitat for nearly 
25 percent of all marine life. They provide nursery and 
spawning grounds for nearly 15 percent of the world's fish 
catch, vital habitat for threatened and endangered species, 
such as sea turtles and manatees, and they protect coastal 
animals and plants from the turbulence of tides and storms.
    As the home of more than one third of the world's marine 
fish species, coral reefs provide an abundant protein source 
used to feed much of the world's population. On some Pacific 
atolls, reef-based fish and other species account for 50 
percent of the daily protein intake by locals. In the 
Caribbean, approximately 180 of the 350 known species of reef-
related fish are commercially marketed. So valuable are these 
ecosystems as ``fish-producers,'' they have been aptly touted 
by Rodney Salm of the World Conservation Union as ``no-cost, 
self-perpetuating fish farms which produce high-quality protein 
from essentially empty sea water.''
    Because of their ability to draw beach goers, divers, 
sightseers and sport fishers, coral reefs directly and 
indirectly generate billions of dollars in tourist revenue. In 
fact, one of our premiere reefs, the Florida Keys Reef tract, 
is the most-visited coral reef in the world, catering to an 
average of four million tourists per year and contributing 
billions in tourist dollars to the State's economy. In Hawaii 
the income from coral-related diving alone is $20 million per 
year.
    In addition to their intrinsic beauty and vital ecological 
and economic functions, coral reefs may hold the key to finding 
the cures for cancer, AIDS, arthritis and other mentally and 
physically debilitating conditions. It has already been 
discovered that common reef-dwellers such as sea fans and sea 
anemones contain antimicrobial, anti-carcinogenic, and cardio-
active properties. In addition, certain species of reef coral, 
including Porites and Gorgonian corals, have been used to 
construct bone grafts for patients requiring maxillofacial and 
cranial surgery.
    The values of coral reefs, therefore, are abundant. 
Unfortunately, stress caused by a host of human induced changes 
to their environment is taking a dramatic toll on coral reefs 
in the U.S. and around the world. Scientists estimate that of 
the existing reefs in the world, 10 percent have already 
suffered irreversible damage and another 30 percent are likely 
to be lost within the next decade if serious actions are not 
taken to reverse the devastation wrought by human activities.
    Among the most devastating of human activities are marine- 
and land-based water pollution, overfishing, destructive 
fishing practices, coastal development, and loss of habitat. 
Coral reefs require clean, clear, water that is low in 
nutrients. However, sediment and fertilizer runoff from coastal 
development and agricultural production are polluting coral 
reef waters, blocking the sun from the reef's plant-like 
components and encouraging overgrowth of nutrient-loving algae, 
which can smother reefs. Over-fishing of reef fish, sea urchins 
and other ``grazers'' which commonly keep algal growth in check 
is also leading to algal overgrowth on coral reefs. Loss of 
mangroves and other fringing wetlands, which filter pollutants 
from aquatic systems, exacerbates the problems of sediment, 
nutrient and toxic pollution runoff.
    Indeed, these threats sound even more grim when one 
considers that coastal populations are expected to continue 
increasing and exact even greater tolls on coral reef 
ecosystems. Currently more than 60 percent of the world's 
population--3.8 billion people--lives within 100 miles of the 
coast. This figure is expected to rise to 75 percent within 
three decades (Don Hinrichsen, The Amicus Journal, ``Pushing 
the Limits...,'' 1996). These figures closely reflect current 
and forecasted coastal population estimates of the United 
States. Currently, 55 percent of all U.S. residents live and 
work in 772 coastal counties contiguous to the coasts. This 
figure is expected to rise to 75 percent by the year 2025 
(Hinrichsen 1996).
    The scientific community has been raising concerns over the 
loss of coral reefs within international forums for years. In 
1994, following the recommendations of Agenda 21 and other 
global efforts, the International Coral Reef Initiative (ICRI) 
was proposed. This effort recognized that reefs around the 
world are subject to similar threats and hoped to better 
coordinate independent efforts to research, monitor, manage and 
protect coral reefs. This effort started among eight countries 
and has grown to include more than seventy countries worldwide. 
Through a series of workshops, the development of a ``Call to 
Action'', and a State of the Reefs Report, the ICRI effort has 
chosen to focus on four major areas. These areas are coastal 
management, capacity building, research and monitoring, and 
review of activities.
    As these areas of concern received greater attention, many 
problems were identified. Those that were identified as the 
most critical areas for concern and international coordination 
include: a lack of coordinated coastal management to protect 
reefs; funding for research and monitoring coral reef 
ecosystems; building networks for getting critical information 
to local, state and federal governments, to coral reef resource 
users (like fishers) and to tourists and the general public; 
and finally, analysis and evaluation of the programs that do 
exist.
    H. Con. Res. 8 supports the goals of ICRI and encourages 
improvements in many reef-related U.S. activities. It resolves 
that Congress will promote stewardship, encourage research and 
education, and improve coordination of reef-related activities. 
American Oceans Campaign strongly supports all of these goals 
and hopes that through Congressional commitment, the means to 
accomplish these ends will be identified.
    The environmental community would like to recommend a few 
minor corrections to H. Con. Res. 8, prior to passage. Please 
include the Northern Marianas in the list of U.S. territories 
where reefs are of vital economic importance. Please make a 
distinction between underwater National Parks which feature 
coral reefs such as the National Park System's Buck Island 
Reef, administered by the Department of Interior and National 
Marine Sanctuaries such as Florida Keys National Marine 
Sanctuary, administered by NOAA. Each provide important but 
different contributions to the protection of U. S. coral reefs. 
Add a final point (4) demanding and funding better 
implementation and enforcement of provisions in existing 
statutes, such as the Clean Water Act, the Magnusen-Stevens 
Sustainable Fisheries Act, and the Coastal Zone Management Act, 
that will protect coral reef ecosystems.
    There are many legislative avenues available to Congress to 
help protect, educate, research and restore coral reef 
ecosystems. Since the greatest threats to reefs are the result 
of human action, regulation of those actions can relieve the 
threats. Water pollution, destructive fishing practices, poorly 
planned and managed coastal development, inappropriate trade 
practices, and lack of protection for threatened species can be 
addressed through new legislation or enforcement of current 
law. We should be world leaders in this effort and H. Con Res. 
8 demonstrates a commitment at the highest legislative levels 
to make coral reef health a priority in this country. Chairman 
Saxton and his cosponsors are providing the groundwork for the 
Federal leadership we need to develop enforceable, secure 
protection for coral reefs.
    Reviewing the causes of and solutions to water quality 
degradation in the Florida Keys can illustrate ways that 
legislation will help to protect coral reefs. The Florida Keys 
are experiencing a precipitous decline in water quality. Many 
human activities and decisions have combined to cause this 
degradation. There is a massive influx of agricultural run-off 
from Florida Bay and the Everglades due to management decisions 
to restore fresh water flows without an accompanying effort to 
clean up the water. Coastal development continues in the 
fragile southern Florida and Keys ecosystems loosening soils 
that cause millions of pounds of sediments to flow into the 
ocean and smother the reefs. This development is also 
responsible for destroying the fringing mangrove forests that 
act as natural filters for pollution and sediments before water 
reaches the ocean. There are thousands of sources of 
inadequately treated sewage pouring onto the reef from 
cesspits, septic tanks, injection wells, and inadequate 
treatment plants. These are necessary to ``treat'' the sewage 
from 87,000 year-round residents and more than four million 
tourists per year. The largest fleet of charter boats serves 
the Florida Keys since it is the world's largest recreational 
diving destination. These boats dump millions of gallons of raw 
sewage into the ocean around the reefs.
    All of these human activities that have caused massive 
degradation of Florida keys water quality can be controlled 
through legislation, many by merely enforcing existing 
provisions of the Clean Water Act. Marine water quality 
standards must be developed that take into account the 
biological needs of the marine life in coastal waters. Point 
and non-point sources of pollution must be required to stop 
polluting beyond these standards. Rare and unique ecosystems, 
such as coral reefs, should be designated as Outstanding 
Natural Resource Waters and afforded an even higher level of 
protection. Sources of polluted run-off such as cesspits, 
septic tanks and agricultural fields must comply with 
enforceable pollution prevention programs in the coastal 
states. Sewage from boats must be stopped. No discharge zones 
for boats must be designated and enforced. Mangroves are free, 
natural filters of pollution and should be protected. 
Protecting the wetlands, mangrove forests, and sea grasses that 
provide the transition from land to sea is the least costly way 
we can protect water quality. Treatment is far more expensive 
and less effective than prevention.
    Through oversight, Congress has the ability to emphasize 
under-enforced provisions of the Clean Water Act that would 
address standard setting, storm water discharges, boat 
discharges, protection of wetlands and mangroves, and ocean 
discharges of sewage to waters that support coral reefs. 
Through new legislation Congress could strengthen coral reef 
protection by improving polluted run-off control programs and 
emphasizing the special nature of reefs. Finally, Congress can 
give EPA and the states enough money to accomplish their Clean 
Water Act goals, including enough money to build sewage 
treatment plants that can control nutrients.
    As part of our ``International Year of the Coral Reef'' 
agenda, American Oceans Campaign, in conjunction with the Clean 
Water Network, is working on a report that will describe in 
detail how the Clean Water Act can be instrumental in 
protecting and restoring U.S. coral reefs. Many important 
provisions of the Act have never been implemented and others 
are not enforced. Better implementation and enforcement of the 
Act, along with a few minor strengthening amendments will go 
far to restore water quality necessary for healthy coral reefs. 
Our report will be completed in June. We will provide it to 
Congress at that time.
    The Coastal Zone Management Act also has provisions for 
addressing polluted run-off in the coastal zone and for 
managing coastal development to minimize environmental damage. 
The polluted run-off sections of this Act have always been 
funded well below authorized levels. States have been asked to 
develop plans to ensure that they have enforceable measures 
that would stop polluted run-off in their coastal watersheds. 
This is a necessary and laudable goal, however, there are no 
models for this and the Federal government has provided 
essentially no money to the states to help them comply with the 
mandate. It is no wonder they have yet to get this critical job 
done. Congress could appropriate enough money to coastal states 
to enable them to develop their coastal polluted run-off 
programs and target additional funds to implement the programs.
    Marine species are under-represented in the lists of 
threatened and endangered species under the Endangered Species 
Act. This is largely due to the fact that it is difficult to 
monitor species in the ocean. Coral reef ecosystems play a 
critical role in the life cycles of 25% of all marine life. 
Their component species need to be identified, studied, 
monitored and protected when threatened. We need to ensure that 
barriers to listing populations of marine invertebrates under 
the Endangered Species Act are removed.
    Reefs are natural areas that generate fish. Many commercial 
fish species live and breed in coral reef ecosystems. 
Therefore, lots of fishing takes place on reefs. Many fishing 
methods are taking a toll on reefs that will eventually destroy 
the reef and the fisheries. Highly destructive fishing methods, 
including use of cyanide, dynamite or surfactants to stun fish 
are common place. Cyanide and surfactants are poisons. They 
kill or stun the desired catch as well as the rest of the life 
on the reef. There is also concern that they would affect the 
eventual consumer of the fish. These techniques are often 
employed to capture fish for the tropical fish aquaria trade. 
U.S. hobbyists are the largest consumers of reef fish for 
aquariums and are usually unaware that their hobby is killing 
the reefs they so admire. Outreach to the public on the effects 
of these practices could help to engender a market-based 
partial solution to inappropriate fishing methods.
    Dynamite blasts stun and kill fish in the vicinity of the 
reef so they are more easily collected, but also destroy the 
infrastructure of the reef itself. These methods may be 
successful for an individual fisher in the short run, but they 
destroy the future of the fishery for us all. Dynamite fishing 
also destroys the ability of coral reefs to protect coastal 
areas from fierce coastal storms. Once a reef has been breached 
by dynamite, ocean currents, previously held at bay, can sweep 
into fragile shorelines and erode them even in calm seas.
    Other fishing practices that are destructive to reefs but 
less obvious are those that target particular species that are 
necessary to carry out a ``job'' critical to the well being of 
reefs. Grouper and sea urchins live in coral reefs. Both are 
prized commercial fisheries. Both eat algae. When grouper and 
sea urchins are harvested out of a coral reef, the algae grow 
out of control. Uncontrolled algae smother the hard coral 
species by blocking sunlight and depleting available oxygen. 
Eventually they destroy the productivity of the reef. Under the 
Magnuson-Stevens Sustainable Fisheries Act, areas such as reefs 
should be designated as essential fish habitat and made off-
limits to this kind of destructive fishing. If certain areas of 
coral reefs were designated as marine reserves and these 
species which fill critical niches in the ecosystem were 
protected, everyone would have healthier fisheries over the 
long term.
    Designation of marine reserves is becoming more and more 
common around the world, particularly in communities and 
countries that are very economically dependent on healthy reef 
fisheries. Marine reserves are very controversial in this 
country. Through the National Marine Sanctuary Program, a very 
small marine reserve has been designated, over great 
opposition, in the Florida Keys Marine Sanctuary Plan. This 
reserve is small, and likely to be inadequate to do the job of 
regenerating fisheries in the area. If we use this tiny attempt 
to judge the success of marine reserves, we are doing a 
disservice to science. As Regional Fishery Management Councils 
are revisiting their fishery management plans over the next two 
years in response to the mandate under the Sustainable 
Fisheries Act, Congress should encourage them to use marine 
reserves and essential fish habitat designation to protect the 
future of our fisheries and our coral reefs.
    The Florida Keys National Marine Sanctuary also offers an 
opportunity to address water pollution since it has a Water 
Quality Protection Program element. This program, headed by 
USEPA funds water quality research and monitoring. Through this 
project water pollution sources can be positively identified. 
If managed correctly, identification will only be the first 
step, not the last. Once identified, Congress, the state and 
local governments must fund corrective measures.
    NOAA has taken the lead in the U. S. in carrying out the 
goals of the International Coral Reef Initiative. They have 
laudable and lofty goals to promote science for improved 
management, to foster sustainable coastal development, and to 
spread information about coral reefs. To accomplish these 
goals, NOAA needs to coordinate with other Federal, state, 
local, academic and non-governmental partners. They need to 
research, monitor and assess U.S. reefs. They need to identify 
management priorities. They need to find sustainable methods 
for utilizing reef resources. They need to get information to 
the most important communities and users. To carry out all of 
these programs they need money.
    In closing, American Oceans Campaign would again like to 
express our appreciation to the sponsors of Congressional 
resolutions to protect coral reefs. They have opened the door 
to ongoing dialog about stronger measures that can be taken by 
the Federal Government, or on the state and local levels. 
Attached to this testimony is a letter signed by many national, 
regional and local groups interested in reef protection, asking 
for a series of field hearings to explore solutions to existing 
coral reef threats. We look forward to a continuing search for 
ways to ensure a long and healthy future for these exquisite 
natural resources.
    Thank you.

                                ------                                


                      * AMERICAN OCEANS CAMPAIGN *

         * CENTER FOR MARINE CONSERVATION * CORALATIONS, INC.*

                * CORAL FOREST * THE COUSTEAU SOCIETY *

               * ENVIRONMENTAL SOLUTIONS INTERNATIONAL *

           * FLORIDA INSTITUTE OF OCEANOGRAPHY * GREENPEACE *

             * MISIOAE1N INDUSTRIAL DE PUERTO RICO, INC. *

       * NATIONAL AQUARIUM IN BALTIMORE * THE NATURE CONSERVANCY

        * OCEANWATCH * REEFKEEPER INTERNATIONAL * REEF RELIEF *

         * SAVE OUR SEAS * SIERRA CLUB * WORLD WILDLIFE FUND *

    The Honorable James Saxton
    Subcommittee on Fisheries Conservation, Wildlife and Oceans
    United States House of Representatives
    Washington, D.C. 20515

    March 10, 1997

    Dear Chairman Saxton:

    We, the undersigned organizations, would like to thank you 
for the efforts you have made to promote the restoration and 
protection of coral reef ecosystems through introduction of the 
``Coral Reef Protection Resolution of 1997,'' (H. Con. Res. 8). 
We are also encouraged by the scheduling of the Congressional 
Hearing on coral reefs to be held by your Subcommittee on March 
13. In addition, we feel there is an equally important need to 
convene hearings at the regional level in order to promote 
information sharing and enhance the national understanding of 
how coral reef systems affect and support local communities.
    As you know, coral reefs around the world are in a state of 
crisis that promises to bring these underwater treasures to 
collapse unless many of the problems they face are addressed. 
Scientists estimate that 30 percent of the world's reefs could 
see irreversible declines in the next decade if the problems of 
overfishing, polluted runoff, and siltation due to non-
conservation-minded development are not ameliorated. Continued 
declines would surely wreak ecological and economic havoc, as 
coral reefs are home to 25 percent of all marine life and 
contribute billions of dollars to coastal economies annually.
    The coral reefs of the Florida Keys, Hawaii, Puerto Rico, 
the Virgin Islands, the Northern Marianas, Guam, American Samoa 
and other U.S. affiliated islands are exhibiting many of the 
same symptoms of stress and illness due to anthropogenic 
effects as others around the world. Therefore, we urgently 
request that the Subcommittee on Fisheries Conservation, 
Wildlife and Oceans conduct a series of hearings, including 
field hearings in cooperation with state-level governments, in 
southern Florida, the Hawaiian islands, and other U.S. 
affiliated islands in the Caribbean and the Pacific, related to 
the dangers facing coral reefs. These hearings should cover a 
wide range of the critical issues threatening coral reef health 
today, including: land-based pollutants, over fishing, 
destructive fishing practices (muro ami, cyanide, and dynamite 
fishing), vessel groundings, sedimentation, loss of fringing 
wetlands, and coastal development.
    We are confident that with 1997 being the International 
Year of the Reef, the national interest and enthusiasm for 
coral reefs is piqued. Therefore, now is the time to conduct 
national discussions relating to the plight of coral reefs 
nationwide and the means to protect them.
    Again, we are encouraged that your Subcommittee has acted 
so promptly in the 105th Congress to focus national attention 
on the dangers facing coral reefs. We look forward to hearing 
from you soon regarding our request.
    Warmest Regards,

    Tanya Dobrzynski
    American Oceans Campaign
    Washington, D.C.

    Lynn Davidson
    Environmental Solutions International
    Washington, D.C.

    Alexander Stone
    ReefKeeper International
    Miami, FL

    Mark Chiappone
    The Nature Conservancy
    Coral Gables, FL

    John Ogden
    Florida Institute of Oceanography
    St. Petersburg, FL

    Gerald Leape
    Greenpeace
    Washington, D.C.

    David M. Pittenger
    National Aquarium in Baltimore
    Baltimore, MD

    Cliff McCreedy
    Oceanwatch
    Vienna, VA

    Larry Williams
    Sierra Club
    Washington, D.C.

    Craig Quirolo
    Reef Relief
    Key West, FL

    Carl Stepath
    Save Our Seas
    Hanalei, HI

    Tundi Agardi
    World Wildlife Fund
    Washington, D.C.

    Mary Ann Lucking
    CORALations
    San Juan, P.R.

    Rick Schwabacher
    The Cousteau Society
    Washington, D.C.

    Wendy Weir
    Coral Forest
    San Francisco, CA

    Jorge FemaAE1ndez Barto
    MisioAE1n Industrial de
    Puerto Rico, Inc.
    Autorey, P.R.

    Jack Sobel
    Center for Marine Conservation
    Washington, D.C.

                                ------                                


 Testimony of Rafe Pomerance, Deputy Assistant Secretary of State for 
     Oceans and International Environmental and Scientific Affairs

    Thank you for giving me the opportunity to submit this 
testimony for the record.
    Scientists estimate that more than two-thirds of the 
earth's coral reefs are threatened or in decline. Damaged or 
destroyed reefs can be found along the shores of more than 93 
countries including the United States and its territories. 
Over-fishing, destructive fishing practices, land-based sources 
of marine pollution, and sedimentation linked to deforestation 
are the primary causes of the decline in coral reefs. 
Accidental ship grounding or anchor damage can occur even in 
protected marine sanctuaries like those of the Florida Keys. 
Global warming due to increased concentrations of greenhouse 
gases may result in sea level rise and higher ocean 
temperatures; both of which have the potential to be highly 
destructive to corals.
    Reef destruction is viewed among policy-makers and resource 
managers as a serious loss of economic potential worldwide. 
Coral reefs protect coastlines from the ravages of storms and 
waves. Unchecked coastal erosion can cause serious economic 
instability along developed coastlines. Coral reefs are 
recreational and educational commodities and lucrative sources 
of revenue and jobs for both the fishing and tourism 
industries. As host to an awe-inspiring biodiversity, reefs are 
among the most important food reservoirs in the ocean. What is 
more, coral reefs constitute an untapped source for potentially 
valuable medicinal and industrial compounds. Scientists are 
astounded by the unique chemical structures of marine 
byproducts, and early results have yielded compounds with anti-
microbial, anti-inflammatory, and anti-cancer properties.
    To combat the serious threats to coral reefs worldwide, the 
U.S. spearheaded efforts to establish the International Coral 
Reef Initiative (ICRI) in 1994, and hosted the Global 
Secretariat until July 1996. ICRI was designed as a partnership 
of governments, local communities, scientists, conservation 
groups, resource users, and private interests aimed at 
protecting, managing and monitoring coral reef resources 
including associated ecosystems like sea grass beds and 
mangroves. ICRI has grown rapidly over the past three years 
from a small group of founding partners to a large consortium 
in which over 73 countries participate. By design, ICRI project 
ownership and leadership is intentionally devolved to a 
regional or national level where local resource users shape 
policies to achieve action appropriate to their specific 
circumstances.
    Within the U.S., the Departments of State and Interior, 
NOAA, USAID, NSF, and EPA comprise integral parts of the 
federal effort to stop the destruction of coral reefs. When the 
activities of academic institutions, non-governmental 
organizations and dive, tourism, and travel industry interests 
are also considered, the result is a productive alliance. It is 
this broad, multi-tiered, coordinated effort that has made the 
International Coral Reef Initiative effective. During President 
Clinton's recent visit to Australia's Great Barrier Reef, he 
praised the International Coral Reef Initiative as ``a shining 
example of what we can achieve....our effort to save the 
world's reefs is a model for the work that we can do together 
in other environmental areas''.
    Within the 1995 Call to Action and Framework for Action, 
ICRI partners endorsed a fourfold strategy to save coral reefs 
around the world. First, efforts are being devoted to improving 
our knowledge of the status of coral reef ecosystems and how 
they operate. It is important to gather information on 
population and community dynamics and on the physiological 
processes at work in coral reef ecosystems. Scientists are 
trying to discover the causes and cures for diseases and other 
phenomena that are responsible for killing 50-80% of the 
elkhorn corals off South Florida, 90% of the coral cover in a 
Venezuelan national park, and widespread coral bleaching events 
witnessed in the Caribbean and Pacific Basin--to list only a 
few examples.
    One of the key achievements of the ICRI is the 
establishment of the Global Coral Reef Monitoring Network 
(GCRMN). The aim of the GCRMN is to document the current status 
of coral reefs around the world so that thoughtful and informed 
conservation and sustainable use strategies can be developed.
    The second goal of ICRI is to formulate management 
strategies with conservation and sustainable use objectives. 
ICRI partners aim to establish reef management policy that 
protects, manages, monitors, and restores fragile reef 
ecosystems. International ICRI activities have included a major 
diplomatic campaign and a series of global and regional 
workshops which have been convened in the Pacific, Tropical 
Americas, South and East Asian Seas, East Africa and the 
Western Indian Ocean to develop action plans for the 
conservation and sustainable use of coral reefs.
    ICRI has been an important catalyst for regional 
cooperation in the Caribbean to develop a strategy to conserve 
the queen conch, a reef associated species which has been over-
fished. To address this problem, a highly successful conference 
was held in 1996 and attended by representatives from 18 
Caribbean governments who agreed to begin work on a common 
management strategy for the queen conch and to consult on other 
regional fishery issues in the future.
    As the third part of the ICRI strategy and complimentary to 
our focus on sustainable management, participants are also 
working to decrease the threats to reef ecosystems. Initiative 
partners must expand efforts to reduce the physical changes 
inflicted on fragile reef communities whether they are due to 
land-based or marine pollution, ship and anchor impact, alien 
species, temperature and sea level fluctuation, or destructive 
fishing practices.
    The Department of State hosted a global conference in 1995 
which adopted the Global Program of Action (GPA) on the 
Protection of the Marine Environment from Land-Based 
Activities. This initiative reflects ICRI objectives and 
launches long-term efforts to deal with land-based marine 
pollution including municipal, industrial and agricultural 
wastes, sewage and wastewater, heavy metals nutrients and 
sediments.
    The increased use of cyanide to harvest fish for aquarium 
and restaurant demands is a serious threat to some of the 
world's most diverse coral reefs. The practice of cyanide 
fishing began in the Philippines and is rapidly spreading 
throughout the Pacific Basin. This process kills many of the 
target fish as well as other non-target fish and corals. The 
U.S. is working with established international organizations, 
foreign governments, conservation groups, and representatives 
from both the aquarium fish and cyanide industries to halt this 
destructive practice. As a result of U.S. efforts, the cyanide 
industry is actively working on an improved, non-destructive 
test which would detect trace amounts of cyanide long after 
fish capture.
    The final objective of ICRI is to successfully educate the 
general public, industry, and policy makers of the threats to 
coral reefs. The participants in the International Coral Reef 
Initiative have been instrumental in the design and endorsement 
of the 1997 International Year of the Reef. As part of this 
year-long effort, over thirty countries, academic and 
government agencies, and NGOs have launched efforts to sponsor 
workshops, develop national action plans, and strengthen 
public-private partnerships to address the global degradation 
of coral reef ecosystems. For example, Colombia has launched 
its Year of the Reef program with the announcement of the 
discovery of a new species of black coral. Brazil will focus 
world attention on the only reefs found in the South Atlantic 
and their significance due to an abundance of unique life 
forms. Oman has published a series of articles detailing plans 
to protect its coral reefs, and the South Pacific Regional 
Environment Programme has launched its own 1997 Pacific Year of 
the Coral Reef.

    H. Con. Res. 8 and H. Con. Res. 87

    There is a limited window of opportunity to reduce the 
serious threats facing coral reefs. ICRI has made great strides 
in the past three years, providing a strong and well-accepted 
framework for future efforts both in protecting our national 
reef treasures and in fostering similar action around the 
world. The Department of State supports two resolutions which 
foster the sustainable use of coral reef ecosystems. H. Con. 
Res. 8, expressing the sense of Congress with respect to the 
significance of maintaining the health and stability of coral 
reef ecosystems, was introduced by Mr. Saxton (R-NJ) and 
recognizes the importance of protecting this vital resource. On 
March 11, Mr. Miller (D-CA) introduced H. Con. Res. 87, 
expressing the sense of the House that the United States and 
the United Nations should condemn coral reef fisheries that are 
harmful to coral reef ecosystems and promote the development of 
sustainable coral reef fishing practices worldwide. This 
resolution encourages continued international cooperation and 
promotes ICRI efforts to save coral reefs.
    Again, Mr. Chairman, thank you for letting me submit 
testimony for the record on this important environmental issue.

                                ------                                


                   Statement of Jean-Michel Cousteau


    ``The Importance of Protecting the Health and Vitality of 
Coral Reefs''


    I would like to applaud the commitment the United States 
has made to protecting coral reefs through helping create the 
International Coral Reef Initiative, creating National Marine 
Sanctuaries where coral reefs exist, supporting the 
International Year of the Coral Reef and now this Resolution.
    I have had the good fortune of traveling extensively and 
witnessing first hand many coral reefs around the world. I have 
seen the vital connections between the health of coral reefs 
and the quality of peoples lives where loss of reef resources 
has caused hardship for local communities. I have also observed 
how activities such as cutting forests, agricultural runoff, 
pollution, overfishing, and destructive fishing can affect the 
vitality of coral reefs, again with negative impact on people. 
Likewise, coral reefs themselves are interconnected on wide 
geographic scales through fish migrations, the dispersal and 
recruitment of fish and shellfish larvae, and as people travel 
to exploit or enjoy the reef's resources. Although the United 
States may have relatively few coral reefs within its 
territorial boundaries, it is appropriate that attention be 
given to coral reefs worldwide because they are all connected 
in one way or another.
    I would like to address a couple of issues of particular 
interest to me--management and education. Papua New Guinea is 
one of the few countries that has a constitution which 
specifically addresses the protection of natural resources for 
future generations. Many other countries in Asia, the South 
Pacific and Caribbean, though, have Ministries of the 
Environment which are dedicated to the sustainable management 
of natural resources, including coral reefs. In spite of noble 
proclamations about protecting coral reefs, in every country I 
have visited I can site examples of reefs severely 
overexploited or stressed from human mismanagement.
    Extensive deforestation in Indonesia has released nutrients 
and sediments which stress reefs. In Papua New Guinea I have 
seen reefs reduced to rubble from dynamite fishing and local 
people missing limbs from premature explosions. In Haiti, a 10 
foot high wall of conch shells called the pink cliffs, extends 
along a coastline for almost a mile. Fishermen now lament the 
collapse of their fishery and believe the conch population has 
moved, denying that overharvest is the cause.
    Although there doesn't seem to be scientific consensus on 
direct cause and effect to explain the decline in Florida's 
coral reefs, human activity both in the sea and on land is 
certainly involved. The most devastated reefs I have ever 
witnessed surround the tiny country of Nauru which has had one 
of the highest per capita income in the world. Mining and 
resultant destruction of over 80% of the landscape provided 
money, but has eliminated the natural heritage for future 
generations. Young people with whom I have spoken, and who have 
no need or incentive to work, told me their greatest wish would 
be to be able to dive and enjoy healthy and productive coral 
reefs.
    In my opinion the common denominator in these examples of 
mismanagement is that national policies are ineffective unless 
people are educated about reefs. People need to appreciate the 
value of coral reefs to humanity, how a coral reef functions, 
why reefs are vulnerable to human impact and how they can be 
managed sustainably under the reality of local conditions. 
Thus, education is absolutely critical in helping protect coral 
reefs--education at the international and national level, 
education at the level of village children and everything in 
between.
    As you may know, education has been my primary activity 
during my professional career. The focus was originally film, 
however my team and I are now expanding our activities to a 
variety of other media and strategies. Children should have a 
good understanding of coral reefs because they will inherit, 
and have the responsibility to manage what we leave them. To 
address this need, we have recently produced a CD-ROM entitled 
Cities Under the Sea: Coral Reefs, which, through the power of 
the computer, offers young people the opportunity to learn and 
explore at their own pace. At the other extreme, we are 
implementing educational programs in Fiji for village children 
to give them an awareness of coral reefs.
    Among the most frequent users of coral reefs are sport 
divers. We believe they should be outspoken proponents for the 
sustainable management of reefs, well-educated about reef 
ecology, and actively involved in reef monitoring. To this end, 
we have created our ``Ambassadors of the Environment'' program. 
This is an educational program which prepares dive masters and 
instructors to educate sport divers and motivate them to get 
involved in responsible stewardship. In addition, we are 
working with the Global Coral Reef Monitoring Network to use 
divers as ``watch dogs'' of the reef, alerting the scientific 
and management communities of possible changes and threats.
    Ecotourism is a term commonly applied to a host of 
activities, many of which are not particularly environmentally-
sensitive. I am presently involved in a resort in Fiji and 
structuring it so that it will serve as a model for responsible 
development elsewhere. Since such resorts and dive operations 
commonly result in diver impact on corals, fish and shellfish 
depletion, sewage impact on reefs and coastal disruption, we 
believe there needs to be an exploration of alternatives which 
are more sustainable. At this resort, we are demonstrating that 
there is another way by attempting to practice what we have 
preached for so many years.
    We are implementing constructed wetlands to treat waste and 
enable us to use it as a resource for fertilizing the 
landscape. Of course, reclaiming these nutrients prevents them 
from polluting the reef as well. This treated resource also 
enables us to create edible landscaping, where much of our food 
can be organically grown on site. We have no air conditioning, 
rather, high-thatched roofs, louvered windows and the shade of 
abundant trees provide all the cooling needed for comfort. The 
use of solar water heating, as well as water and energy 
conservation, keep expenses down and protect the environment. 
Integrated pest management reduces the use of pesticides. None 
of the fish served in the restaurant come from reefs. Guests 
are involved in reef monitoring and mangrove restoration 
programs and we are working with the local communities on a 
number of programs, from recycling to establishing marine 
reserves. We have implemented collaborative projects with the 
Fijian Departments of Energy, Fisheries and Education as well 
as the University of the South Pacific.
    We see this experiment in practical ecology as the best way 
to obtain convincing evidence that humanity and nature can co-
exist. Our data is now proving that economic success and 
environmental responsibility are feasible. It is an educational 
experience for everyone involved: the guests, local people, our 
collaborators and certainly, ourselves.
    We believe every coastal development or activity which 
impacts or depends on coral reefs should strive to protect the 
very resource which attracts tourists, provides resources or 
offers spiritual and cultural enrichment for local people. One 
of the reasons this is not happening is that people are not 
informed of the importance of reefs, the connections of reefs 
to themselves and options for sustainable management.
    Our programs in education and sustainable management could 
be replicated elsewhere and I would be happy to share our 
experiences with others who have similar objectives.
    In summary, I believe we have to carefully manage our coral 
reef resources in the United States and throughout the world. 
As the country with the most-traveled population, we have an 
obligation to educate our citizens to their responsibilities in 
our coastal waters and their responsibilities as they engage in 
commerce and recreation in the coastal waters of other 
countries. With education and management we can protect the 
vital coral reef resources for future generations.
    I am pleased that H. Con. Res. 8 addresses many of the 
important issues facing coral reefs and particularly support 
the Resolution's attention to better coordination among the 
many parties involved in coral reef research, use and 
management. Our experience in Fiji has shown that this somewhat 
laborious process is the only way consensus regarding long-term 
protection can take place.

                                ------                                


 Statement of David C. Murchison, President, Southern Africa Wildlife 
                                 Trust

    Thank you, Mr. Chairman, for this opportunity to appear 
before the Subcommittee in connection with its consideration of 
H.R. 39, the African Elephant Conservation Reauthorization Act 
of 1997.
    The Southern Africa Wildlife Trust supports this measure, 
except that it would favor an increase in the amount of funds 
authorized to be appropriated to a minimum of $2 million per 
year until 2002.
    The Southern Africa Wildlife Trust is a foundation 
organized under Section 501(c)3 of the Internal Revenue Code to 
carry out wildlife conservation projects in the southern Africa 
region. In the period since adoption of the 1988 statute, 
projects to protect and conserve the African elephant have 
received our priority attention. One such project is a grant 
under the 1988 Act designed to reduce commercial poaching of 
the elephant in Botswana, Tanzania, Zambia and Zimbabwe. The 
amount of grant funds we are authorized to receive for this 
project from the African Elephant Conservation Fund is 
approximately $64,000. These grant funds are augmented by 
contributions received from the private sector, principally the 
Philadelphia Safari and Conservation Club, the Dallas Safari 
Club, the Houston Safari Club and the African Safari Club of 
Washington. In addition, services in kind are provided by the 
Trust's officers and directors without compensation.
    The project consists of a program of Awards for Meritorious 
Service to Wildlife Conservation presented to eligible scouts 
and rangers in the wildlife departments of Botswana, Tanzania, 
Zambia and Zimbabwe. Each award includes a laminated 
certificate of commendation, a medal to be worn on the 
recipient's uniform, a pair of high quality binoculars for use 
on future missions, and an honararium in foreign currency 
equivalent to U.S. $100.00. To qualify for the award, a scout 
or ranger must have participated in a hostile engagement with 
armed commercial poachers; he must have exhibited personal 
bravery in the course of the encounter; and the anti-poaching 
operation must have been a successful one, with the poachers 
being captured, killed or put to flight. The names of personnel 
receiving the award are then inscribed on a bronze Roll of 
Honor plaque displayed at the headquarters offices of the 
wildlife departments.
    Since its adoption, this awards program has enjoyed an 
extraordinary level of public acceptance in the southern Africa 
region. It has received the strong endorsement of the 
governments of Botswana, Tanzania, Zambia and Zimbabwe, as well 
as our own government, and the consensus continues to be that 
it has greatly improved the morale of anti-poaching personnel 
and the quality of enforcement operations. Our monitoring in 
the field confirms that the incidence of poaching has been 
reduced since enactment of the 1988 Act, and we are satisfied 
that an important contributing factor has been the increased 
determination and dedication of anti-poaching personnel in 
these areas of high elephant population.
    Of course, this grant project is but one of some sixty 
conservation projects authorized by the Fish & Wildlife Service 
in seventeen elephant range states. I have observed a number of 
these grant projects in operation. It would be difficult indeed 
to find better examples of efficient and effective 
implementation of Congressional action than the Service is 
providing in these instances. Considered individually or as a 
group, there can be little question that they fully carry out 
the intent of Congress. Today the elephant is more secure as a 
result, and the threat of extinction present in the 1980s has 
been slowed in important degree. H.R. 39 will provide the basis 
for a continuation of this sound grant administration.
    A larger question is whether the legislative authority 
should be continued until 2002. In the Trust's view, the answer 
is an emphatic ``yes.''
    In June of this year, the conference of CITES parties will 
take place in Harare. We have received unconfirmed reports that 
vast ivory stocks in the Far East now have been largely 
depleted, and that proposals may be made and pressed at the 
conference that will likely stimulate a resumption of high 
international ivory demand. In such event, the commercial 
poachers can be expected to resume their unrelenting attacks on 
the elephant, and once again that magnificent animal will be 
targeted for extinction. It is thus essential that the 
legislative basis for meaningful response be continued.
    Many conservationists are fearful that the conditions of 
the 1980s will return. In the space of that single decade, 
Africa's elephant population was cut literally in half by 
commercial poachers--from approximately 1.3 million in 1979 to 
fewer than 650 thousand on the entire continent by the end of 
the eighties.
    In Kenya, for example, where sportshunting had been stopped 
for many years and Richard Leakey had been appointed to head 
the wildlife service, the elephant population dropped 
precipitiously from 130,000 to only 16,000, an eight-fold 
decrease in less than a decade.
    The incentive for all of this killing in Kenya, as well as 
in other range states, was the price of ivory, which at 
wholesale had skyrocketed to $90 or more, with no sign of a 
softening of demand.
    In Japan, its insatiable demand for ivory had reached 75 
percent of total world consumption. At this level, Japan's 
consumption required the killing of at least 53,000 elephants 
annually, more than three times Kenya's total elephant 
population.
    It was against this background that the United States, 
through the Congress and President Bush, stepped in to halt 
international behavior that was at once reprehensible and 
incredibly shortsighted.
    Even now, it is unclear whether the Japanese, by agreeing 
to the ivory ban, gave up their obsession for ivory piano keys, 
ivory chess sets, ivory seals and other ivory products deemed 
of greater value than living elephants, or whether the existing 
substantial inventory in Japan of elephant tusks simply was 
sufficient to satisfy domestic demand for awhile. Whatever the 
fact, reports from the Far East now suggest a revival of 
earlier demand and a corresponding willingness to resume the 
slaughter. At the CITES meeting, we suspect the truth will 
emerge so that appropriate action by the United States and 
other signatories will be possible. If not, this Subcommitee 
should consider looking into the matter, since it bears an 
important relationship to H.R. 39 and the bill's purpose to 
promote longterm elephant conservation.
    The Trust believes that, in view of the twin needs of 
continuing the funding of worthwhile grant projects at an 
optimum level while maintaining the ability to deal effectively 
with the evident threat of resumed international poaching 
operations, the Subcommittee should authorize appropriations in 
H.R. 39 at a level of at least $2 million annually. A lesser 
amount will not provide reasonable assurance that gains under 
the 1988 Act can be preserved.
    An example of conservation gains achieved with funds from 
the African Elephant Conservation Fund was the great elephant 
rescue of 1992-3. In that two-year period, Zimbabwe suffered 
its most severe drought in many decades. The death toll of 
wildlife was staggering. In Gonarezhou National Park, in the 
southeast lowveld, hundreds of elephants died of thirst or 
starvation, and hundreds of others faced a similar fate or 
death by culling unless a major rescue operation could be 
organized. Under a grant issued by the Fish & Wildlife Service, 
a former officer of Zimbabwe's Department of National Parks, 
Clem Coetsee, developed a removal and relocation system that 
has forever changed elephant conservation principles. Under the 
Coetsee system, an entire family group can be darted from a 
helicopter, using haloperidol and trilafon, two relatively new 
tranquilizers. The immobilized elephants are first loaded onto 
capture trucks and then transferred to modified shipping 
containers on larger tractor-trailers. After receiving an 
antidote, the elephants are moved to predetermined new 
habitats. During the drought, Coetsee moved slightly fewer than 
a thousand elephants and thus averted a disaster of immense 
proportions. None of this would have been possible in the 
absence of funding from the Fish & Wildlife Service.
    The conservation significance of the Coetsee system cannot 
be overstated. For the first time in the memory of man, entire 
family groups can be moved instead of culled. The Trust is 
currently hard at work researching opportunities to apply the 
system, and it is working closely with experts in the southern 
Africa region to identify and implement these opportunities, 
particularly in areas having pockets of excess elephants that 
can be moved elsewhere. Both Zimbabwe and South Africa have 
organized capture and removal teams in their wildlife 
departments. Given the resources and technical help, it is 
expected that other countries will follow suit. Today, in many 
elephant range states, elephant populations cannot be sustained 
in traditional habitats. New habitats must be identified to 
receive these animals, unless they are to be dispatched on the 
culling grounds. Fortunately, there are many such habitats, 
both publicly and privately owned. To be sure, high 
translocation costs and other factors raise a myriad of 
problems, and solutions are often hard to come by. In the 
future, the African Elephant Conservation Fund can be an 
invaluable source of help in improving the system--and thereby 
achieving the objectives of H.R. 39.
    The Gonarezhou rescue is but one example of grant projects 
under the African Elephant Conservation Fund that have 
contributed importantly to elephant conservation. There are 
many others. Taken together, they justify approval of H.R. 39, 
with the amendment we recommend.
    Thank you for this opportunity to appear before the 
Subcommittee.

                                ------                                


      Testimony of The American Zoo and Aquarium Association (AZA)

    Dear Mr. Chairman and Members of the Subcommittee:
    The American Zoo and Aquarium Association (AZA) appreciates 
the opportunity to submit these comments in strong support of 
H.R 39, legislation to reauthorize the African Elephant 
Conservation Act (AECA) through the year 2002, and House 
Concurrent Resolution 8, expressing the importance for 
maintaining the health and stability of coral reef ecosystems.

    H.R 39--African Elephant Conservation Act

    AZA would like to thank Congressman Don Young and 
Congressman Duke Cunningham for introducing the reauthorization 
legislation so early in the session, and for the Subcommittee's 
early commitment to moving this critical bill to the House 
floor in 1997.
    The AZA represents virtually every professionally operated 
zoological park, aquarium, wildlife park, and oceanarium in 
North America, as well as over 6,000 individual members. More 
than 119 million people visit the AZA's 180 zoos and aquariums 
each year, more than attend all professional baseball, 
basketball, football, and hockey games combined.
    In the view of AZA, the African Elephant Conservation Act 
(AECA) and its subsequent Conservation Fund, is extremely 
important because it is the only continuous source of money to 
assist African countries in their conservation efforts to 
protect and manage this important species. The AECA money has 
been used to finance over 50 conservation projects in 17 range 
states throughout Africa, providing for $5,434,025 in 
programmatic funding and $8,651,332 in matching funds. The 
funds have allowed for enhanced habitat protection--anti-
poaching equipment, and the management of these magnificent 
creatures. The AZA echoes Dr. Maple's testimony. The AECA 
deserves continued strong support from this Subcommittee and 
Congress because it is a good example of an effective public-
private partnership. In fact, AZA urges the Administration to 
at least double its request of $1 million.
    In 1979, the African elephant population stood at 1.3 
million--only to see its number drop dramatically to 
approximately 700,000 in 1988 largely due to the worldwide 
demand for ivory. Today, there are between 286,000 to 500,000 
elephants in 17 range states throughout Africa. Congress passed 
the AECA in 1988 to address the growing concerns for the 
welfare of elephant populations in Africa, and the ivory 
trade--a direct threat to the survival of many elephant 
populations. Following the enactment of the law in 1989, the 
U.S. imposed a ban on the importation to the U.S. of African 
ivory. At that time, the United States consumed 30 percent of 
all ivory traded in the world. At the height of the ivory 
trade, approximately 800 tons was being exported from Africa 
each year, translating to about 80,000 elephant deaths.
    By taking the lead to protect the African elephant, both at 
home and abroad, the United States, (and those nations that 
followed our lead), have given certain African elephant 
populations the time--and protection--needed to rebound to 
sustainable population levels. The AECA has proven itself 
effective. The Act helps to protect the species from 
uncontrolled slaughter, while the Fund continues to make 
available monies for important conservation efforts that have 
made a difference.
    While the AZA has not been a recipient of AECA funds, our 
members continue to work with 136 of these magnificent 
creatures to educate our visitors on the elephant's 
intelligence, complex social and family structure, and their 
importance to their ecosystem. Our role and that of our 
institutions is to educate our visitors. We hope you agree that 
your role is to guarantee that financial support will be 
available for other countries and organizations to protect the 
elephants in wild for generations to come.

    House Concurrent Resolution 8--Coral Reef Protection

    The American Zoo and Aquarium Association (AZA) also would 
like to comment in strong support for H.Con.Res. 8, a 
resolution to recognize the significance of maintaining the 
health and stability of coral reef ecosystems around the world. 
We especially thank Chairman Saxton for introducing this 
resolution early in the session to coincide with the ongoing 
efforts celebrating 1997 as the International Year of the Reef 
(IYOR) and thereby recognizing the importance of coral reef 
conservation.
    Aside from the rainforests of Asia and South America, coral 
reef ecosystems are the most biologically diverse environments 
on Earth. They provide habitat for 25 percent of all marine 
life. With ten percent of the world's reefs already seriously 
degraded and a much greater percentage threatened, particularly 
in areas adjacent to human populations, H.Con.Res. 8 will help 
to bring greater attention to coral reef conservation. 
Furthermore, reefs are essential to the economic health of 
millions of aquatic animals and the nations of the world that 
depend on them. In AZA institutions, coral reef exhibits are 
one of the most popular exhibits in AZA aquariums today.
    Since September 1996, the AZA and its members have been 
actively involved with the Commerce and State Departments in a 
public awareness campaign to promote coral reef conservation, 
and support efforts to highlight 1997 as International Year of 
the Reef (IYOR). AZA, in concert with a number of its member 
institutions, The Curtis and Edith Munson Foundation, the 
National Fish and Wildlife Foundation, and Martin and Chris 
Kratt of the PBS children's wildlife series ``Kratts' 
Creatures'', has sponsored a regional/national poster contest 
geared toward elementary schools children. The winner will be 
announced on 3 April at the National Zoo.
    In addition, as part of AZA's coral reef efforts, we have 
assembled an education kit that will be distributed to our 180 
institutions for use by teachers. The kit consists of four 
parts: The Coral Forest Teacher's Guide, a 5-minute and a 20-
minute edited version of the ``Fragile Ring of Life'' video (a 
video produced with AID funds for the Year of the Reef), a 
slideshow presentation, and a copy of the International Year of 
the Reef public service announcement. This dynamic Educator's 
Kit will be distributed to AZA institutions this spring.
    Coral reef environments are threatened increasingly by 
human activity. This legislation will assist in raising the 
awareness to protect these fragile ``rings of life.''
    Thank you for your consideration of our comments.

                                ------                                

[GRAPHIC] [TIFF OMITTED] T0189.004

[GRAPHIC] [TIFF OMITTED] T0189.005

[GRAPHIC] [TIFF OMITTED] T0189.006

[GRAPHIC] [TIFF OMITTED] T0189.007

[GRAPHIC] [TIFF OMITTED] T0189.008

[GRAPHIC] [TIFF OMITTED] T0189.009

[GRAPHIC] [TIFF OMITTED] T0189.010

[GRAPHIC] [TIFF OMITTED] T0189.011

[GRAPHIC] [TIFF OMITTED] T0189.012

[GRAPHIC] [TIFF OMITTED] T0189.013

[GRAPHIC] [TIFF OMITTED] T0189.014

[GRAPHIC] [TIFF OMITTED] T0189.015

[GRAPHIC] [TIFF OMITTED] T0189.016

[GRAPHIC] [TIFF OMITTED] T0189.017

[GRAPHIC] [TIFF OMITTED] T0189.018

[GRAPHIC] [TIFF OMITTED] T0189.019

[GRAPHIC] [TIFF OMITTED] T0189.020

[GRAPHIC] [TIFF OMITTED] T0189.021

[GRAPHIC] [TIFF OMITTED] T0189.022

[GRAPHIC] [TIFF OMITTED] T0189.023

[GRAPHIC] [TIFF OMITTED] T0189.024

[GRAPHIC] [TIFF OMITTED] T0189.025

[GRAPHIC] [TIFF OMITTED] T0189.026

[GRAPHIC] [TIFF OMITTED] T0189.027

[GRAPHIC] [TIFF OMITTED] T0189.028

[GRAPHIC] [TIFF OMITTED] T0189.029

[GRAPHIC] [TIFF OMITTED] T0189.030

[GRAPHIC] [TIFF OMITTED] T0189.031

[GRAPHIC] [TIFF OMITTED] T0189.032

[GRAPHIC] [TIFF OMITTED] T0189.033

[GRAPHIC] [TIFF OMITTED] T0189.034

[GRAPHIC] [TIFF OMITTED] T0189.035

[GRAPHIC] [TIFF OMITTED] T0189.036

[GRAPHIC] [TIFF OMITTED] T0189.037

[GRAPHIC] [TIFF OMITTED] T0189.038

[GRAPHIC] [TIFF OMITTED] T0189.039

[GRAPHIC] [TIFF OMITTED] T0189.040

[GRAPHIC] [TIFF OMITTED] T0189.041

[GRAPHIC] [TIFF OMITTED] T0189.042

[GRAPHIC] [TIFF OMITTED] T0189.043

[GRAPHIC] [TIFF OMITTED] T0189.044

[GRAPHIC] [TIFF OMITTED] T0189.045

[GRAPHIC] [TIFF OMITTED] T0189.046

[GRAPHIC] [TIFF OMITTED] T0189.047

[GRAPHIC] [TIFF OMITTED] T0189.048

[GRAPHIC] [TIFF OMITTED] T0189.049

[GRAPHIC] [TIFF OMITTED] T0189.050

[GRAPHIC] [TIFF OMITTED] T0189.051

[GRAPHIC] [TIFF OMITTED] T0189.052

[GRAPHIC] [TIFF OMITTED] T0189.053

[GRAPHIC] [TIFF OMITTED] T0189.054

[GRAPHIC] [TIFF OMITTED] T0189.055

[GRAPHIC] [TIFF OMITTED] T0189.056

[GRAPHIC] [TIFF OMITTED] T0189.057

[GRAPHIC] [TIFF OMITTED] T0189.058

[GRAPHIC] [TIFF OMITTED] T0189.059

[GRAPHIC] [TIFF OMITTED] T0189.060

[GRAPHIC] [TIFF OMITTED] T0189.061

[GRAPHIC] [TIFF OMITTED] T0189.062

[GRAPHIC] [TIFF OMITTED] T0189.063

[GRAPHIC] [TIFF OMITTED] T0189.064

[GRAPHIC] [TIFF OMITTED] T0189.065

[GRAPHIC] [TIFF OMITTED] T0189.066

[GRAPHIC] [TIFF OMITTED] T0189.067

[GRAPHIC] [TIFF OMITTED] T0189.068

[GRAPHIC] [TIFF OMITTED] T0189.069

[GRAPHIC] [TIFF OMITTED] T0189.070

[GRAPHIC] [TIFF OMITTED] T0189.071

[GRAPHIC] [TIFF OMITTED] T0189.072

[GRAPHIC] [TIFF OMITTED] T0189.073

[GRAPHIC] [TIFF OMITTED] T0189.074

[GRAPHIC] [TIFF OMITTED] T0189.075

[GRAPHIC] [TIFF OMITTED] T0189.076

[GRAPHIC] [TIFF OMITTED] T0189.077

[GRAPHIC] [TIFF OMITTED] T0189.078

[GRAPHIC] [TIFF OMITTED] T0189.079

[GRAPHIC] [TIFF OMITTED] T0189.080

[GRAPHIC] [TIFF OMITTED] T0189.081

[GRAPHIC] [TIFF OMITTED] T0189.082

                                  <all>
</pre></body></html>
